No. 19-351
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------FEDERAL REPUBLIC OF GERMANY, a foreign state,
and STIFTUNG PREUSSICHER KULTURBESITZ,
Petitioners,
v.
ALAN PHILIPP, et al.,
Respondents.
---------------------------------♦--------------------------------On Writ of Certiorari To The United States
Court of Appeals For The D.C. Circuit
---------------------------------♦--------------------------------JOINT APPENDIX
---------------------------------♦--------------------------------JONATHAN M. FREIMAN
Counsel of Record
TADHG DOOLEY
BENJAMIN M. DANIELS
DAVID R. ROTH
WIGGIN AND DANA LLP
265 Church Street
P.O. Box 1832
New Haven, CT 06508-1832
(203) 498-4400
jfreiman@wiggin.com

NICHOLAS M. O’DONNELL
Counsel of Record
ERIKA L. TODD
SULLIVAN & WORCESTER LLP
One Post Office Square
Boston, MA 02109
(617) 338-2814
nodonnell@sullivanlaw.com
Counsel for Respondents

DAVID L. HALL
WIGGIN AND DANA LLP
Two Liberty Place
50 S. 16th Street
Suite 2925
Philadelphia, PA 19102
(215) 998-8310
Counsel for Petitioners
Petition For Certiorari Filed September 16, 2019
Certiorari Granted July 2, 2020
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
TABLE OF CONTENTS
Page
Relevant Docket Entries from the United States
District Court for the District of Columbia,
1:15-cv-00266-CKK ...................................................1
Relevant Docket Entries from the United States
Court of Appeals for the District of Columbia
Circuit, 17-7064 .......................................................23
First Amended Complaint, United States District Court for the District of Columbia, 1:15cv-00266-CKK .........................................................42
Exhibits to First Amended Complaint, United
States District Court for the District of Columbia, 1:15-cv-00266-CKK ..................................134
Declaration of Martin Seyfarth in Support of
Motion to Dismiss, United States District
Court for the District of Columbia, 1:15-cv00266-CKK ............................................................197
Expert Opinion of Professor Dr. Christian Armbrüster ..................................................................205
Declaration of Mr. Markus H. Stötzel in Support
of Plaintiffs’ Opposition to Defendants’ Motion to Dismiss the Complaint, United States
District Court for the District of Columbia,
1:15-cv-00266-CKK ...............................................237
Supplemental Expert Opinion of Professor Dr.
Christian Armbrüster ...........................................246

ii
TABLE OF CONTENTS—Continued
Page
The following materials have been omitted in
printing this Joint Appendix because they appear on the following pages in the appendix to
the Petition for a Writ of Certiorari:
United States Court of Appeals for the District
of Columbia Circuit, Opinion, dated July 10,
2018 ............................................................ Pet.App.1
United States Court of Appeals for the District
of Columbia Circuit, Judgment, dated July 10,
2018 ...........................................................Pet.App.25
United States District Court for the District of
Columbia, Memorandum Opinion, dated May
18, 2017 .....................................................Pet.App.27
United States District Court for the District of
Columbia, Order, dated May 18, 2017 ......Pet.App.35
United States District Court for the District of
Columbia, Memorandum Opinion, dated
March 31, 2017 ..........................................Pet.App.37
United States District Court for the District of
Columbia, Order, dated March 31, 2017....Pet.App.94
United States Court of Appeals for the District
of Columbia Circuit, Order denying petition
for rehearing, dated June 18, 2019 ...........Pet.App.96
United States Court of Appeals for the District
of Columbia Circuit, Brief for the United
States as Amicus Curiae in Support of Rehearing En Banc, dated September 14,
2018 .........................................................Pet.App.119

iii
TABLE OF CONTENTS—Continued
Page
Letter Brief of Amicus Curiae United States,
dated September 9, 2004 ........................Pet.App.137
Expert Report on the Possibility of Bringing a
Claim in a German Court, dated March 7,
2016 .........................................................Pet.App.155
Supplemental Expert Opinion on the Possibility
of Bringing a Claim in a German Court, dated
June 7, 2016 ............................................Pet.App.193
The following materials have been omitted in
printing this Joint Appendix because they appear on the following pages in the supplemental appendix to the Brief in Opposition to
the Petition for Writ of Certiorari:
Expert Opinion by Prof. Dr. Stephan
Meder ..................................................... Supp.App.93
Holocaust Expropriated Art Recovery Act of
2016 ..................................................... Supp.App.117

1
U.S. District Court
District of Columbia (Washington, DC)
CIVIL DOCKET FOR CASE #: 1:15-cv-00266-CKK
Cause: 28:2201 Declaratory Judgment
Date Filed # Docket Text
02/23/2015 1 COMPLAINT against FEDERAL
REPUBLIC OF GERMANY,
STIFTUNG PREUSSISCHER
KULTURBESITZ (Filing fee $ 400
receipt number 0090-4001803) filed
by ALAN PHILIPP, GERALD G.
STIEBEL. (Attachments: # 1 Exhibit
1, # 2 Exhibit 2, # 3 Exhibit 3, # 4
Exhibit 4, # 5 Exhibit 5, # 6 Exhibit
6, # 7 Exhibit 7, # 8 Civil Cover
Sheet, # 9 Summons, # 10
Summons)(O’Donnell, Nicholas)
(Entered: 02/23/2015)
02/23/2015

Case Assigned to Judge Colleen
Kollar-Kotelly. (md,) (Entered:
02/24/2015)

02/24/2015 2 SUMMONS (2) Issued Electronically
as to FEDERAL REPUBLIC OF
GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ.
(Attachments: # 1 Notice of Consent,
# 2 Consent Form) (md,) (Entered:
02/24/2015)
02/24/2015 3 ORDER Establishing Procedures for
Cases Assigned to Judge Colleen
Kollar-Kotelly. Signed by Judge

2
Colleen Kollar-Kotelly on February
24, 2015. (NS) (Entered: 02/24/2015)
07/14/2015 4 NOTICE of Appearance by Jonathan
M. Freiman on behalf of FEDERAL
REPUBLIC OF GERMANY,
STIFTUNG PREUSSISCHER
KULTURBESITZ (Freiman,
Jonathan) (Entered: 07/14/2015)
07/14/2015 5 MOTION for Extension of Time to
File Answer re 1 Complaint, and to
Set Subsequent Deadlines by
FEDERAL REPUBLIC OF
GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ
(Freiman, Jonathan) (Entered:
07/14/2015)
07/14/2015

MINUTE ORDER (paperless). Upon
consideration of Defendants’ 5
Motion to Extend the Deadline for
Responding to the Complaint, and to
Set Subsequent Deadlines, to which
Plaintiffs consent, it is hereby
ORDERED that the Defendants’
Motion is GRANTED. Defendants
shall answer or otherwise respond to
Plaintiffs’ Complaint by no later
than OCTOBER 30, 2015. To the
extent that Defendants file a motion
to dismiss as their responsive
pleading, the parties shall adhere to
the following briefing schedule.
Plaintiffs shall file their opposition to
a motion to dismiss by no later than
FEBRUARY 1, 2016. Defendants

3
shall file their reply in support of a
motion to dismiss by no later than
MARCH 17, 2016. Signed by Judge
Colleen Kollar-Kotelly on July 14,
2015. (NS) (Entered: 07/14/2015)
07/14/2015

Set/Reset Deadlines: Answer or
responsive pleading due by
10/30/2015. If motion filed: Response
due by 2/1/2015. Reply due by
3/17/2016. (dot) (Entered:
07/15/2015)

07/15/2015 6 MOTION for Leave to Appear Pro
Hac Vice :Attorney Name – David L.
Hall, :Firm – Wiggin and Dana LLP,
:Address – Two Liberty Place, 50 S.
16th Street, Suite 2925,
Philadelphia, PA 19102. Phone No. –
(215) 988-8325. Fax No. – (215) 9888344 Filing fee $ 100, receipt number
0090-4176510. Fee Status: Fee Paid.
by FEDERAL REPUBLIC OF
GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ
(Attachments: # 1 Exhibit A –
Declaration of David L. Hall in
Support of Pro Hac Vice Admission,
# 2 Exhibit B – Proposed
Order)(Freiman, Jonathan) (Entered:
07/15/2015)
07/15/2015 7 MOTION for Leave to Appear Pro
Hac Vice :Attorney Name – Tahlia
Townsend, :Firm – Wiggin and Dana
LLP, :Address – One Century Tower,
265 Church Street, New Haven, CT

4
06510-7001. Phone No. – (203) 4984339. Fax No. – (203) 782-2889 Filing
fee $ 100, receipt number 00904176592. Fee Status: Fee Paid. by
FEDERAL REPUBLIC OF
GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ
(Attachments: # 1 Exhibit A –
Declaration of Tahlia Townsend in
Support of Pro Hac Vice Admission,
# 2 Exhibit B – Proposed
Order)(Freiman, Jonathan) (Entered:
07/15/2015)
07/16/2015

MINUTE ORDER (Paperless). The
Motions for the Admission Pro Hac
Vice of 6 David L. Hall and 7 Tahlia
Townsend as counsel for Defendants
Federal Republic of Germany and
Stiftung Preussischer Kulturbesitz,
are hereby GRANTED. Signed by
Judge Colleen Kollar-Kotelly on July
16, 2015. (NS) (Entered: 07/16/2015)

10/16/2015 8 Consent MOTION for Leave to File
Excess Pages to briefs in support of a
motion to dismiss by FEDERAL
REPUBLIC OF GERMANY,
STIFTUNG PREUSSISCHER
KULTURBESITZ (Attachments: # 1
Proposed Order)(Freiman, Jonathan)
(Entered: 10/16/2015)
10/16/2015 9 ORDER GRANTING Defendants’ 8
Consented-to Motion to File Excess
Pages. The parties may file briefs
regarding the motion to dismiss in

5
excess of LCvR 7(e), not to exceed 75
pages for memoranda in support of
or in opposition to the motion to
dismiss, and 35 pages for
Defendants’ reply memorandum.
Signed by Judge Colleen KollarKotelly on October 16, 2015. (NS)
(Entered: 10/16/2015)
10/29/2015 10 MOTION for Leave to Appear Pro
Hac Vice :Attorney Name –
Benjamin M. Daniels, :Firm – Wiggin
and Dana LLP, :Address – One
Century Tower, 265 Church Street,
New Haven, CT 06510-7001. Phone
No. – (203) 498-4350. Fax No. – (203)
782-2889 Filing fee $ 100, receipt
number 0090-4297820. Fee Status:
Fee Paid. by FEDERAL REPUBLIC
OF GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ
(Attachments: # 1 Declaration of
Benjamin Daniels, # 2 Proposed
Order)(Freiman, Jonathan) (Entered:
10/29/2015)
10/29/2015 11 MOTION for Leave to Appear Pro
Hac Vice :Attorney Name – David
Roth, :Firm – Wiggin and Dana LLP,
:Address – One Century Tower, 265
Church Street, New Haven, CT
06510-7001. Phone No. – (203) 4984394. Fax No. – (203) 782-2889 Filing
fee $ 100, receipt number 00904297822. Fee Status: Fee Paid. by
FEDERAL REPUBLIC OF

6
GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ
(Attachments: # 1 Declaration of
David Roth, # 2 Proposed
Order)(Freiman, Jonathan) (Entered:
10/29/2015)
10/29/2015 12 MOTION to Dismiss and
Incorporated Memorandum of Law
by FEDERAL REPUBLIC OF
GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ
(Attachments: # 1 Exhibit A, # 2
Exhibit B, # 3 Exhibit C, # 4
Proposed Order) (Freiman,
Jonathan) (Entered: 10/29/2015)
10/30/2015

MINUTE ORDER (Paperless). Upon
consideration of Defendants’ Motions
for Admission of Attorney Pro Hac
Vice, of 10 Benjamin M. Daniels and
of 11 David Roth, the Motions are
hereby GRANTED. Signed by Judge
Colleen Kollar-Kotelly on October 30,
2015. (NS) (Entered: 10/30/2015)

01/14/2016 13 CONSENT TO THE FILING OF AN
AMENDED COMPLAINT by ALAN
PHILIPP, GERALD G. STIEBEL,
JED LEIBER. (Attachments: # 1
Exhibit 1)(O’Donnell, Nicholas)
(Entered: 01/14/2016)
01/14/2016 14 AMENDED COMPLAINT (First)
against FEDERAL REPUBLIC OF
GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ

7
filed by ALAN PHILIPP, JED
LEIBER, GERALD G. STIEBEL.
(Attachments: # 1 Exhibit 1, # 2
Exhibit 2, # 3 Exhibit 3, # 4 Exhibit
4, # 5 Exhibit 5, # 6 Exhibit 6, # 7
Exhibit 7, # 8 Exhibit 8) (O’Donnell,
Nicholas) (Entered: 01/14/2016)
01/14/2016 15 Unopposed MOTION for Extension
of Time to File Answer re 14
Amended Complaint, Plaintiffs
Opposition to Defendants Motion to
Dismiss, should one be filed, and
Defendants Reply to any Opposition
by Plaintiffs by JED LEIBER, ALAN
PHILIPP, GERALD G. STIEBEL
(O’Donnell, Nicholas) (Entered:
01/14/2016)
01/14/2016

MINUTE ORDER (Paperless). On
October 29, 2015, Defendants
Stiftung Preussischer Kulturbesitz
and the Federal Republic of
Germany filed their 12 Motion to
Dismiss. Subsequently, on January
14, 2016, Plaintiffs filed their 14
First Amended Complaint, the filing
of which was consented to by
Defendants pursuant to Federal Rule
of Civil Procedure 15(a)(2). As such,
the Court DENIES WITHOUT
PREJUDICE Defendants’ 12 Motion
to Dismiss as it does not address the
later-filed First Amended Complaint
and VACATES dates for briefing the

8
Motion as set forth in the Court’s
Minute Order of July 14, 2015.
Presently before the Court is the
Plaintiffs’ 15 Assented-to Motion to
Revise Response Deadlines, setting
forth a proposed schedule for the
parties to respond to the First
Amended Complaint. The unopposed
Motion is hereby GRANTED. As
such, Defendants shall answer or
otherwise respond to Plaintiffs’
Complaint by no later than MARCH
11, 2016. To the extent that
Defendants file a motion to dismiss
as their responsive pleading, the
parties shall adhere to the following
briefing schedule. Plaintiffs shall file
their opposition to a motion to
dismiss by no later than MAY 11,
2016. Defendants shall file their
reply in support of a motion to
dismiss by no later than JUNE 10,
2016. Signed by Judge Colleen
Kollar-Kotelly on January 14, 2016.
(NS) (Entered: 01/14/2016)
01/14/2016

Set/Reset Deadlines: Answer or
respond to Complaint due by
3/11/2016. Plaintiffs’ Responses
Motion to Dismiss due by 5/11/2016.
Reply due by 6/10/2016. (dot)
(Entered: 01/14/2016)

03/04/2016 16 Consent MOTION for Leave to File
Excess Pages by FEDERAL
REPUBLIC OF GERMANY,

9
STIFTUNG PREUSSISCHER
KULTURBESITZ (Attachments: # 1
Text of Proposed Order)(Freiman,
Jonathan) (Entered: 03/04/2016)
03/07/2016 17 ORDER granting 16 Motion for
Leave to File Excess Pages. Signed
by Judge Colleen Kollar-Kotelly on
3/5/16. (dot) (Entered: 03/07/2016)
03/11/2016 18 MOTION to Dismiss the Plaintiffs’
First Amended Complaint [Doc. No.
14] by FEDERAL REPUBLIC OF
GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ
(Attachments: # 1 Exhibit A, # 2
Exhibit B, # 3 Exhibit C, # 4
Proposed Order)(Freiman, Jonathan)
(Entered: 03/11/2016)
05/11/2016 19 Memorandum in opposition to re 18
MOTION to Dismiss the Plaintiffs’
First Amended Complaint [Doc. No.
14] filed by JED LEIBER, ALAN
PHILIPP, GERALD G. STIEBEL.
(Attachments: # 1 Declaration of
Nicholas M. O’Donnell in Opposition
to Defendants’ Motion to Dismiss, # 2
Exhibit 1 to Declaration of Nicholas
M. O’Donnell, # 3 Exhibit 2 to
Declaration of Nicholas M.
O’Donnell, # 4 Declaration of Markus
H. Stoetzel, # 5 Exhibit 1 to
Declaration of Markus H.
Stoetzel)(O’Donnell, Nicholas)
(Entered: 05/11/2016)

10
06/10/2016 20 REPLY to opposition to motion re 18
MOTION to Dismiss the Plaintiffs’
First Amended Complaint [Doc. No.
14] filed by FEDERAL REPUBLIC
OF GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ.
(Attachments: # 1 Exhibit A –
Thiessen Supplemental Expert
Opinion, # 2 Exhibit B – Armbrüster
Supplemental Expert
Opinion)(Freiman, Jonathan)
(Entered: 06/10/2016)
12/21/2016 21 NOTICE OF SUPPLEMENTAL
AUTHORITY by JED LEIBER,
ALAN PHILIPP, GERALD G.
STIEBEL (O’Donnell, Nicholas)
(Entered: 12/21/2016)
12/21/2016

MINUTE ORDER (Paperless). As
represented by Plaintiffs in their 21
Notice filed with the Court, it
appears that the Holocaust
Expropriated Art Recovery Act of
2016, H.R. 6130, Pub. L. No. 114-308
(“HEAR Act”) may have rendered
moot two of Defendants’ arguments
raised in their 18 Motion to Dismiss
the First Amended Complaint. As
such, the Court is issuing this Order
directing Defendants to set forth
their position as to whether or not
the HEAR Act moots their
arguments that Plaintiffs’ claims are
barred by the statute of limitations
and that Plaintiffs’ claims conflict

11
with U.S. policy. If Defendants do not
believe that these two arguments are
mooted by the HEAR Act, they
should state the basis for their
position. If Defendants agree that
the HEAR Act moots these two
arguments, they shall advise the
Court whether: (1) they seek to file
an amended motion to dismiss; or (2)
they seek for the Court to exclude
the mooted arguments and resolve
the remaining arguments in their
motion to dismiss as filed. As such,
Defendants are directed to file Notice
by no later than JANUARY 4, 2017,
advising the Court as to their
position on the issues outlined in this
Order. Signed by Judge Colleen
Kollar-Kotelly on December 21, 2016.
(NS) (Entered: 12/21/2016)
12/21/2016

Set/Reset Deadlines: Defendants are
directed to file Notice by 1/4/2017,
advising the Court as to their
position. (dot) (Entered: 12/29/2016)

01/04/2017 22 NOTICE by FEDERAL REPUBLIC
OF GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ
re Order,,,,, 21 NOTICE OF
SUPPLEMENTAL AUTHORITY,
Set/Reset Deadlines (Attachments:
# 1 Exhibit A – HEAR Act Senate
Report)(Freiman, Jonathan)
(Entered: 01/04/2017)

12
01/04/2017

MINUTE ORDER (Paperless). The
Court has reviewed the Plaintiffs’ 21
notice filed with the Court and
Defendants’ 22 response thereto. As
an initial matter, the Court notes
that both filings do not comport with
LCvR 5.1(d) as letters are not
accepted as a form of pleading in this
jurisdiction. However, the Court shall
accept these filings in exception to
the rule. The parties are instructed
to comply with LCvR 5.1(d) in all
future filings.
Upon review of the parties’ notices,
the Court has determined that it
requires additional information. By
no later than JANUARY 11, 2017,
Plaintiffs shall file a reply, if any, to
Defendants’ argument that the
Holocaust Expropriated Art Recovery
Act of 2016 (“HEAR Act”) confirms
that Plaintiffs’ claims conflict with
U.S. foreign policy. By no later than
JANUARY 18, 2017, the parties shall
file a joint status report with the
Court indicating whether the Court
may accept the arguments set forth
in the parties’ notices and any reply
from Plaintiffs thereto as
supplements to the parties’ briefing
on Defendants’ pending 18 Motion to
Dismiss the First Amended
Complaint, or whether it is the
parties’ view that new briefing is
required on the issue in light of the

13
passage of the HEAR Act. Signed by
Judge Colleen Kollar-Kotelly on
January 4, 2017. (NS) (Entered:
01/04/2017)
01/04/2017

Set/Reset Deadlines: Plaintiffs’ Reply
due by 1/11/2017. Joint Status
Report due by 1/18/2017. (dot)
(Entered: 01/06/2017)

01/11/2017 23 Civil Statement from Plaintiffs on
the Holocaust Expropriated Art
Recovery Act as it Relates to U.S.
Policy in response to the Courts
instructions in the January 4, 2017
Minute Order. (Attachments: # 1
Exhibit 1, # 2 Exhibit 2, # 3 Exhibit
3, # 4 Exhibit 4, # 5 Exhibit 5, # 6
Exhibit 6, # 7 Exhibit 7, # 8 Exhibit
8)(O’Donnell, Nicholas) (Entered:
01/11/2017)
01/18/2017 24 Joint STATUS REPORT (filed with
Defendants) on the Need For Further
Briefing on the Effect of the
Holocaust Expropriated Art Recovery
Act pursuant to the Court’s Minute
Order dated January 4, 2017 by JED
LEIBER, ALAN PHILIPP, GERALD
G. STIEBEL. (O’Donnell, Nicholas)
(Entered: 01/18/2017)
03/31/2017 25 ORDER GRANTING IN PART and
DENYING IN PART Defendants’ 18
Motion to Dismiss the First
Amended Complaint. Defendants’
Motion is GRANTED in that

14
Plaintiffs’ fraud in the inducement
(Count V), breach of fiduciary duty
(Count VI), breach of the covenant of
good faith and fair dealing (Count
VII), civil conspiracy (Count VIII),
and tortious interference (Count X)
claims are DISMISSED as conceded
based on Plaintiffs’ failure to respond
to the argument that these claims do
not involve rights in property.
Defendants’ motion is DENIED in all
other respects. Defendants shall file
their Answer to the remaining claims
in Plaintiffs’ First Amended
Complaint by no later than APRIL
21, 2017. Signed by Judge Colleen
Kollar-Kotelly on March 31, 2017.
(NS) (Entered: 03/31/2017)
03/31/2017 26 MEMORANDUM OPINION. Signed
by Judge Colleen Kollar-Kotelly on
March 31, 2017. (NS) (Entered:
03/31/2017)
03/31/2017

Set/Reset Deadlines: Answer due by
4/21/2017. (dot) (Entered:
03/31/2017)

04/21/2017 27 NOTICE OF APPEAL TO DC
CIRCUIT COURT as to 25 Order on
Motion to Dismiss,,, by STIFTUNG
PREUSSISCHER KULTURBESITZ,
FEDERAL REPUBLIC OF
GERMANY. Filing fee $ 505, receipt
number 0090-4923185. Fee Status:
Fee Paid. Parties have been notified.

15
(Freiman, Jonathan) (Entered:
04/21/2017)
04/21/2017 28 MOTION for Certification for
interlocatory appeal by FEDERAL
REPUBLIC OF GERMANY,
STIFTUNG PREUSSISCHER
KULTURBESITZ (Attachments: # 1
Exhibit A, # 2 Proposed
Order)(Freiman, Jonathan) (Entered:
04/21/2017)
04/21/2017 29 MOTION to Stay Further
Proceedings and Incorporated
Memorandum of Law by FEDERAL
REPUBLIC OF GERMANY,
STIFTUNG PREUSSISCHER
KULTURBESITZ (Attachments: # 1
Proposed Order)(Freiman, Jonathan)
(Entered: 04/21/2017)
04/24/2017 30 Transmission of the Notice of Appeal,
Order Appealed, and Docket Sheet to
US Court of Appeals. The Court of
Appeals fee was paid this date re 27
Notice of Appeal to DC Circuit Court.
(znmw) (znmw). (Entered:
04/24/2017)
04/24/2017

MINUTE ORDER (Paperless). Upon
consideration of Defendants’ 28
Motion for Certification of the
Court’s March 31, 2017, and
Defendants’ 29 Motion to Stay
Further Proceedings, the parties are
directed to adhere to the following
briefing schedule: Plaintiffs shall file

16
their response to the pending
motions by no later than MAY 5,
2017; and Defendants shall file their
reply, if any, to the pending motions
by no later than MAY 12, 2017.
Signed by Judge Colleen KollarKotelly on April 24, 2017. (NS)
(Entered: 04/24/2017)
04/24/2017

USCA Case Number 17-7064 for 27
Notice of Appeal to DC Circuit Court,
filed by FEDERAL REPUBLIC OF
GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ.
(zrdj) (Entered: 04/24/2017)

04/24/2017

Set/Reset Deadlines: Plaintiffs shall
file Responses to 28 and 29 by
5/5/2017. Replies due by 5/12/2017.
(dot) (Entered: 04/25/2017)

05/05/2017 31 Memorandum in opposition to re 29
MOTION to Stay Further
Proceedings and Incorporated
Memorandum of Law, 28 MOTION
for Certification for interlocatory
appeal filed by JED LEIBER, ALAN
PHILIPP, GERALD G. STIEBEL.
(Attachments: # 1 Text of Proposed
Order)(O’Donnell, Nicholas)
(Entered: 05/05/2017)
05/12/2017 32 REPLY to opposition to motion re 29
MOTION to Stay Further
Proceedings and Incorporated
Memorandum of Law, 28 MOTION
for Certification for interlocatory

17
appeal filed by FEDERAL
REPUBLIC OF GERMANY,
STIFTUNG PREUSSISCHER
KULTURBESITZ. (Freiman,
Jonathan) (Entered: 05/12/2017)
05/18/2017 33 ORDER GRANTING Defendants’ 28
Motion for Certification of the
Court’s March 31, 2017 Opinion and
GRANTING Defendants’ 29 Motion
to Stay Further Proceedings.
All proceedings in this matter shall
be STAYED until the D.C. Circuit
issues its mandate in Defendants’
interlocutory appeal in Philipp, et al.
v. Fed. Republic of Germany, et al.,
Case No. 17-7064 (D.C. Cir.).
This Court’s 25 Order of March 31,
2017, is AMENDED to add the
following statement: It is further
ORDERED that this 25 Order is
certified for immediate appellate
review because it involves “a
controlling question of law as to
which there is substantial ground for
difference of opinion” and because
“an immediate appeal from the order
may materially advance the ultimate
termination of the litigation.” 28
U.S.C. § 1292(b).
Signed by Judge Colleen KollarKotelly on May 18, 2017. (NS)
(Entered: 05/18/2017)
05/18/2017 34 MEMORANDUM OPINION. Signed
by Judge Colleen Kollar-Kotelly on

18
May 18, 2017. (NS) (Entered:
05/18/2017)
06/08/2017 35 Supplemental Record on Appeal
transmitted to US Court of Appeals
re 27 Notice of Appeal to DC Circuit
Court, 33 ORDER GRANTING
Defendants’ 28 Motion for
Certification. USCA Case Number
17-7064. (zrdj) (Entered: 06/08/2017)
08/01/2017 36 NOTICE OF APPEAL by FEDERAL
REPUBLIC OF GERMANY,
STIFTUNG PREUSSISCHER
KULTURBESITZ. Fee Status: No
Fee Paid. Parties have been notified.
(td) (Entered: 08/02/2017)
08/02/2017 37 Transmission of the Notice of Appeal,
Order Appealed (Memorandum
Opinion), and Docket Sheet to US
Court of Appeals. The Fee remains to
be paid and another notice will be
transmitted when the fee has been
paid in the District Court re 36
Notice of Appeal. (td) (Entered:
08/02/2017)
08/04/2017

USCA Appeal Fees received $ 505
receipt number 4616086459 re 36
Notice of Appeal filed by FEDERAL
REPUBLIC OF GERMANY,
STIFTUNG PREUSSISCHER
KULTURBESITZ (td) (Entered:
08/04/2017)

08/04/2017 38 Supplemental Record on Appeal
transmitted to US Court of Appeals

19
re 36 Notice of Appeal ;USCA Case
Number 17-7117. (td) (Entered:
08/04/2017)
08/04/2017

USCA Case Number 17-7117 for 36
Notice of Appeal filed by FEDERAL
REPUBLIC OF GERMANY,
STIFTUNG PREUSSISCHER
KULTURBESITZ. (td) (Entered:
08/04/2017)

07/16/2019 39 MANDATE of USCA as to 36 Notice
of Appeal filed by FEDERAL
REPUBLIC OF GERMANY,
STIFTUNG PREUSSISCHER
KULTURBESITZ, 27 Notice of
Appeal to DC Circuit Court, filed by
FEDERAL REPUBLIC OF
GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ ;
USCA Case Number 17-7064,
Consolidated with 17-711 7.
(Attachments: # 1 USCA
Judgment)(zrdj) (Entered:
07/25/2019)
07/30/2019 40 ORDER DISMISSING WITH
PREJUDICE this case as to
Defendant Federal Republic of
Germany. Signed by Judge Colleen
Kollar-Kotelly on 07/30/2019. (DM)
(Entered: 07/30/2019)
08/05/2019 41 ORDER: Initial Scheduling
Conference set for 8/28/2019 at 11:30
AM in Courtroom 28A before Judge
Colleen Kollar-Kotelly. Signed by

20
Judge Colleen Kollar-Kotelly on
08/28/19. (DM) (Entered: 08/05/2019)
08/23/2019 42 MEET AND CONFER STATEMENT.
(O’Donnell, Nicholas) Modified event
title on 8/26/2019 (znmw). (Entered:
08/23/2019)
08/23/2019 43 MOTION to Stay Pending Petition
for Writ of Certiorari To The United
States Supreme Court by FEDERAL
REPUBLIC OF GERMANY,
STIFTUNG PREUSSISCHER
KULTURBESITZ (Attachments: # 1
Appendix A, # 2 Appendix B, # 3
Appendix C, # 4 Appendix
D)(Freiman, Jonathan) (Entered:
08/23/2019)
08/28/2019

MINUTE ORDER: On August 28,
2019, the Court held a Status
Conference in this matter. During
the Status Conference, the parties
discussed Defendants’ 43 Motion to
Stay Pending Petition for Writ of
Certiorari to the United States
Supreme Court. Plaintiffs will file a
Response to Defendants’ Motion by
SEPTEMBER 6, 2019 and
Defendants will file a Reply in
support of their Motion by
SEPTEMBER 13, 2019. Following
the parties’ briefing, the Court will
issue a written ruling. Defendants
are ORDERED not to file any
additional Motions to Dismiss until
the Court has resolved the Motion to

21
Stay and has conducted another
Status Conference with the parties.
Signed by Judge Colleen KollarKotelly on 8-28-2019. (lcckk3)
(Entered: 08/28/2019)
08/28/2019

Minute Entry for proceedings held
before Judge Colleen Kollar-Kotelly:
Status Conference held on 8/28/2019.
Plaintiffs’ Response to 43 due by
9/6/2019. Defendants’ Reply to 43
due by 9/13/2019. (Court Reporter
Lisa Edwards.) (dot) (Entered:
08/29/2019)

09/06/2019 44 Memorandum in opposition to re 43
MOTION to Stay Pending Petition
for Writ of Certiorari To The United
States Supreme Court filed by JED
LEIBER, ALAN PHILIPP, GERALD
G. STIEBEL. (O’Donnell, Nicholas)
(Entered: 09/06/2019)
09/13/2019 45 REPLY to opposition to motion re 43
MOTION to Stay Pending Petition
for Writ of Certiorari To The United
States Supreme Court filed by
FEDERAL REPUBLIC OF
GERMANY, STIFTUNG
PREUSSISCHER KULTURBESITZ.
(Attachments: # 1 Exhibit A, # 2
Exhibit B, # 3 Exhibit C)(Freiman,
Jonathan) (Entered: 09/13/2019)
09/16/2019 46 NOTICE of Petition for a Writ of
Certiorari Filed in the U.S. Supreme
Court by STIFTUNG

22
PREUSSISCHER KULTURBESITZ
(Attachments: # 1 Exhibit A (Cert
Petition))(Freiman, Jonathan)
(Entered: 09/16/2019)
01/29/2020 47 ORDER granting 43 Defendants’
Motion to Stay Pending Petition for
Writ of Certiorari. Signed by Judge
Colleen Kollar-Kotelly on 15-266.
(DM) (Entered: 01/29/2020)
01/29/2020 48 MEMORANDUM OPINION re: 43
Defendants’ Motion for Stay Pending
Petition for Writ of Certiorari. A
separate Order accompanies this
Opinion. Signed by Judge Colleen
Kollar-Kotelly on 1/29/2020. (DM)
(Entered: 01/29/2020)

23
General Docket
United States Court of Appeals
for District of Columbia Circuit
Court of Appeals Docket #: 17-7064
Alan Philipp; Gerald Stiebel; Jed Leiber,
Plaintiffs-Appellees
v.
Federal Republic of Germany, a foreign state;
Stiftung Preussischer Kulturbesitz,
Defendants-Appellants
-----------------------------------------------------------------------

United States of America,
Amicus Curiae
David Toren,
Amicus Curiae for Appellee
04/24/2017 PRIVATE CIVIL CASE docketed. [177064] [Entered: 04/24/2017 11:04 AM]
04/24/2017 INTERLOCUTORY NOTICE OF
APPEAL [1672310] seeking review of a
decision by the U.S. District Court in
1:15-cv-00266-CKK filed by Federal
Republic of Germany and Stiftung
Preussischer Kulturbesitz. Appeal
assigned USCA Case Number: 17-7064.
[17-7064] [Entered: 04/24/2017 11:07
AM]

24
05/03/2017 CLERK’S ORDER [1673711] filed
directing party to file initial submissions:
APPELLANT docketing statement due
06/02/2017. APPELLANT certificate as
to parties due 06/02/2017. APPELLANT
statement of issues due 06/02/2017.
APPELLANT underlying decision due
06/02/2017. APPELLANT deferred
appendix statement due 06/02/2017.
APPELLANT notice of appearance due
06/02/2017. APPELLANT transcript
status report due 06/02/2017.
APPELLANT procedural motions due
06/02/2017. APPELLANT dispositive
motions due 06/19/2017; directing party
to file initial submissions: APPELLEE
certificate as to parties due 06/02/2017.
APPELLEE entry of appearance due
06/02/2017. APPELLEE procedural
motions due 06/02/2017. APPELLEE
dispositive motions due 06/19/2017 [177064] [Entered: 05/03/2017 11:44 AM]
06/02/2017 CERTIFICATE AS TO PARTIES,
RULINGS AND RELATED CASES
[1677983] filed by Federal Republic of
Germany and Stiftung Preussischer
Kulturbesitz [Service Date: 06/02/2017 ]
[17-7064] (Freiman, Jonathan) [Entered:
06/02/2017 01:37 PM]
06/02/2017 DOCKETING STATEMENT [1677984]
filed by Federal Republic of Germany
and Stiftung Preussischer Kulturbesitz
[Service Date: 06/02/2017 ] [17-7064]

25
(Freiman, Jonathan) [Entered:
06/02/2017 01:39 PM]
06/02/2017 ENTRY OF APPEARANCE [1677985]
filed by Jonathan M. Freiman and cocounsel David L. Hall and David R. Roth
on behalf of Appellants Federal Republic
of Germany and Stiftung Preussischer
Kulturbesitz. [17-7064] (Freiman,
Jonathan) [Entered: 06/02/2017 01:41
PM]
06/02/2017 STATEMENT OF ISSUES [1677986]
filed by Federal Republic of Germany
and Stiftung Preussischer Kulturbesitz
[Service Date: 06/02/2017 ] [17-7064]
(Freiman, Jonathan) [Entered:
06/02/2017 01:42 PM]
06/02/2017 TRANSCRIPT STATUS REPORT
[1677987] filed by Federal Republic of
Germany and Stiftung Preussischer
Kulturbesitz [Service Date: 06/02/2017 ].
Status of Transcripts: Final – No
transcripts are needed for the appeal.
[17-7064] (Freiman, Jonathan) [Entered:
06/02/2017 01:46 PM]
06/02/2017 UNDERLYING DECISION IN CASE
[1677988] submitted by Federal Republic
of Germany and Stiftung Preussischer
Kulturbesitz [Service Date: 06/02/2017 ]
[17-7064] (Freiman, Jonathan) [Entered:
06/02/2017 01:47 PM]
06/07/2017 ENTRY OF APPEARANCE [1678684]
filed by Nicholas M. O’Donnell on behalf
of Appellees Jed Leiber, Alan Philipp and

26
Gerald Stiebel. [17-7064] (O’Donnell,
Nicholas) [Entered: 06/07/2017 01:32
PM]
06/07/2017 CERTIFICATE AS TO PARTIES,
RULINGS AND RELATED CASES
[1678685] filed by Jed Leiber, Alan
Philipp and Gerald Stiebel [Service Date:
06/07/2017 ] [17-7064] (O’Donnell,
Nicholas) [Entered: 06/07/2017 01:33
PM]
06/08/2017 NOTICE [1678983] received from the
Clerk of the U.S. District Court
containting Order granting defendants
motion for certification [17-7064]
[Entered: 06/09/2017 09:55 AM]
08/04/2017 CLERK’S ORDER [1687390] filed
consolidating cases 17-7117
(Consolidation started 08/04/2017) with
17-7064 [17-7064, 17-7117] [Entered:
08/04/2017 11:32 AM]
08/07/2017 NOTICE [1687541] received from the
Clerk of the U.S. District Court for
payment of docketing fee [Case Number
17-7117: Fee Paid] [17-7117] [Entered:
08/07/2017 12:07 PM]
08/21/2017 CLERK’S ORDER [1689522] filed setting
briefing schedule: APPELLANT Brief
due 10/02/2017. APPENDIX due
10/02/2017. APPELLEE Brief due on
11/01/2017. APPELLANT Reply Brief
due 11/15/2017 [17-7064, 17-7117]
[Entered: 08/21/2017 11:40 AM]

27
08/31/2017 UNOPPOSED MOTION [1690995] to
extend time to file brief to 12/01/2017 at
11:59 pm filed by Federal Republic of
Germany, Stiftung Preussischer
Kulturbesitz and Jed Leiber, Alan
Philipp and Gerald Stiebel in 17-7064,
17-7117 [Service Date: 08/31/2017 ]
Length Certification: 489 words. [177064, 17-7117] (Freiman, Jonathan)
[Entered: 08/31/2017 04:17 PM]
08/31/2017 UNOPPOSED MOTION [1690999] to
exceed brief, to exceed page limits in
brief filed by Federal Republic of
Germany, Stiftung Preussischer
Kulturbesitz and Jed Leiber, Alan
Philipp and Gerald Stiebel in 17-7064,
17-7117 Length Certification: 395 words.
[17-7064, 17-7117] (Freiman, Jonathan)
[Entered: 08/31/2017 04:24 PM]
09/05/2017 CLERK’S ORDER [1691295] [16895223], suspending briefing schedule pending
further order of the court [17-7064, 177117] [Entered: 09/05/2017 10:11 AM]
09/12/2017 PER CURIAM ORDER [1692592]
considering motion to amend the briefing
schedule and exceed the word limits
[1690999-2]; [1690999-3]; [1690995-2],
setting briefing schedule: APPELLANT
Brief (not to exceed 15,600 words) due
12/01/2017. APPENDIX due 12/01/2017.
APPELLEE Brief (not to exceed 15,600
words) due on 02/16/2018. APPELLANT
Reply Brief (not to exceed 7,800 words)
due 03/30/2018 Before Judges: Tatel,

28
Griffith and Pillard. [17-7064, 17-7117]
[Entered: 09/12/2017 11:32 AM]
10/18/2017 ENTRY OF APPEARANCE [1699786]
filed by Jonathan M. Freiman and
co-counsel Benjamin M. Daniels on
behalf of Appellants Federal Republic of
Germany and Stiftung Preussischer
Kulturbesitz in 17-7064, 17-7117. [177064, 17-7117] (Daniels, Benjamin)
[Entered: 10/18/2017 11:33 AM]
12/01/2017 APPELLANT BRIEF [1707181] filed by
Federal Republic of Germany and
Stiftung Preussischer Kulturbesitz in 177064, 17-7117 [Service Date: 12/01/2017 ]
Length of Brief: 15,589 Words. [17-7064,
17-7117] (Freiman, Jonathan) [Entered:
12/01/2017 06:11 PM]
12/01/2017 ADDENDUM [1707183] to
Appellant/Petitioner brief [1707181-2]
filed by Federal Republic of Germany
and Stiftung Preussischer Kulturbesitz
in 17-7064, 17-7117 [Service Date:
12/01/2017 ] [17-7064, 17-7117] – [Edited
12/06/2017 by LMF] (Freiman, Jonathan)
[Entered: 12/01/2017 06:15 PM]
12/01/2017 JOINT APPENDIX [1707185] filed by
Federal Republic of Germany and
Stiftung Preussischer Kulturbesitz in 177064, 17-7117. [Volumes: 1] [Service
Date: 12/01/2017 ] [17-7064, 17-7117]
(Freiman, Jonathan) [Entered:
12/01/2017 06:19 PM]

29
12/11/2017 LETTER [1708367] advising of arguing
counsel’s availability for oral argument
filed by Federal Republic of Germany
and Stiftung Preussischer Kulturbesitz
in 17-7064, 17-7117 [Service Date:
12/11/2017 ] [17-7064, 17-7117]
(Freiman, Jonathan) [Entered:
12/11/2017 03:41 PM]
02/16/2018 APPELLEE BRIEF [1718365] filed by
Jed Leiber, Alan Philipp and Gerald
Stiebel in 17-7064, 17-7117 [Service
Date: 02/16/2018 ] Length of Brief:
15,428 words (consistent with the
Court’s Order dated September 12, 2017
that enlarged the word limit for briefs in
this case to 15,600 words or fewer). [177064, 17-7117] (O’Donnell, Nicholas)
[Entered: 02/16/2018 01:02 PM]
02/16/2018 LETTER [1718374] advising of arguing
counsel’s availability for oral argument
filed by Jed Leiber, Alan Philipp and
Gerald Stiebel in 17-7064, Alan Philipp,
Gerald Stiebel and Jed Leiber in 17-7117
[Service Date: 02/16/2018 ] [17-7064, 177117] (O’Donnell, Nicholas) [Entered:
02/16/2018 01:35 PM]
02/20/2018 AMENDED LETTER [1718556] advising
of arguing counsel’s availability for oral
argument filed by Federal Republic of
Germany and Stiftung Preussischer
Kulturbesitz in 17-7064, 17-7117
[Service Date: 02/20/2018 ] [17-7064,

30
17-7117] (Freiman, Jonathan) [Entered:
02/20/2018 12:45 PM]
02/22/2018 AMENDED APPELLEE BRIEF
[1719148] filed by Jed Leiber, Alan
Philipp and Gerald Stiebel in 17-7064,
17-7117. Length of Brief: 15,428 words
[Service Date: 02/22/2018 ] [17-7064, 177117] – [Edited 02/28/2018 by LMF]
(O’Donnell, Nicholas) [Entered:
02/22/2018 04:47 PM]
02/23/2018 MOTION [1719340] to participate as
amicus curiae [Disclosure Listing: Not
Applicable to this Party] filed by David
Toren [Service Date: 02/23/2018 ] [177064, 17-7117] – [Edited 02/28/2018 by
LMF] (Orseck, Gary) [Entered:
02/23/2018 03:54 PM]
02/28/2018 CERTIFICATE OF COMPLIANCE
WITH TYPE-VOLUME LIMITS
[1720025] for motion [1719340-2] filed by
David Toren in 17-7117, 17-7064. [177117, 17-7064] (Orseck, Gary) [Entered:
02/28/2018 03:04 PM]
02/28/2018 AMICUS FOR APPELLEE BRIEF
[1720029] lodged by David Toren in 177117, 17-7064 [Service Date: 02/28/2018 ]
Length of Brief: 4,944 Words. [17-7117,
17-7064] – [Edited 02/28/2018 by LMF]
(Orseck, Gary) [Entered: 02/28/2018
03:22 PM]
03/01/2018 RESPONSE IN OPPOSITION [1720297]
to motion [1719340-2] combined with a
MOTION to exceed filed by Federal

31
Republic of Germany and Stiftung
Preussischer Kulturbesitz in 17-7064,
17-7117 [Service Date: 03/01/2018 by
CM/ECF NDA] Length Certification:
2,188 Words. [17-7064, 17-7117]
(Freiman, Jonathan) [Entered:
03/01/2018 03:18 PM]
03/02/2018 REPLY [1720464] filed by David Toren in
17-7064, 17-7117 to response [1720297-3]
[Service Date: 03/02/2018 by CM/ECF
NDA] Length Certification: 618 Words.
[17-7064, 17-7117] (Orseck, Gary)
[Entered: 03/02/2018 05:36 PM]
03/05/2018 RESPONSE IN SUPPORT [1720620] to
motion [1719340-2], motion [1720297-2]
filed by Jed Leiber, Alan Philipp and
Gerald Stiebel in 17-7064, 17-7117
[Service Date: 03/05/2018 by CM/ECF
NDA] Length Certification: Document
contains 1,126 words.. [17-7064, 17-7117]
(O’Donnell, Nicholas) [Entered:
03/05/2018 02:29 PM]
03/09/2018 CLERK’S ORDER [1721467] filed
scheduling oral argument on Wednesday,
05/02/2018. [17-7064, 17-7117] [Entered:
03/09/2018 11:28 AM]
03/12/2018 REPLY [1721892] filed by Federal
Republic of Germany and Stiftung
Preussischer Kulturbesitz in 17-7064,
17-7117 to response [1720620-2] [Service
Date: 03/12/2018 by CM/ECF NDA]
Length Certification: 440 Words.

32
[17-7064, 17-7117] (Freiman, Jonathan)
[Entered: 03/12/2018 05:49 PM]
03/22/2018 PER CURIAM ORDER [1723321] filed
granting the motion of David Toren for
leave to participate as amicus curiae in
support of affirmance [1719340-2];
granting appellants’ motion for
additional words in its reply brief
[1720297-2] [17-7064, 17-7117] [Entered:
03/22/2018 11:46 AM]
03/22/2018 PER ABOVE ORDER lodged Amicus
brief [1720029-2] is filed [17-7064, 177117] [Entered: 03/22/2018 11:56 AM]
03/30/2018 APPELLANT REPLY BRIEF [1724569]
filed by Federal Republic of Germany
and Stiftung Preussischer Kulturbesitz
in 17-7064, 17-7117 [Service Date:
03/30/2018 ] Length of Brief: 9782. [177064, 17-7117] (Freiman, Jonathan)
[Entered: 03/30/2018 02:18 PM]
04/10/2018 MOTION [1725865] to supplement
record filed by Jed Leiber, Alan Philipp
and Gerald Stiebel in 17-7064, 17-7117
(Service Date: 04/10/2018 by CM/ECF
NDA) Length Certification: This motion
complies with Circuit Rule 27(C) because
it contains 1,404 words.. [17-7064, 177117] (O’Donnell, Nicholas) [Entered:
04/10/2018 11:08 AM]
04/19/2018 PER CURIAM ORDER [1727236] filed
allocating oral argument time as follows:
Appellants – 15 Minutes, Appellees – 15
Minutes. One counsel per side to argue;

33
directing party to file Form 72 notice of
arguing attorney by 04/25/2018 [17-7064,
17-7117] [Entered: 04/19/2018 10:36 AM]
04/20/2018 RESPONSE IN OPPOSITION [1727411]
to motion to supplement record
[1725865-2] filed by Federal Republic of
Germany and Stiftung Preussischer
Kulturbesitz in 17-7064, 17-7117
[Service Date: 04/20/2018 by CM/ECF
NDA] Length Certification: 1,834 Words.
[17-7064, 17-7117] (Freiman, Jonathan)
[Entered: 04/20/2018 10:10 AM]
04/23/2018 FORM 72 submitted by arguing attorney,
Jonathan M. Freiman, on behalf of
Appellants Federal Republic of Germany
and Stiftung Preussischer Kulturbesitz
in 17-7064, 17-7117 (For Internal Use
Only: Form is restricted to protect
counsel’s personal contact information).
[17-7064, 17-7117] (Freiman, Jonathan)
[Entered: 04/23/2018 11:30 AM]
04/25/2018 FORM 72 submitted by arguing attorney,
Nicholas M. O’Donnell, on behalf of
Appellees Jed Leiber, Alan Philipp and
Gerald Stiebel in 17-7064, 17-7117 (For
Internal Use Only: Form is restricted to
protect counsel’s personal contact
information). [17-7064, 17-7117]
(O’Donnell, Nicholas) [Entered:
04/25/2018 10:30 AM]
04/30/2018 LETTER [1728804] pursuant to FRAP
28j advising of additional authorities
filed by Jed Leiber, Alan Philipp and

34
Gerald Stiebel in 17-7064, 17-7117
[Service Date: 04/30/2018 ] [17-7064, 177117] (O’Donnell, Nicholas) [Entered:
04/30/2018 04:59 PM]
05/01/2018 RESPONSE [1728990] to letter Rule 28j
authorities [1728804-2], letter [17288043] filed by Federal Republic of Germany
and Stiftung Preussischer Kulturbesitz
in 17-7064, 17-7117 [Service Date:
05/01/2018 by CM/ECF NDA] Length
Certification: 250 words. [17-7064, 177117] (Freiman, Jonathan) [Entered:
05/01/2018 03:56 PM]
05/02/2018 ORAL ARGUMENT HELD before
Judges Tatel, Griffith and Wilkins. [177064, 17-7117] [Entered: 05/02/2018
03:29 PM]
06/08/2018 LETTER [1735131] pursuant to FRAP
28j advising of additional authorities
filed by Federal Republic of Germany
and Stiftung Preussischer Kulturbesitz
in 17-7064, 17-7117 [Service Date:
06/08/2018 ] [17-7064, 17-7117]
(Freiman, Jonathan) [Entered:
06/08/2018 01:56 PM]
06/12/2018 RESPONSE [1735539] to letter Rule 28j
authorities [1735131-2], letter [17351313] filed by Jed Leiber, Alan Philipp and
Gerald Stiebel in 17-7064 [Service Date:
06/12/2018 by CM/ECF NDA] Length
Certification: 350 Words. [17-7064, 177117] (O’Donnell, Nicholas) [Entered:
06/12/2018 11:36 AM]

35
07/10/2018 PER CURIAM ORDER [1739863] filed
denying motion to supplement record
[1725865-2]. Before Judges: Tatel,
Griffith and Wilkins. [17-7064, 17-7117]
[Entered: 07/10/2018 10:43 AM]
07/10/2018 PER CURIAM JUDGMENT [1739870]
filed that the judgment of the District
Court appealed from in these causes be
affirmed as to the denial of the motion to
dismiss, except that on remand, the
district court must grant the motion to
dismiss with respect to the Federal
Republic of Germany, for the reasons in
the accompanying opinion . Before
Judges: Tatel, Griffith, and Wilkins. [177064, 17-7117] [Entered: 07/10/2018
10:49 AM]
07/10/2018 OPINION [1739874] filed (Pages: 20) for
the Court by Judge Tatel. [17-7064, 177117] [Entered: 07/10/2018 10:51 AM]
07/10/2018 CLERK’S ORDER [1739877] filed
withholding issuance of the mandate.
[17-7064, 17-7117] [Entered: 07/10/2018
10:53 AM]
07/24/2018 UNOPPOSED MOTION [1742118] to
extend time to file petition to 09/07/2018
filed by Federal Republic of Germany
and Stiftung Preussischer Kulturbesitz
in 17-7064, 17-7117 [Service Date:
07/24/2018 ] Length Certification: 418
words. [17-7064, 17-7117] (Freiman,
Jonathan) [Entered: 07/24/2018 11:49
AM]

36
08/03/2018 PER CURIAM ORDER [1743941] filed
granting appellants’ consent motion to
extend time [1742118-2]. Any petition is
now due on or before September 7, 2018.
Before Judges: Tatel, Griffith, and
Wilkins. [17-7064, 17-7117] [Entered:
08/03/2018 01:32 PM]
08/13/2018 NOTICE [1745264] to withdraw attorney
Daniel Noah Lerman who represented
David Toren in 17-7064 and David Toren
in 17-7117 filed by David Toren in 177064, 17-7117 [Service Date: 08/13/2018 ]
[17-7064, 17-7117] (Lerman, Daniel)
[Entered: 08/13/2018 02:19 PM]
09/07/2018 PETITION [1749546] for rehearing en
banc filed by Appellants Federal
Republic of Germany and Stiftung
Preussischer Kulturbesitz in 17-7064,
17-7117 [Service Date: 09/07/2018 by
CM/ECF NDA] Length Certification:
3,860 words. [17-7064, 17-7117]
(Freiman, Jonathan) [Entered:
09/07/2018 03:03 PM]
09/14/2018 CLERK’S ORDER [1750673] filed
directing appellees to file a response to
appellants’ petition for rehearing en
banc [1749546-2] within 15 days of the
date of this order. The response may not
exceed the length limitations established
by the order. Absent an order of the
court, a reply to the response will not be
accepted for filing. [17-7064, 17-7117]
[Entered: 09/14/2018 12:50 PM]

37
09/14/2018 NOTICE [1750732] of intention to
participate as amicus curiae [Disclosure
Listing: Not Applicable to this Party]
filed by United States of America
[Service Date: 09/14/2018 ] [17-7064, 177117] – [Edited 09/14/2018 by LMF]
(Ross, Casen) [Entered: 09/14/2018 03:27
PM]
09/14/2018 AMICUS FOR APPELLANT BRIEF
[1750808] filed by United States of
America [Service Date: 09/14/2018 ]
Length of Brief: 2,537 Words. [17-7064,
17-7117] (Ross, Casen) [Entered:
09/14/2018 06:11 PM]
09/18/2018 UNOPPOSED MOTION [1751161] to
extend time to file a response to
10/31/2018 filed by Jed Leiber, Alan
Philipp and Gerald Stiebel in 17-7117,
17-7064 [Service Date: 09/18/2018 ]
Length Certification: 309 words.. [177117, 17-7064] – [Edited 09/20/2018 by
KRM] (O’Donnell, Nicholas) [Entered:
09/18/2018 10:43 AM]
09/20/2018 CLERK’S ORDER [1751765] filed
granting appellee’s unopposed motion to
extend time [1751161-2]. The response is
now due on or before October 31, 2018.
[17-7064, 17-7117] [Entered: 09/20/2018
12:57 PM]
10/29/2018 RESPONSE [1757586] to petition
[1749546-2] filed by Jed Leiber, Alan
Philipp and Gerald Stiebel in 17-7064,
17-7117 [Service Date: 10/29/2018 by

38
CM/ECF NDA] Length Certification:
This motion contains 3,869 words.. [177064, 17-7117] (O’Donnell, Nicholas)
[Entered: 10/29/2018 03:02 PM]
10/30/2018 CORRECTED RESPONSE [1757730] to
petition for rehearing en banc [17495462] filed by Jed Leiber, Alan Philipp and
Gerald Stiebel in 17-7064, 17-7117
[Service Date: 10/30/2018 by CM/ECF
NDA] Length Certification: This
document complies because it contains
3,869 words.. [17-7064, 17-7117]
(O’Donnell, Nicholas) [Entered:
10/30/2018 10:43 AM]
01/29/2019 LETTER [1770875] pursuant to FRAP
28j advising of additional authorities
filed by Jed Leiber, Alan Philipp and
Gerald Stiebel in 17-7064, 17-7117
[Service Date: 01/19/2019 ] [17-7064, 177117] (O’Donnell, Nicholas) [Entered:
01/29/2019 03:32 PM]
05/29/2019 MOTION [1789912] to expedite ruling on
petition for rehearing en banc [17495462]. filed by Jed Leiber, Alan Philipp and
Gerald Stiebel in 17-7117, 17-7064
(Service Date: 05/29/2019 by CM/ECF
NDA) Length Certification: This motion
contains 846 words.. [17-7117, 17-7064]
(O’Donnell, Nicholas) [Entered:
05/29/2019 09:46 AM]
06/18/2019 PER CURIAM ORDER, En Banc,
[1793296] filed denying petition for
rehearing en banc [1749546-2]. Before

39
Judges: Garland, Henderson, Rogers,
Tatel, Griffith, Srinivasan, Millett,
Pillard, Wilkins, Katsas** and Rao*. *
Circuit Judge Rao did not participate in
this matter. ** A statement by Circuit
Judge Katsas, dissenting from the denial
of the rehearing en banc, is attached.
[17-7064, 17-7117] [Entered: 06/18/2019
10:31 AM]
06/18/2019 PER CURIAM ORDER, En Banc,
[1793299] filed denying motion to
expedite ruling [1789912-2] Before
Judges: Garland, Henderson, Rogers,
Tatel, Griffith, Srinivasan, Millett,
Pillard, Wilkins, Katsas and Rao*. *
Circuit Judge Rao did not participate in
this matter. [17-7064, 17-7117] [Entered:
06/18/2019 10:34 AM]
06/24/2019 MOTION [1794272] to stay mandate
filed by Federal Republic of Germany
and Stiftung Preussischer Kulturbesitz
in 17-7064, 17-7117 (Service Date:
06/24/2019 by CM/ECF NDA) Length
Certification: 3,721 words. [17-7064, 177117] (Freiman, Jonathan) [Entered:
06/24/2019 05:40 PM]
06/28/2019 RESPONSE IN OPPOSITION [1794968]
to motion to stay mandate [1794272-2]
filed by Jed Leiber, Alan Philipp and
Gerald Stiebel in 17-7064, 17-7117
[Service Date: 06/28/2019 by CM/ECF
NDA] Length Certification: This
document contains 3120 words.. [17-

40
7064, 17-7117] (O’Donnell, Nicholas)
[Entered: 06/28/2019 09:47 AM]
07/03/2019 REPLY [1795763] filed by Federal
Republic of Germany and Stiftung
Preussischer Kulturbesitz in 17-7064,
17-7117 to response [1794968-2] [Service
Date: 07/03/2019 by CM/ECF NDA]
Length Certification: 2,348 words. [177064, 17-7117] (Freiman, Jonathan)
[Entered: 07/03/2019 04:13 PM]
07/11/2019 PER CURIAM ORDER [1796729] filed
denying appellants’ motion to stay
mandate [1794272-2]. Before Judges:
Tatel, Griffith and Wilkins. [17-7064, 177117] [Entered: 07/11/2019 09:24 AM]
07/16/2019 MANDATE ISSUED to Clerk, U.S.
District Court. [17-7064, 17-7117]
[Entered: 07/16/2019 02:02 PM]
09/18/2019 LETTER [1807312] received from the
Clerk of the Supreme Court of the
United States notifying this court of the
following activity in the case before it: A
petition for writ of certiorari was filed
and placed on the docket on 09/18/2019
as No. 19-351. [17-7064, 17-7117]
[Entered: 09/19/2019 06:43 PM]
10/22/2019 LETTER [1813919] received from the
Clerk of the Supreme Court of the
United States notifying this court of the
following activity in the case before it: A
petition for writ of certiorari was filed
and placed on the docket on 10/22/2019

41
as No. 19-520. [17-7064, 17-7117]
[Entered: 11/01/2019 06:20 PM]
07/02/2020 LETTER [1850067] received from the
Clerk of the Supreme Court of the
United States notifying this court of the
following activity in case No. 19-520: The
petition for writ of certiorari was denied
on 07/02/2020. [17-7064, 17-7117]
[Entered: 07/02/2020 04:03 PM]
07/02/2020 LETTER [1850068] received from the
Clerk of the Supreme Court of the
United States notifying this court of the
following activity in case No. 19-351: The
petition for writ of certiorari was granted
on 07/02/2020. [17-7064, 17-7117]
[Entered: 07/02/2020 04:03 PM]

42
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)
)
Gerald G. STIEBEL, and
)
)
Jed R. LEIBER,
1155 N. La Cienega Boulevard )
West Hollywood, CA 90069, )
)
Plaintiffs,
)
v.
)
)
FEDERAL REPUBLIC OF
)
GERMANY, a foreign state,
)
and
)
STIFTUNG PREUSSISCHER )
)
KULTURBESITZ,
)
Defendants.
)
Alan PHILIPP,

Case No.
15-cv-00266

FIRST AMENDED COMPLAINT
(Filed Jan. 14, 2016)
This is a civil action by plaintiffs Alan Philipp
(“Philipp”), Gerald G. Stiebel (“Stiebel”), and Jed R. Leiber
(“Leiber,” together with Philipp and Stiebel, the “plaintiffs”), for the restitution of a collection of medieval relics known as the “Welfenschatz” or the “Guelph Treasure”
now wrongfully in the possession of the defendant
Stiftung Preussischer Kulturbesitz, a/k/a the Prussian
Cultural Heritage Foundation (the “SPK”). The SPK is
an instrumentality of the defendant Federal Republic

43
of Germany (“Germany,” together with the SPK, the
“defendants”).
INTRODUCTORY STATEMENT
1. This is an action to recover the Welfenschatz,
a unique collection of medieval relics and devotional
art that was sold by victims of persecution of the Nazi
regime under duress, and far below actual market
value. Those owners were a consortium of three art
dealer firms in Frankfurt: J.&S. Goldschmidt, I. Rosenbaum, and Z.M. Hackenbroch (together, the “Consortium”). Zacharias Max Hackenbroch (“Hackenbroch”),
Isaak Rosenbaum (“Rosenbaum”), Saemy Rosenberg
(“Rosenberg”), and Julius Falk and Arthur Goldschmidt
(“Goldschmidt”) were the owners of those firms, together with plaintiffs’ ancestors and/or predecessorsin-interest in this action.
2. This sale to the Nazi-controlled State of Prussia on June 14, 1935, via a manipulated sham transaction, was spearheaded by the Dresdner Bank, which
was acting on behalf and by order of the two most notorious Nazi-leaders and war criminals, Hermann
Goering (“Goering”) and the German dictator, the
“Führer” Adolf Hitler (“Hitler”), themselves. The transaction relied on the atmosphere of early Nazi terror, in
which German Jews could never be arms’-length commercial actors.
3. This is also an action to address a second victimization suffered by the Plaintiffs. Germany advances the pretense that it has enacted procedures to

44
address Nazi-looted art, but the reality is quite different. The sham process to which the Plaintiffs were subjected in 2014 provides additional justification for this
action.
4. The coerced sale of the Welfenschatz resulted
in payment of barely 35% of its market value to the
Consortium—or even as little as 15%, according to German state museum professionals contemporaneous to
the exchange. That money was never fully at the Consortium’s disposal even after payment (and consisted
partly of other artworks that were worth nothing like
their promised value). The proceeds, such as they
were, were then also subjected to confiscatory “flight
taxes”—the extortionate payments that Jews had to
pay for the privilege of escaping with their lives.
5. Most critically with respect to the illegitimacy
of the 1935 sale, they were Jewish and regarded by the
National Socialists as traitors and enemies of the Germanic state, in line with the corrupt ideology of Hitler’s
racist and inhuman manifesto Mein Kampf. These
Jewish art dealers were viewed as parasites selling off
cultural items at the heart of the Nazi identic for selfgain and for damaging and harming the German identity.
6. Iconic Germanic art was at the core of the Nazi
worldview, and the Welfenschatz was the kind of art in
general, and the specific artworks in particular, that
the Nazis desperately wanted, and for which they would
stop at nothing. The Consortium’s Jewish heritage

45
placed it within the Nazis’ grasp after the party’s ascension to power in Germany.
7. The foregoing, without more, is sufficient under longstanding principles of international law to establish that the 1935 transaction was illegitimate. Any
sale of property in Nazi Germany by Jewish owners—
let alone to the Nazi-run state itself—was presumptively under duress, illegitimate, and void. Were Germany to claim otherwise, it would be explicitly
endorsing—in 2015—the plunder of Goering (part of
whose collection, it should be said, decorated the rooms
of the German chancellor’s office, the “Bundeskanzleramt,”
as recently as 2014 until a journalist called attention
to it).
8. There is, however, considerably more. Specifically, after the Nazi seizure of power in 1933 and the
spasmodic violence and intimidation towards Jews, the
boycotting of Jewish business, and the eventual elimination of Jews from all aspects of civic life, high ranking Nazis targeted the Welfenschatz, specifically, by
virtue of the vulnerability of its Jewish owners, who
were publicly accused of selling national treasures and
who became public enemies as a result. The choice they
faced was clear: their property or their lives.
9. Infamous criminals Hitler, Goering, Bernhard
Rust (“Rust”), and Hjalmar Schacht (“Schacht”) among
them, were all involved in explicit correspondence
whose intent was to “save the Welfenschatz” for the
German Reich from these declared enemies of the
state.

46
10. After the Nazi-takeover of power in Germany, and as a direct and proximate result of the historic persecution that was the official policy of the
State of Prussia and the German Reich, the members
of the Consortium faced catastrophic economic hardship. Starting from day one, the Nazi-regime was engaged in spreading fear, panic, and violence in these
early days of terror as part of the ongoing so-called
“National Socialist revolution” in Germany. Both the
early unlawful laws of the new Germany, the antiSemitic riots, the nationwide boycotts of Jewish businesses, and the growing permanent, pseudo-legal
monitoring of Jews by the “Nazified” administrative
bodies, first and foremost by the German tax authorities, directly affected these art dealers’ lives and businesses. Means of systematic disenfranchisement,
discrimination, and terror, fomented by the Third
Reich’s officials, caused also the three art dealers’ sale
revenues to fall virtually to zero within the shortest
period of time and made it impossible thereafter for
any of them to earn a living in Germany. On information and belief, the Consortium were targeted by
the Geheime Staatspolizei (Gestapo) and subjected to
direct personal threats of violence for being Jews and
for trying to sell the Welfenschatz fairly.
11. The Nazis’ crowning touch was to intercede
just when a willing fair market buyer for the Welfenschatz appeared, to dictate that any further arms’length negotiations cease, through which the Consortium could have realized the value of its property.

47
12. With the market duly fixed, and their own
situation having descended into ahistorical levels of
persecution, humiliation, and risk, the Consortium relented in 1935. From the Consortium’s perspective, the
“deal”—for 4.25 million RM (barely 35% of its actual
value) split and partly paid only into a blocked account—was a predicament and without any alternative.
13. Soon after Goering, by then hailed as the
“savior of the Welfenschatz,” had forcefully and punitively “rescued” the collection from the Jews, as highlighted in his biography of 1940, he presented the
Welfenschatz as a personal “surprise gift” to Hitler
himself at a ceremony in November 1935.
14. In 2014, the Plaintiffs, as heirs to the Consortium, suffered a parallel victimization. Despite Germany’s international commitments to “fair and just”
solutions with respect to Nazi-looted art, it has enacted
no meaningful procedures or laws to address victims of
art looted and sales under duress. Worse, it has only
appointed an “Advisory Commission” that issues only
non-binding recommendations, which are not adjudications of any property rights.
15. That Advisory Commission, since being established in 2003 as a governmental entity, has shown
a disturbing tendency to ignore longstanding principles of international law—chief among them the
unassailable principle that a sale by owners like the
Consortium in Nazi Germany was by definition coercive and void. Instead, in successive decisions the

48
Advisory Commission has sought to revise history with
respect to the treatment of Jews in Germany in 1935,
disqualifying any notion that Germany makes “fair
and just solutions” available to victims and their heirs.
16. These failures leave the Plaintiffs no choice
but to seek the present relief.
PARTIES
17. Philipp is an individual, citizen of the United
Kingdom, and a resident of London, England, UK. He
is the grandson and sole legal successor to the estate
of the late Zacharias Max Hackenbroch, who was the
sole owner of the former Hackenbroch art dealers.
18. Stiebel is an individual and a United States
citizen who resides in Santa Fe, New Mexico. He is the
great-nephew of the late Isaak Rosenbaum, who was
co-owner of I. Rosenbaum art dealers with Saemy Rosenberg, and legal successor to Rosenbaum’s estate. He
brings these claims on behalf of himself and the heirs
of Isaak Rosenbaum.
19. Leiber is an individual and a United States
citizen who resides in West Hollywood, California. He
is the grandson of Saemy Rosenberg, and the sole legal
heir to Saemy Rosenberg’s rights in the Welfenschatz
and related events. He is also a great-nephew of Isaak
Rosenbaum, and partly a successor to Rosenbaum’s estate.
20. Phillip, Stiebel, and Leiber are together the
assignees of the claims of Julius Falk Goldschmidt by

49
written instrument and the authorized agents in fact
for the heirs of Arthur Goldschmidt, who together were
the sole owners of the J.&S. Goldschmidt firm. Phillip,
Stiebel, and Leiber bring this case together under that
authority, whether by independent legal assignment as
referenced further below or by agreement between the
parties and their counsel.
21. Germany, a/k/a the Bundesrepublik Deutschland, is a sovereign nation comprised of the 16 federal
states (“Länder”). Germany is the political—and under
international law, the legal—successor to the German
Reich a/k/a the Third Reich a/k/a Nazi Germany. Germany was established as West Germany in 1949 from
the 11 Länder, in the Western-occupied areas of the
Third Reich (including West Berlin), and absorbed the
remaining 5 Länder as part of reunification in 1990.
22. The SPK is the successor-in-interest to the
Free State of Prussia (the “Freistaat Preussen”), a political subdivision of the German Weimar Republic and
later the Third Reich—with respect to all interests in
cultural property and fine art. The SPK is a foundation
under German law, erected by the German parliament
in 1957, and an instrumentality of Germany. The SPK
operates by and through its President Professor Dr.
Hermann Parzinger. The SPK’s board consists of representatives from the German Federal government,
and from its political subdivisions, the 16 Länder.

50
JURISDICTION AND VENUE
23. This Court has subject matter jurisdiction
over all defendants pursuant to 28 U.S.C. § 1330 and
28 U.S.C. §§ 1605-07 (the Foreign Sovereign Immunities Act). Process was served on all defendants pursuant to 28 U.S.C. § 1608.
24. The defendants are not immune from suit,
under either the so-called “expropriation exception” of
28 U.S.C. § 1605(a)(3), or the so-called “commercial activity exception of 28 U.S.C. § 1605(a)(2), all as alleged
in further detail herein.
25. This action concerns rights in property taken
by the State of Prussia and/or the German Reich,
and/or Goering, in his capacity as Prime Minister of
the State of Prussia in 1935, in violation of international law, within the meaning of 28 U.S.C. § 1605(a)(3).
That taking included, inter alia and without limitation
the following:
i.

The Welfenschatz was acquired by the
Nazi State of Prussia to present it as a
personal gift to Hitler. It served no public
purpose, but was made for personal gain
of the Nazi leaders and their reputation.

ii.

In addition, their takings were discriminatory since the art dealers were Jewish
and therefore belonged to a persecuted
group, and the collection was wrongfully
appropriated not least because they were
regarded as state’s enemies for holding
the iconic Welfenschatz.

51
iii.

Further, the German Government has
not yet returned the collection to the
plaintiffs or justly compensated them for
the value of the collection. Without compensation, this taking cannot be valid.

iv.

Dresdner Bank and the Nazi-State of
Prussia gained possession of the Welfenschatz in a joint effort by setting up a
scheme of manipulation, coercion, and
terror. In violation of international law,
they took the collection from plaintiffs’
predecessors-in-interest in order to “Aryanize,” to “rescue,” and to get hold of the
collection for völkisch reasons in accordance with the National Socialists’ policy,
which in its entirety was condemned as
inhuman and void by the Allies and the
United States Government after 1945.

v.

Dr. Robert Schmidt, former director of the
Berlin Schlossmuseum and a key actor in
the matter at hand, intentionally misled
the Allied Forces and the United States
Military government for Germany and
Bavaria in the postwar-era about the true
nature of the acquisition of the collection
in order to protect himself and in order to
prevent restitution of the collection to the
art dealers, based on and granted by Allied Military law. The current German
Government, when it learned of the art
dealers’ heirs’ rights to the collection of
the Welfenschatz, adopted Schmidt’s coverup and deceived the heirs as to the circumstances of its acquisition of the collection.

52
vi.

The defendants, Germany and the SPK,
wrongfully assert ownership over the collection in furtherance of the taking in violation of international law.

vii.

Germany, in its capacity as the politicallegal successor of the Nazi Third Reich, is
not immune from suit for its complicity in
and perpetuation of the discriminatory
appropriation of the Welfenschatz collection. Among other things, violations of
Germany’s obligations under the 1907
Hague Convention on the Laws and Customs of War on Land, and Germany’s official repudiation after 1949 of all Nazi
transactions bar any defense that this
transaction was legitimate and not coercive.

viii.

The policy of the United States of America since at least 1945 has been to undo
the forced transfers and restitute identifiable property to the victims of Nazi persecution wrongfully deprived of such
property and, with respect to claims asserted in the United States for restitution of such property, to relieve American
courts from any restraint upon the exercise of their jurisdiction to pass upon the
validity of the acts of the Nazi officials.
See Press Release No. 296, “Jurisdiction
of United States Courts Re Suits for Identifiable Property Involved in Nazi Forced
Transfers,” reprinted in Bernstein v. N.V.
Nederlandsche-Amerikaansche, 210 F2d
375, 375-76 (2d Cir. 1954).

53
26. Germany and the SPK are engaged in commercial activity within the United States, within the
meaning of 28 U.S.C. § 1605(a)(3), including but not
limited to the following:
i.

The SPK engages in regular exhibitions
within the United States by loaning objects to museums in the United States
from the collections of the museums administered by the SPK. By way of example but without limitation, the SPK loaned
objects to an exhibition entitled “Byzantium and Islam Age of Transition” at the
Metropolitan Museum of Art in New York
in 2012. The SPK also licensed photographs of its collection for inclusion in the
catalogues of those exhibitions, which are
sold and marketed throughout the United
States (including in the District of Columbia) by retail and Internet sales.

ii.

The SPK licenses images of its collection
to the general public throughout the
United States (including the District of
Columbia) on an ongoing basis, including
but not limited to licensing relationships
with Art Resource in New York, and the
United States National Holocaust Memorial Museum in the District of Columbia.

iii.

The SPK solicits subscriptions to its
newsletters, solicitations that reach the
District of Columbia, among other parts
of the United States. SPK-administered
museums seek to and sell entrance tickets to the Berlin museums to patrons in

54
the United States, including but not limited to patrons in the District of Columbia.
iv.

The Museum of Decorative Arts (“Kunstgewerbemuseum”) in Berlin, administered by the SPK and the current location
of the Welfenschatz, publishes and sells a
book entitled Kunstgewerbemuseum Berlin within the United States of the highlights of its collection, including but not
limited to within the District of Columbia. The Welfenschatz features prominently in this catalogue, in particular the
famous Kuppelreliquiar (the “Chapel Reliquary”)—which is depicted on the very
cover of the book.

v.

The Kunstgewerbemuseum in Berlin, administered by the SPK and the location
of the bulk of the Welfenschatz, publishes
and sells a book entitled Katalog des
Kunstgewerbemuseums (Catalogue of the
Kunstgewerbemuseum) within the United
States, including but not limited to within
the District of Columbia. The Welfenschatz features prominently in this catalogue, and is referred to as such for any
object that is part of the Welfenschatz.

vi.

The Kunstgewerbemuseum in Berlin, administered by the SPK and the location of
the bulk of the Welfenschatz, publishes and
sells a book entitled Schätze des Glaubens:
Meisterwerke aus dem Dom-Museum Hildesheim und dem Kunstgewerbemuseum

55
Berlin (Treasures of Belief: Masterworks
from the Hildesheim Cathedral Museum
and the Kunstgewerbemuseum Berlin),
within the United States, including but
not limited to within the District of Columbia. The Welfenschatz features prominently in this catalogue as well.
vii.

The SPK has announced plans to publish
in 2015 and has arranged for presales of
a book entitled The Neues Museum: Architecture, Collections, History within the
United States, including but not limited
[to] the District of Columbia.

viii.

On information and belief, the Bodemuseum in Berlin, administered by the SPK,
has a staff exchange program with the
Metropolitan Museum of Art in New York.

ix.

The SPK offers research grants to academics within the United States, including within the District of Columbia.

x.

On information and belief, academic conferences organized and administered by
the SPK include solicitations to academics in the United States (including the
District of Columbia) to contribute and
participate.

xi.

The SPK publishes and sells a book entitled Original und Experiment: Ausstellung
der Stiftung Preußischer Kulturbesitz aus
der Antikensammlung der Staatlichen Museen zu Berlin (Original and Experiment:
Exhibition by the Stifttung Preußischer

56
Kulturbesitz from the Antiques Collection
of the State Museums in Berlin) within
the United States, including but not limited to the District of Columbia.
xii.

The SPK publishes and sells a book entitled
Digital Resources from Cultural Institutions for Use in Teaching and Learning: A
Report of the American/German Workshop within the United States, including
but not limited to within the District of
Columbia.

xiii.

The SPK publishes and sells a book entitled Schdtze Der Weltkulturen in den
Sammlungen Der Stiftung Preussischer
Kulturbesitz (Treasures of World Cultures
in the Collections of the Stiftung Preussischer
Kulturbesitz) within the United States,
including but not limited to within the
District of Columbia.

xiv.

The SPK participated in an exhibition
National Gallery of Art in the District of
Columbia entitled Dürer And His Time:
An Exhibition From The Collection Of
The Print Room, State Museum, Berlin
Stiftung Preussischer Kulturbesitz, including the loan of works of art from the
SPK. The SPK contributed further to the
catalogue from that exhibition, which is
sold in the United States, including but
not limited to within the District of Columbia.

xv.

The SPK publishes and sells an annual
report entitled Prussian Cultural Property:

57
25 Years in Berlin, Collecting, Researching, Educating: from the Work of the SPK
1961-1986 (Annual Report of the SPK) or
Preussischer Kulturbesitz: 25 Jahre in
Berlin, Sammeln, Forschen, Bilden: aus
der Arbeit der Stiftung Preussischer Kulturbesitz 1961-1986 (Jahrbuch Preussischer
Kulturbesitz) (as well as other similar
editions in other years) within the United
States, including but not limited to within
the District of Columbia.
xvi.

The SPK publishes and sells a book entitled Kinderbildnisse aus vier Jahrtausenden:
Aus den Sammlungen der Stiftung
Preussischer Kulturbesitz Berlin (Children ‘s Pictures from Four Millennia: from
the Collections of the Prussian Cultural
Heritage Foundation) within the United
States, including but not limited to within
the District of Columbia.

xvii.

The SPK publishes and sells copies of
the law that gave rise to its creation, the
Gesetz Zur Errichtung Einer Stiftung
“Preuss ischer Kulturb es it” Und Zur
Übertragung Von Vermögenswerten Des
Ehemaligen Landes Preussen Auf Die
Stiftung (Law for the Creation of a Foundation “Prussian Cultural Heritage” and
the Transfer of Property from the Former
State of Prussia) within the United
States, including but not limited to within
the District of Columbia.

58
27. On information and belief, Germany engages
in a broad range of commercial activity in the United
States, including but not limited to the commercial
promotion of German companies and industries and
the solicitation of American visitors to German museums, including but not limited to those administered
by the SPK.
28. Jurisdiction is also proper in this action pursuant to 28 U.S.C. § 1605(a)(2) and the recent guidance
of the Supreme Court in OBB Personenverkehr v. Sachs
because the defendants engage in commercial activity
outside the territory of the United States with respect
to the Welfenschatz in connection with a commercial
activity of the foreign state elsewhere and that act
causes a direct effect in the United States. Specifically,
the defendants derive from the Welfenschatz itself
through licensing and other activities, revenue in the
United States that rightfully could be earned by the
plaintiffs absent the defendants’ wrongful possession.
Plaintiffs invoke the commercial activity exception of
28 U.S.C. § 1605(a)(2) solely with respect to Count IV
for Unjust Enrichment, and do not allege that the
Court has jurisdiction over the underlying allegations
for title to the Welfenschatz pursuant to the commercial activity exception.
29. Venue is proper in the District of Columbia
against Germany pursuant to 28 U.S.C. § 1391(f )(4) as
a case brought against a foreign state (Germany), and
venue is proper in the District of Columbia against the
SPK pursuant to 28 U.S.C. § 1391(f )(3) because the
SPK is an agency or instrumentality of Germany (a

59
foreign state) and the SPK is doing business within the
District of Columbia, inter alia, as alleged above.
FACTUAL ALLEGATIONS
The Welfenschatz and the Consortium
30. The Welfenschatz consists of several dozen
medieval reliquary and devotional objects that were
originally housed in the Braunschweiger Dom (Brunswick Cathedral) in Germany. Although dating primarily from the 11th to the 15th century, the collection
acquired its commonly-known name hundreds of years
later when it passed into the hands of the Royal House
of Brunswick-Lüneburg, and later acquired the name
Welfenschatz because of its association with one of the
branches of the “Welfenhaus”, or “House of Guelph.”
31. The portion of Welfenschatz that is wrongfully in the possession of the SPK consists of the following objects:
i.

Guelph Cross (Welfenkreuz);

ii.

Portable Altar With Embossed Silver
Figures (Tragaltar mit Silberfiguren), 3rd
quarter, 13th century;

iii.

Demetrius Tablet (Demetrius-Tafel), 12th
century;

iv.

Tablet Shaped Portable Alter with Agate
Slab (Tafelförmiger Tragaltar mit Achatplatte), ca. 1200;

60
v.

Tablet Shaped Portable Alter with Slab of
Rock Crystal (Tafelförmiger Tragaltar mit
Bergkristallplatte);

vi.

Rectangular Casket with Painted Ivory
Tablets (Rechteckiger Kasten mit Bemalten Elfenbeinplättchen);

vii.

Eight-Cornered Casket with Lid (Achteckiger
Deckelkasten mit Bleibeschlag);

viii.

Portable Altar of Adelvoldus (Tragaltar
des Adelvoldus);

ix.

Portable Altar With Crystal Columns
(Tragaltar mit Kristallsäulchen);

x.

Standard Cross Borne by Three Lions
(Standkreuz, von drei Löwen getragen);

xi.

Portable Altar of Eilbertus (Tragaltar des
Eilbertus);

xii.

Portable Altar with the Cardinal Virtues
(Tragaltar mit den Kardinaltugenden);

xiii.

Walpurgis Casket (Walpurgis-Kasten);

xiv.

Portable Altar with Abraham and Melchizedek (Tragaltar mit Abraham und
Melchisedek);

xv.

Chapel Reliquary (Kuppelreliquiar);

xvi.

Highly Colored Reliquary Casket (Der
stark-farbige Reliquienkasten);

xvii.

Small Reliquary Casket with Champlevé
Enamel (Kleiner Reliquienkasten mit
Grubenschmelz);

61
xviii.

Arm Reliquary of St. Sigismund (Armreliquiar des Hlg. Sigismund);

xix.

Arm Reliquary of St. Innocentius (Armreliquiar des. Hlg. Innocentius);

xx.

Arm Reliquary of St. Theodorus (Armreliquiar des. Hlg. Theodorus);

xxi.

Arm Reliquary of St. Caesarius (Armreliquiar des. Hlg. Caesarius);

xxii.

Arm Reliquary of St. Bartholomew (Armreliquiar des. Hlg. Bartholomaeus);

xxiii.

Arm Reliquary of St. Lawrence (Armreliquiar des. Hlg. Laurentius);

xxiv.

Reliquary in the Form of a Portable Altar
in Wood (Tragaltarförmiges Reliquiar aus
Holz mit Steinen besetzt);

xxv.

Reliquary in the Shape of a Chest,
12th/13th Century (Reliquiar in Truhenform, 12/13. Jhdt.);

xxvi.

Reliquary in Chest Form (Reliquiar in
Truhenform);

xxvii.

Portable Altar in Tablet Form (Tafelförmiger Tragaltar);

xxviii.

Tablet-Shaped Portable Altar, 12th Century (Tafelförmiger Tragaltar, 12. Jhdt.);

xxix.

Head Reliquary of St. Cosmas (Kopfreliquiar des Hlg. Cosmas);

xxx.

Head Reliquary of St. Blasius (Kopfreliquiar des Hlg. Blasius);

62
xxxi.

Plenar for Sundays (Plenar für Sonntage);

xxxii.

Plenar of Duke Otto the Mild (Plenar Herzog Otto des Milden);

xxxiii.

Arm Reliquary of St. George (Armreliquiar des Hlg. Georg);

xxxiv.

Wooden Casket with Painted Heraldic Symbols (Holzkasten mit Wappenmalerei);

xxxv.

Relic Monstrance with Ivory Reliefs (Reliquienmonstranz mit Elfenbeinreliefs);

xxxvi.

Relic Cross on a Gilded Copper Base
(Reliquienkreuz auf Fuss/Kl. Vergoldetes
Kupferstandkreuz);

xxxvii. Small Folding Altar with Foot (Klappaltärchen auf Fuss mit Elfenbeinerner Madonnenstatuette);
xxxviii. Relic Capsula (Reliquienkapsel/Agnus Dei)
mit Anna Selbdritt;
xxxix.

Turned Box With Lid (Gedrehte Deckelbüchse);

xl.

Arm Reliquary of St. Mary Magdalene
(Armreliquiar der Hlg. Maria Magdalena);

xli.

Arm Reliquary of One of the Ten Thousand Warriors (Hölzernes Armreliquiar
eines der zehntausend Krieger);

xlii.

The Large Relic Cross (Das Grosse Reliquienkreuz).

32. The Welfenschatz occupies a unique position
in German history and culture, harkening back to the

63
early days of the Holy Roman Empire and conceptions
of German national identity and power.
33. Conservative estimates of the present-day
fair market value of the Welfenschatz (including those
advanced by the SPK itself ) exceed $250,000,000.
34. In or around 1929, the Consortium was
formed. It consisted of the plaintiffs’ ancestors and/or
predecessors-in-interest, and on information and belief
it received additional funding from third parties in
what amounted to a loan. Only these three art dealer
firms—Z.M. Hackenbroch, I. Rosenbaum and J. & S.
Goldschmidt—were the signatories to the contracts of
1929 and of 1935. On information and belief, the Consortium was solely entitled to ownership rights of the
collection in the time period of October 5, 1929 to June
14, 1935 when the Welfenschatz had been in their possession. This ownership was unaffected by certain
lenders, banks, and individuals (e.g., a business man
called Hermann Netter (“Netter”) from Frankfurt, Germany), who acquired no property interest in the collection.
35. By written agreement between the Consortium and the Duke of Brunswick-Lüneburg, the Consortium acquired the Welfenschatz on October 5, 1929.
A true and accurate copy of that agreement is attached
hereto as Exhibit 1, followed by a certified translation.
36. When the possibility that the Consortium
might successfully acquire the Welfenschatz first arose,
it was to the particular annoyance of disappointed German museums and states. As the Hannover High

64
Provincial President Gustav Noske (“Noske”), the former Reich Minister of defense, wrote on November 26,
1929 to the Prussian Minister of Finance and the Prussian Minister for Science, Art and Education, the price
for the Welfenschatz would be “a minimum amount of
20 million RM.” Indeed, the famed Kuppelreliquiar
now wrongfully in the possession of the SPK (and
which is shown prominently on the museum guide sold
in the United States that is referenced above) was discussed as having a value of 4 million RM all by itself
at that time (i.e., a sum consisting of the better part of
the amount for which the Consortium was eventually
forced to sell the entire Welfenschatz).
37. Concerted efforts by Germany’s Reichsregierung (Reich Government), the Prussian State Government and several other entities and museum officials
in June of 1930 to “save [the Welfenschatz] for Germany” failed, mainly caused by Otto Braun, the thenPrussian Prime Minister’s veto. While perhaps the
House of Welf could not regain the treasure, there was
an interest as described by President of the Prussian
Staatsrat, Oskar Mulert (“Mulert”), with anti-Semitic
foreshadowing to “sell the pieces to Germany, to avoid
an accusation of hucksterism abroad.”
38. At the request of the National Socialist faction, the town council of Frankfurt resolved as follows
on August 26, 1930 concerning the “maintenance” of
the Welfenschatz:
A provisional enactment is adopted . . . [ ] that
the most valuable and oldest cultural assets

65
of the German people, in particular the
Welfenschatz, should not be permitted to be
sold abroad, so that it can remain in the country.
39. Even a nationwide lottery was planned to collect money for the “salvation of the Welfenschatz.”
40. By 1930, the official intention was to buy the
Welfenschatz for the Berlin museums. This failed due
to the resistance and vetoes of the then-Prussian
Prime Minister Braun. Braun was particularly passionate about his plans for a democratic land reform,
which earned him the enmity of the large Prussian
landowners. In the final years of the Weimar Republic,
Braun opted for cooperation with the conservative
forces to keep the Nazis from power. He forbade the
Rhenish steel helmet (“Stahlhelm”), a World War I
community of ultra-conservative and National Socialist veterans, and enforced the nationwide ban of the
Nazis’ Sturmabteilung (“S.A.”), the Nazi Party’s paramilitary goon-squad and branch. In early March 1933,
Braun fled Germany in fear for his life and went into
exile in Switzerland.
41. Nevertheless, in the dying days of the Weimar Republic, the Consortium was able to bring the
Welfenschatz to the United States to offer it for sale to
museums. To some extent, the Consortium succeeded.
By 1930-31 about half of the collection had been sold
to museums and individuals in Europe and in the
United States. Those 40 pieces (out of 82 overall) which
were sold to the Cleveland Museum of Art and others,

66
however, comprised only about 20 percent of the value
of the Welfenschatz acquired in 1929—and did not include the most valuable pieces such as the iconic Kuppelreliquiar.
42. After the dramatic events and reactions of
1930, matters settled down briefly with respect to the
Welfenschatz. The Consortium, while not unaffected
by the growing world economic depression, was able to
safeguard the core income of its members and stay in
business. None of the three companies filed for bankruptcy.
43.
to last.

This period of relative calm, however, was not

The Nazi Rise to Power
44. Founded in 1923, the National Socialist German Workers Party (National Sozialistische Deutsche
Arbeiterpartei, or “NSDAP”), grew out of various nationalist movements in the wake of World War I. Originally called the DAP, (Deutsche Arbeiterpartei), Hitler
was member No. 55. He soon took control of the movement, and his message from the start was the unmistakable intent to marginalize and eliminate European
Jews.
45. Throughout the 1920s, the NSDAP struggled
for relevance in the economic chaos of the fledgling
Weimar Republic. A failed coup d’état in 1923 that
came to be known as the “Beer Hall Putsch” was derided as amateurish, and Hitler and other Nazi leaders

67
were imprisoned. While incarcerated at Landsberg
Prison, Hitler penned the foundational document of
what would become the Nazi movement: Mein Kampf.
The book left no doubt as to Hitler’s worldview, and his
views on where Jews fit into it, i.e., they did not. For
anyone seeking to rise within the NSDAP, or later the
government that it took over, it left no secret about how
to please Hitler.
46. With the onset of the Great Depression, the
electoral fortunes of the NSDAP improved. Still unable
to break through into a position of parliamentary control, they nonetheless achieved substantial enough minorities to be reckoned with, and made a name for
themselves with threatening behavior in the legislatures they joined.
47. That threatening behavior took its worst
form outside the halls of town halls, “Landtage,” the
German states’ parliaments, and the Reichstag, however. The Nazis and their “brownshirts,” the S.A., became known for politically-motivated violence and
attacks on political opponents, communists, socialists,
and Jews.
48. The Nazis also now found resonance in the
electorate with their scapegoating of Jews. Jews had
long been stereotyped in association with commerce, as
part of the alleged “Global Jewish Conspiracy.” The
NSDAP played off this, and blamed Jews for any and
all economic setbacks: the hyperinflation of the Weimar Republic, the collapse of the stock market, bank
closings, and the Great Depression. In a frightening

68
time, the Jews of Germany felt the scorn of their neighbors as never before.
49. In the parliamentary elections of 1932, the
NSDAP won a plurality of the popular vote for the first
time. This gave the NSDAP the largest faction within
the Reichstag, though not yet a majority. It was to be
the last even arguably democratic election in Germany
until after 1945.
50. On January 30, 1933, Adolf Hitler was appointed Chancellor by aging Reich President Paul von
Hindenburg. What was initially perceived as a stabilizing nod to conservatism, quickly descended into an
onslaught of repression. All the designs of the Nazi
Party program of 1920, the failed “putsch” of 1923, and
Mein Kampf had now assumed the authority of the
state.
51. On February 27, 1933, a fire broke out in the
Reichstag, the imperial parliament building that
housed the legislature of the Weimar Republic.
52. This provided the Nazis with the entire pretext they needed. Cited as proof that German communists were plotting against the government, despite
flimsy evidence and the likelihood that it was orchestrated by the Nazis themselves as an excuse to act, it
was to become the precipitating event for Nazi Germany.
53. With the “Decree of the Reich President for
the Protection of People and State” of 28 February
1933, better known as the Reichstag Decree, Hitler

69
was given far-reaching, violent means of power. Articles 114, 115, 117, 118, 123, 124, and 153 of the German
Constitution, which affected the fundamental rights of
citizens, were overridden. Henceforth, the restriction of
personal freedom, freedom of expression and of personal property were expressly sanctioned by the state.
Infringements of the Regulation were punished with
confiscation, prison, penitentiary, and death.
54. With free exercise curtailed and violent enforcers unleashed on the streets, victory in the election
of March 5, 1933 was ensured. The Nazis emerged with
a majority of the seats in the Reichstag, and carte
blanche was delivered to Hitler and his anti-Semitic
program.
55. Hitler and his regime wasted no time whatsoever. The Enabling Act of 1933 (Gesetz zur Behebung
der Not von Volk und Reich, or Law for the Remedy of
the Emergency of the People and the Reich) amended
the Weimar Constitution further, giving the Chancellor—i.e., Hitler—the power to enact laws without the
legislature.
56. Other laws followed in this vein: the Restoration of the Civil Service Law of July 4, 1933, the destruction of public unions and democratic trade
associations in April and May, 1933, the institutionalization of the one-party state and expulsion of nonNational Socialists (July 14, 1933), and the repeal of
the fundamental constitutional rights of the Weimar
Republic all followed.

70
57. These laws and regulations, while draconian,
barely approach the repression that was unleashed on
Germany’s Jews. Through the collective humiliation,
deprivation of rights, robbery, and murder of the Jews
as a population, they were officially no longer considered German.
58. Boycotts of Jewish businesses spread in
March and April 1933, just weeks after Hitler’s ascension, with the encouragement of the state itself.
59. By the spring 1933, the concentration camp
at Dachau had opened, and the murder of Jews detained there went unprosecuted. This may seem unsurprising with the benefit of hindsight, but Germany had
descended in a matter of weeks to a place where Jews
could be plucked off the streets, imprisoned, and murdered just yards away from their neighbors, all without
consequence. Closer to the Consortium, the Osthofen
concentration camp outside of Frankfurt opened in
May, 1933.
60. It was not merely that such violence could
happen with impunity, but also that it was now officially encouraged.
61. The boycott of Jewish-owned businesses is
hard to imagine now. Judges, lawyers, doctors, retailers, art dealers—the bedrock of the German middle
class—were targeted and driven out of their ability to
make a living.
62. Propaganda was soon in full swing. The Völkischer Beobachter was the notorious official Nazi Party

71
paper. In an edition dated March 31, 1933, Julius Streicher (who published his own militant and racist newspaper Der Stürmer) called on the populace to boycott
Jews as “profiteers, war slide, convicts, deserters and
Marxist traitors.” He concluded:
All Jews will have to fight so long, until victory is ours! Nazis! Defeat the enemy of the
world! And if the world would be full of the
devil, we must succeed yet!
63. S.A. men, the by-now-ubiquitous brownshirt
thugs, fanned out to express “public opinion,” as the police and ordinary citizens looked on. Jewish shops were
smashed, stores and apartments were looted, and Jewish lawyers were beaten on their way to court.
64. The latent danger for Jews to lose their lives
and their property was not dependent on the new laws
noted above, though they hastened the threat. More
laws restricted the ability of Jews to transfer assets—
punishable by death—as Jews were tortured in Gestapo, S.A. and S.S. cellars or simply beaten to death
in broad daylight.
65. For example, on April 1, 1933, furrier Hirsch
Ber Gottfried was beaten through the streets of Leipzig, and had a sign hung around his neck that read “I
am a dirty Jew.”

72
Prussia and the Nazis Train Their Sights on the
Welfenschatz
66. No Jews could remain unaffected by the foregoing, and the members of the Consortium were no different. The members of the Consortium were soon
completely cut out of economic life in Germany, and on
information and belief, were themselves threatened
with violence.
67. On information and belief, the Geheime
Staatspolizei—the Gestapo—opened files on the members of the Consortium because of their ownership of
the Welfenschatz and their prominence and success.
68. Not surprisingly, Prussian interest in the
Welfenschatz was soon revived now that the Consortium was so vulnerable.
69. Former District and Local Leader of the
Kamfbund für deutsche Kultur—the League of Struggle for German Culture—and new Mayor of Frankfurt
Friedrich Krebs (“Krebs”) quickly wrote to Hitler himself (emphasis added):
Upon coming to power, National Socialism in
Frankfurt a.M. also found extraordinarily unclear relationships in the area of art. Since
then, the coarsest grievances have been resolved and in the course of reconstructing the
artistic life of the old imperial city, I have
come to the question of how one of the greatest artistic and cultural properties of the German people, the [Welfenschatz], which was
last exhibited in Frankfurt a.M. in 1930 and

73
then transported to America, can be won back
for the German people. . . .
[]
The Gospels of Henry the Lion must be regarded as a key piece of the Guelph Treasure
that is located in Gmunden. This work of German book illumination is the greatest of all
time and is not included (in the inventory) in
the Guelph Treasure and has also therefore
not been moved to America; however, it belongs integrally and, indeed, as a key piece.
The securing of the Gospel of Henry the Lion
would be the most important act in a systematic cultivation of historical artifacts for Germany and would attract even more attention
because the work is hardly known in wide sections of the population and has never been
shown to the public.
Under your leadership, the new Germany has
broken with the materialism of the past. It
considers the honor of the German people as
its most valuable asset. In order to reclaim
this honor on an artistic level, I believe the recovery and the ultimate acquisition of any irreplaceable treasures from German’s middle
ages, such as they are organically combined in
the [Welfenschatz], would be a decisive step.
According to expert judgment, the purchase is
possible at around 1/3 of its earlier value.
It therefore relates to an amount that will be
proportionally easy to raise. I therefore request that you, as Führer of the German

74
people, create the legal and financial preconditions for the return of the [Welfenschatz].
70. A true and accurate copy of this letter is attached hereto as Exhibit 2, followed by a certified
translation.
71. Ostensibly Krebs sought the acquisition of
the Gospels of Henry the Lion, but his real intention
was to save the honor of the German people, to snatch
the Welfenschatz from the Jewish merchants, and
bring it “home to the Reich,” and asks Hitler himself to
lay the groundwork for obtaining the Welfenschatz at
only 1/3 of its value.
72. To place Krebs in context among Nazi zealots, he distinguished himself as mayor by firing all
Jewish civil service employees ten days before the Law
for the Restoration of the Civil Service was enacted.
73. Standing behind all of this was Goering himself, Hitler’s highly decorated deputy—Prime Minister
of Prussia at that time—aided by the desire and expediency by his underlings to demonstrate their antiSemitic credentials to him and to Hitler.
74. Goering was a notorious racist and antiSemite who, in view of the massive destruction of infrastructure and buildings, mostly synagogues, caused
by the Nazi-mob on occasion of the Reich’s Pogrom
Night, or “Night of Broken Glass” (“Kristallnacht”) in
November 1938, is quoted saying that he would have
“preferred if you would have slain two hundred Jews
rather than destroying such values. . . .”

75
75. Goering’s appetites were as prodigious as
they were legendary, particularly with respect to art.
He cultivated for himself an image of culture and refinement that was belied by his rapacious greed for
plundered art. Throughout his period of influence in
the Third Reich, Goering targeted art that he wanted,
but seldom if ever did he simply seize property. Instead, he routinely went through the bizarre pretense
of “negotiations” with and “purchase” from counterparties with little or no ability to push back without risking their property or their lives.
76. Adolf Feulner (“Feulner”) had a career beginning in 1930 as director of the Museum of Decorative
Arts and History Museum in Frankfurt, and from 1938
to his death as head of the Kunstgewerbe (arts and
crafts collection) of Cologne.
77. In a letter dated November 1, 1933, Feulner
wrote to the President of the German Association for
the Preservation and Promotion of Research (Deutsche
Gemeinschaft zur Erhaltung und Förderung der Forschung, or the “DFG”), Friedrich Schmidt-Ott (“SchmidtOtt”) about the Welfenschatz. This letter makes clear
that it was Feulner who approached the Consortium,
and not the other way around, and at the instigation of
Krebs or at the very least in consultation with him.
Feulner wrote: “After consultation with Mr. Hackenbroch
/ . . . / the owners are very willing . . . to enter into negotiations with the Reich.”
78. Although the Welfenschatz was physically
stored in Amsterdam, the Netherlands by this time,

76
there is no question that the peril faced by the Consortium as Jews, still living in Germany and vulnerable
to Nazi attacks at any time, placed it well within the
Nazis’ grasp. Any resistance posed grave risks to the
Consortium and their families.
79. On January 1, 1934 the museum directors
Dr. Otto Kümmel (“Kümmel,” of the State Museums),
Dr. Robert Schmidt (“Schmidt” of the Schloss Museum,
the predecessor of the Kunstgewerbemuseum where
the Welfenschatz is today), Dr. Karl Koetschau
(“Koetschau” at the Kaiser-Friedrich-Museum), and
Dr. Demmler (at the German Museum), together with
Dr. Hans-Werner von Oppen (“von Oppen,” Speaker in
the Ministry of Education and Board member of the
Dresdner Bank) visited the collections stored at the
bank whose possession had been taken by Prussian intervention. The Welfenschatz was discussed at this
meeting, and clearly not for the first time. As the
minutes of the meeting composed by a Mr. Stern of the
Dresdner Bank noted:
On previous visits the museum directors, and
in particular Prof. Koetschau, had noted that
it was of considerable interest to establish the
ways in which to incorporate the Welfenschatz. When Prof. Koetschau returned to this
issue again and Dr. von Oppen was informed
about the possibilities on the matter, I told
him that the Welfenschatz was with an art
dealer consortium, that would be happy to liquidate their failing business, and that I would
be able to commence negotiations with the appropriate person, if this were desired.

77
80. Von Oppen directed Stern to lead the effort
“in all respects.”
81. Later, in December, 1946, Schlossmuseum director Schmidt misled the Allied forces in securing
himself a role at the Central Collecting Point at Wiesbaden, from which he found himself a prosperous postwar career. Despite direct firsthand knowledge of the
transaction, he described the purchase price of Prussia’s 1935 acquisition of the Welfenschatz as 7 million
RM, plus a number of valuable works of art. While still
below market, this was a complete fabrication that allowed Schmidt to shift blame to others, a regrettably
recurring theme among those like Schmidt who acquiesced in this kind of illicit behavior.
82. Stern notes in the minutes menacingly that
although the Welfenschatz had been purchased in
1929 for 7.5 million RM, that the Consortium might be
willing to accept a lower price “to liquidate the business so as not to suffer even more loss of interest. . . . ”
83. Just days before Stern had told Alfons Heilbronner, owner of the art dealer Max Heilbronner in
Berlin, a Jewish debtor to Dresdner Bank and since
that time the messenger between the bank and the
Consortium, to “determine whether a price substantially below the price that it cost, would have appeared
promising.”
84. Stern then told Heilbronner that he did not
want to approach the Consortium, but that if Heilbronner did he could be assured a commission.

78
85. Heilbronner became suspicious. He had
heard that “negotiations with the Reich were in progress,” but he dismissed Stern because he was concerned that if an interested buyer appeared, he could
not be sure if they were acting for themselves or for a
third party. In any event, it was agreed that Heilbronner would “initiate his efforts immediately.”
86. It was clear from the words of the representatives of the Dresdner Bank that it intended to pursue
the Welfenschatz with the German Reich to obscure
Prussia’s role in transacting business with Jews.
87. The SPK has publicly argued that the Consortium initiated the dialogue that ultimately resulted
in the 1935 transaction. In fact, there is no evidence
whatsoever to suggest that the Consortium sought to
begin negotiations with the Nazi state. The only plausible interpretation of the correspondence among highranking Nazis is that it was they—the Prussian functionaries—who sought out the Consortium.
88. This conclusion is underscored by the Dresdner Bank’s role as intermediary in the targeting of
other Jewish collections. Dresdner Bank was majorityowned by the German state at the time of the Nazi ascension to power. Between 1933 and 1937, when it was
once again privatized, it played a similar role in other
cases. On August 15, 1935, the Dresdner Bank executed an agreement to sell the Berlin museums more
than 1,000 works, including works “purchased” from
Jewish owners under the days of early Nazi terror.
These works of art came from Jewish art collections

79
which had been handed over to Dresdner Bank as collateral at some point and which were sold by Dresdner
Bank, as the bank’s property, in mid-1935 to the Prussian Nazi-State in order to enrich the Berlin state’s
museums’ collections. The bank’s role in the Welfenschatz transaction is consistent with this complicity.
89. The Dresdner Bank’s role as an agent and/or
co-conspirator of the Nazi state is further underscored
by a statement made by the law firm BergschmidtToussaint-Burchard of Berlin on April 20, 1936, which
represented Dresdner Bank’s interests in a claim
against Herbert Bier, the nephew of Zacharias M.
Hackenbroch, living as a Jewish refugee in London at
that time. The letter states that “/ . . . / as you may be
aware, Dresdner Bank’s and the German Reich’s
Treasury’s economic issues are very much the same.
The receivables we have been given order to seize from
you, therefore is German tax payers’ money.”
90. As detailed in an investigative report in Der
Spiegel, the leading German weekly news magazine, a
study commissioned by the Dresdner Bank took an unprecedented look at the role of a financial institution
in Nazi Germany:
“Dresdner Bank in the Third Reich” paints a
stark picture of how the firm actively courted
Nazi favor in order to make money and rapidly expand its business.
The study also shows the bank took part early
on in the Third Reich’s policy of confiscating
Jewish property and wealth. “It’s a myth that

80
the bank was forced to take part in the ‘Aryanizing’ of Jewish wealth,” [ ]
But perhaps one of the most damning associations for Dresdner’s past managers is its
close ties to Heinrich Himmler’s SS. The bank
was the most important private lender for the
Nazi organization and played a key role for its
operations in occupied Europe, essentially
acting as the bank of the SS in Poland.
91. The Dresdner Bank’s approach to the Consortium is completely consistent with this history, and
is the only plausible inference from the documentary
evidence.
92. On January 23, 1934, Stern reported to the
Reichsbank directorate that Heilbronner had not succeeded with the spokesman of the Consortium. He was
told that the Consortium “will not go down under 6.5
million RM, perhaps 6 million RM in extreme circumstances.”
93. Heilbronner quickly traveled to Paris under
pressure from the bank syndicate to tell Saemy Rosenberg that the price could not exceed 3.5 million RM.
94. Stern memorialized another meeting on May
11, 1934: Mulert had called, and wanted to know if it
was going to be possible to “secure the Welfenschatz for
German museums.” Stern had informed Mulert that
the Consortium had advised that they had an offer in
hand for 7 million RM, probably from a Berlin private
banker.

81
95. It was hardly unexpected that such an offer
would have come in, nor that the Consortium would
have wanted to wait out for bidders to compete against
each other. Anyone listening to Hitler’s speeches and
official propaganda about art knew how Nazi art tastes
ran: they detested modern art that they deemed “degenerate,” and they exalted traditional, historical German art and motifs. The Welfenschatz was, literally,
the highest example of what the Nazis sought. It combined both impeccable “German” credentials, but was
also of unquestioned quality apart from the state sponsored works being churned out by the likes of Josef
Thorak and Arno Breker.
96. But the Consortium did not have time to wait
for the fair market value of the Welfenschatz. Legion
examples of Jewish collectors and professionals exist
who waited too long and lost everything.
97. Koetschau then asked Stern when the negotiations over the Welfenschatz would begin. Stern reported
that he expected a firm offer from the Consortium, and
that the price of 3.5 million RM being pursued would
be a “very low” price constituting 15% of the Welfenschatz’s value.
98. To put it in context, if 3.5 million RM were
15% of the value of the Welfenschatz, then the Welfenschatz’s full value would have been 23.33 million RM,
or nearly six times what the Consortium was paid.
99. A month later, Stern advised the director of
the Schloss Museum that negotiations had stalled

82
because the Consortium continued to insist on a price
over 7 million RM.
100. Starting in the summer of 1934, two people
in particular took up the mantle of “saving” the Welfenschatz for Germany: Paul Körner (“Körner”) and Wilhelm Stuckart (“Stuckart”). It was this effort that led
to the eventual sale under duress of for dramatically
below market value.
101. The Consortium could scarcely have expected fair treatment from them.
102. Körner already had a successful Nazi career
behind him by 1934. Since 1926 he had been adjutant
for Goering. Körner was an NSDAP Party member
starting in 1931 (long before even a cynic could argue
it was advantageous or necessary for status in Nazirun Germany), as well as the Schutzstaffel (the “S.S.”)
—an organization later declared by the International
Military Tribunal at Nuremberg to be a criminal enterprise, and about which its elite members cannot
ever have had any illusions. He rose to an S.S. Group
Leader (Gruppenführer)—an “achievement” that speaks
for itself—and was appointed as personal assistant to
Goering in the Prussian Ministry of the Interior.
103. After Goering became Prussian Prime Minister in April 1933, Körner was appointed Secretary of
the Prussian State Ministry. On the occasion of the
opening of the Prussian State Council (Staatsrat) described above, Körner wrote a foreword in the Völkischer Beobachter, in which he took aim at “all liberal
and democratic sentiments,” and described the task of

83
the new Staatsrat as, “to be National Socialist in its
operation.”
104. Goering transferred authority to Körner on
April 10, 1933 over the “Research Office,” the notorious
institution that took over all telephone, telegram, radio, and mail monitoring in the Third Reich.
105. Goering also approved Körner for the post
of Secretary of State in the Four-Year Plan. In this role,
Körner was to be instrumental in helping to make the
German economy “ready for war.” Finally, and most
tellingly, Körner later attended the Wannsee Conference in suburban Berlin in 1941, at which Reinhard
Heydrich, Adolf Eichmann, and other high ranking
war criminals decided upon the implementation of the
“final solution of the Jewish question”—the plan to exterminate the entire Jewish population of Europe.
106. Stuckart first came into contact with the
Nazi Party in 1922 while a law student, and enrolled
in the Party at a time when it was barely on the fringe
of mainstream German politics. By 1926, he was the
legal adviser of the NSDAP in Wiesbaden. Starting in
1930, he was also a member of the Kampfbund fur
Deutsche Kultur. He applied to the civil service in 1930,
but was dismissed in 1932 because of his political (i.e.,
Nazi) convictions. Stuckart also joined the S.A. in 1932
and ascended to be the legal secretary to the S.S. and
S.A. in Pomerania.
107. On May 15, 1933 Stuckart was appointed as
Acting Assistant Secretary of State in the Prussian
Ministry of Science, Culture and Public Education.

84
Just a few weeks later, he was appointed Secretary of
the Ministry of Science and entrusted with the representation of Minister Rust.
108. Rust had been a member of the NSDAP
since 1922. He was a “Gauleiter” (an honorific given to
regional leaders within the party) after 1928 of the nationalist/anti-Semitic National Socialist Society for
German Culture. After the seizure of power, he
founded in 1935 the racial ideology Reich Institute for
the History of the New Germany. Rust committed suicide on the day of German surrender on May 8, 1945.
109. Stuckart’s area of professional responsibility by then included primarily “Jewish Affairs,” and he
was to become the architect of the development of the
anti-Jewish law. Notably, he was instrumental in the
drafting of the “Nuremberg Laws” that codified the exclusion of Jews from all aspects of society. In 1936 he
became Chairman of the Reich Committee for the Protection of German Blood.
110. This, then, was the first of the characters
with which the Consortium was confronted in seeking
to recoup the fair market value of their property.
111. Still in his capacity as Deputy Minister of
the Ministry of Science, Stuckart answered on July 14,
1934 a June 26, 1934 letter from Körner. Körner had
submitted to Stuckart a draft of a letter to be sent to
Hitler, to which Stuckart offered his opinion as follows:
I note that in the opinion of the Prussian
Minister of Finance, an acquisition by the

85
Prussian State would be within the range of
possibilities, providing that the President of
the Reichsbank (in parallel the negotiations
that were recently held between him and myself in relation to the question of purchasing
the art collections that are situated at Dresdner Bank, about which I have notified the
Prime Minister through official channels) declares himself to be in agreement that the
payment would not take place in cash, but by
issuing Prussian treasury bonds. Reichsbank
President Schacht held out the prospect of the
same kind of financing for the acquisition of
the Guelph Treasure by the Prussian State.
This means that Prussia does not need to
raise any funds now, but solely takes on a less
onerous indebtedness. In this way, Prussia
would be put in a position where it was able
to subsequently bring the historically, artistically and national-politically valuable Guelph
Treasure to the Reich in addition to many
other valuable cultural treasures.
112. A true and accurate copy of this letter is attached as Exhibit 3 hereto, followed by a certified
translation.
113. The cast of notorious National Socialists
identified in the paragraphs above and arrayed against
the Consortium is sobering. First, of course, the draft
letter is intended for Hitler himself. Currying favor
with the Führer through acquiring the Welfenschatz
was the overriding goal. Second, Stuckart had already
vetted the plan with the Prime Minster of Prussia
—i.e., Goering. Lastly, the financing that had been

86
considered, approved, and planned, came from Schacht,
the President of the Reichsbank.
114. For his part, Schacht was no lightweight in
the Nazi Party; in addition to his duties as President
of the Reichsbank from 1933 to 1939, he was the
Reich’s Economic Minister from 1934 to 1937, as Germany flouted the Versailles treaty, targeted resources
in the Saarland that were supposed to remain neutral,
and made every preparation to plunge Europe—and
with it the whole world—into war.
115. The letter went on to describe how Stern,
and a “Mr. Pilster” would soon appear as “interested
parties,” offering intentionally lowball offers of 3 million and 4 million RM—a scheme orchestrated by the
“M.P.”, i.e. by Prime Minister Goering, quite literally
for Hitler. It went on to recommend that the city of
Hannover be discouraged from entering into the negotiating picture.
116. The letter closes, “With German greetings
and Heil Hitler!”
117. Stuckart thus describes the motive for the
acquisition of Welfenschatz: to impress Hitler and his
circle, and to do so for a less than market price. The
pressure that would allow this to happen is so axiomatic as to be a basic aspect of Nazi Germany: the life
and liberty of the Consortium were at stake.
118. For Stuckart himself, he is even more frank.
The Welfenschatz is “obviously politically” valuable for
Prussia “in its later rise in the Reich.” The stage was

87
thus set, to take advantage of the weakened position of
the Consortium by virtue of their persecuted status, to
acquire the Welfenschatz for far-below-market price.
119. That process only accelerated as 1934 went
on. The National Socialist regime was not content to
enact legislation targeting specific policy aims. The
Nazis were clear that the real goal was Gleichschaltung-the transformation of society itself. Art was at the
center of this plan.
120. In 1933, Minister for Propaganda and Education Joseph Goebbels founded the Reich Chamber of
Culture (Reichskulturkammer)—after first organizing
the April 1, 1933 Jewish boycotts. The Reichskulturkammer assumed total control over cultural trade, and
membership was required to conduct business. Needless to say, Jews were excluded, effectively ending the
means of work for any Jewish art dealer in one stroke.
Major dealers’ collections were liquidated because they
could not legally be sold.
121. Ideologue and “Reichsleiter” Alfred Rosenberg soon got involved as well. Alfred Rosenberg
played many roles. He was the editor of the Völkischer
Beobachter, and he was also the author of the polemical screed The Myth of the 20th Century (Der Mythos
des 20. Jahrhunderts)—second only to Hitler’s Mein
Kampf in its influence on Nazi racist ideology. Later,
he gave his name and direction to the notorious
Einsatzstab Reichsleiter Rosenberg (ERR) that coordinated the systematic looting of occupied countries,

88
particularly the collections of French Jews (those Jews,
of course, were frequently then murdered).
122. Not surprisingly, Alfred Rosenberg was
tried as a war criminal at Nuremberg after the war,
convicted, and hanged.
123. Alfred Rosenberg’s Kampfbund für Deutsche
Kultur disrupted auctions at Jewish establishments
and drove some to ruin.
124. In an added and ironic tragedy, Jewish art
dealers also lost their Jewish customers, whose economic means were being destroyed systematically and
comprehensively; there was no money left to buy art.
125. The impact of the Jewish exodus from German economic and cultural life by this time was made
clear in a Municipal Memorandum Concerning the Departure from Culture Associations by Jewish Members,” dated February 16, 1934. Rental revenue from
Jewish tenants plummeted; the Municipal Theatre in
Frankfurt, for example, saw its revenue fall by 100,000
RM; the Museum Society lost 40% of its revenue, the
Frankfurt Art Association lost 270 Jewish and 50 nonJewish members, nearly half of all members together;
and the Staedelsches Kunstinstitut likewise saw its
membership drop from 120 to 70. Investment in art fell
too.
126. To sum it all up, on December 1933, the
Frankfurt city treasurer wrote to Krebs with regard to
the current climate:

89
In the period from 1 March to 31 October
1932, 372 Jewish firms were closed. In the
same period of the year 1933, 536 Jewish
firms were closed. It is not only the increasing
the number closures from 1932 to 1933 that
shows the severe economic damage that the
city has seen. Rather, it has to be noted that
while the earlier closures were also followed
by corresponding new applications, there can
of course be no question of any significant new
registrations in 1933.
127. The local museums, who were mainstay
customers of the dealers in the Consortium, fell away
too but not for reasons of economic difficulty. Rather,
they were subject to new stringent nationalist regulations, characterized by the infamous signs Kauft nicht
beim Juden!—“Don’t buy from Jews!”
128. Because of the anti-Semitic climate, Isaak
Rosenbaum and his nephew Saemy Rosenberg, the two
co-owners of I. Rosenbaum, gave up, when Saemy Rosenberg had received a warning from a trusted friend
and World War I comrade, that he should better “go on
a long vacation abroad.” They left Germany, and emigrated to Holland. Both were liable for the payment of
flight tax in the amount of 25 percent of their total
(movable and immovable) assets. A true and accurate
copy of the Gestapo memo that memorialized this extortion is attached hereto as Exhibit 4, followed by a
certified translation.
129. The owners of the art dealer J. & S. Goldschmidt (also part of the Consortium) were forced by

90
the Reich Chamber of Culture to vacate its premises at
Berlin in 1934, where it had been since 1923 in the Palais Rathenau. J.&S. Goldschmidt had no choice but to
move to the back room of the antiques firm of Paul
Graupe auction house, as subtenants. Naturally, sales
continued to decline precipitously, and the business
was de facto closed by 1936, when Julius Falk Goldschmidt and his cousin Arthur fled Germany in July
and in November the same year, leaving behind all of
their assets.
130. The nephew and designated successor of
Z.M. Hackenbroch, Herbert Bier, later described the
cataclysm that befell his uncle: “The depression of 1930
and what followed was naturally notable, but the real
decline began with the boycott in 1933.” And the lawyer for Hackenbroch’s widow Clementine later added
poignantly:
Although, according to a letter from the President of Fine Arts, the deceased husband was
allowed to exercise his profession / . . . / until
7/31/37, such an exercise of his business
amounted to little or nothing in view of the
economic damage caused by the general Boycott. Like a still-licensed attorney, a doctor
was allowed to operate, but it was known that
the Jew was boycotted and was shunned despite official permission from Christians. I
was also a “Front Combatant” with an Iron
Cross 1st Class, and thus allowed my activity
by law. But I had nothing more to do.

91
131. While “Aryan” companies had suffered just
as Jewish businesses had under the global economic
crisis, starting in 1933 the former soon got back on its
legs thanks to the Nazi regime and, relevantly, prospered from the repression of their Jewish competitors.
Dresdner Bank
132. Dresdner Bank, which became notorious as
the “S.S. bank”, was frequently complicit in one-sided
and manipulative taking advantage of other Jewish
business owners, as spotlighted in many studies, e.g.
by the Office of Military Government for Germany
(OMGUS)—Financial Division, by its 1946/47 summary reports on the investigation of the role of the German banks during the Nazi era (cf. OMGUS: Dresdner
Bank Report—Report on the Investigation of the Dresdner Bank, 1946). According to these studies, Dresdner
Bank executives forged especially close ties to SS
leader Heinrich Himmler: “We are the bank of SS,” as
Dresdner Bank executive board member Emil Meyer
had declared in 1941. Dresdner Bank—which until the
early 1990s had claimed only a limited role in helping
the Nazis—was deeply involved in the Third Reich in
many ways and, after Hitler came to power in 1933, it
took the lead in seizing Jewish property, set up countless subsidiaries in occupied territories and financed
the arms sector. Dresdner Bank became a leading financier of the German occupation authorities in occupied Poland and Hitler’s invasion of his neighbors
enabled the bank to expand its operations and increase
its earnings potential in a way it had never envisaged.

92
Dresdner Bank, like other Third Reich banks, was extensively involved in expulsions, genocide and war.
133. On February 9, 1935 Dresdner Bank Director Samuel Ritscher wrote in a file note that Prussian
Finance Minister Johannes Popitz (“Popitz”) had asked
him to care for the matter of the Welfenschatz. It would
fall to him to carry out this transaction together with
the art collection of Dresdner Bank, “so the whole thing
appears to be together.”
134. The magnitude of this opportunity was apparent to Popitz, who saw the possibility of taking advantage of the Consortium’s condition to acquire the
Welfenschatz.
135. Stern described a meeting of the Director
of the Schloss Museum with Director Nollstadt
(“Nollstadt”) of Dresdner Bank of February 12, 1935:
Heilbronner remained in “continuous negotiations”
with the Consortium. Nollstadt discussed the importance of conveying the impression to the Consortium that the buyer whom Dresdner Bank represented
intended to gift it to the state museums, such that the
Consortium would conclude there were no other potential buyers (those very museums being the most obvious candidates otherwise).
136. At the beginning of April, 1935, Otto von
Falke, one of the leading and well-known German art
experts and co-author to a rare catalog compiled on the
Welfenschatz by 1930, viewed the remaining parts of
the Welfenschatz. He reported, “that the most beautiful and historically the most outstanding works of art,

93
on which the fame of the Welfenschatz is based, still
exist.”
137. On April 6, 1935 Heilbronner reported directly to Director Ritscher that he had been “intensely
preoccupied with the matter” for a year and a half. The
problem according to Heilbronner, was that Rosenberg
and the other members of the Consortium were confident in the rectitude of the asking price. Heilbronner
resolved to convince the Consortium of the fleeting nature of the opportunity—fleeting of course because of
the grave peril that the Consortium now faced in the
Nazi regime.
138. By the spring of 1935, the exclusion of Jews
from the German life had assumed more threatening
forms, and had become nearly total. The means by
which German art could be sold by Jewish dealers had
effectively been eliminated.
139. It is hardly a surprise then, that after two
and a half years of pronounced repression and the very
real risk that they would lose the entire Welfenschatz,
if not more, the Consortium sent word that it might be
“willing” to relent from the fair market value of the collection and sell it for 5 million RM—already far below
what all involved had acknowledged was its real value.
These “deliberations” were, of necessity, coerced and
under duress by virtue of the circumstances.
140. On April 10, 1935, Heilbronner spoke again
with Ritscher, who told him that Dresdner Bank “in
the name of its client,” was authorized to submit a bid
of 3.7 million RM for the Welfenschatz.

94
141. Then, a new issue arose that threatened the
intended acquisition of the Welfenschatz, the “solution”
to which only underscores the coercive context of the
pending transaction.
142. In Herrenhausen bei Hannover (near the
City of Hannover, capital of the German federal state
Lower-Saxony), a new museum had been planned, and
it intended to seek to acquire the Welfenschatz. The
basic economics of the effect that this could have had
on the negotiations is clear: it presented the possibility
that a new, motivated bidder would enter the discussion willing to pay the fair market value, against which
Prussia’s lowballing would stand no chance in a real
negotiation.
143. Dresdner Bank, which was acting on behalf
of Prussia and which had also indemnified Heilbronner for his commissions, assured that it would
take appropriate action: The “authoritative entities”
were to be invited to review the plans at Herrenhausen
to ensure that there was no “conflict.” In other words,
the Nazis made it clear to the museum in Herrenhausen to cease its interest in buying the Welfenschatz
fairly.
144. Thus, in one final stroke the Nazi state and
its agents stripped away the last chance that the Consortium had to recover the value of its property.
145. After two years of direct persecution, of
physical peril to themselves and their family members,
and, on information and belief, secure in the knowledge
that any effort to escape would result in the certain

95
seizure outright of the Welfenschatz, the Consortium
had literally only one option left.
146. Rosenberg submitted an offer valid until
May 4, 1935 under the most extreme duress: a sale
price of 4.35 million RM.
147. Dresdner Bank, still in its role as the “purchaser,” would not drop the ruse. It claimed that its “client” (i.e., the Nazi state itself ) was “traveling” and
could not yet respond to the offer, asking for another
16 days to respond. “However,” said the bank, “we believe it should be noted that the margin between the
price 3.7 million RM that you rejected, and your current demand, is so great that we fear that our client
will not increase his offer.”
148. Additional discussions ensued about the
proportion of the sales price that would be paid in cash,
and whether in local or foreign currency, and whether
in Germany, or elsewhere.
149. On May 17, 1935, Rosenberg made a final
offer on behalf of the Consortium. By early June, the
negotiations had progressed to the point that the acquisition of the Welfenschatz was considered all but
certain, such that Rust, as Reich Minister for Science,
Education and Culture, wrote to the Minister of Finance:
It is with great satisfaction that I welcome the
repurchase of the Welfenschatz, in connection
with the proposed acquisition of the art holdings of the Dresdner Bank. Its recovery for

96
Germany gives the entire action its historic
value.
150. During the negotiations, Saemy Rosenberg
was staying at the Hotel “Fürstenhof ” at Potsdamer
Platz in Berlin. At this same time, S.A., Hitler Youth,
and non-party members were demonstrating against
Jewish shops daily, chanting, “do not buy from Jews!”
151. The same day—Friday, June 14, 1935—
when Saemy Rosenberg signed the sales contract in
Berlin, apparently in great haste and pushed by his
counterparts from Dresdner Bank—he sent a letter to
Dresdner Bank when he returned to the hotel, stating
that the contract should be regarded as legally valid,
even without the other owners having signed it at this
point. Furthermore, he promised to get all of the owners of the Welfenschatz to sign it properly by return.
152. On July 1, 1935, Saemy Rosenberg went to
the Kaiser Friedrich Museum in Berlin to view the
works of art in the collection, as the incorporation of
some existing works had come into the discussion for
the Welfenschatz negotiation.
153. A true and accurate copy of both the contract of June 14, 1935, and the letter of Saemy Rosenberg of June 14, 1935, are attached hereto as Exhibit 5
and Exhibit 6, respectively, followed by certified translations.
154. The surviving copy of the contract bears
four signatures only: of Saemy Rosenberg, Isaak

97
Rosenbaum, Zacharias Max Hackenbroch and Julius
Falk Goldschmidt—the sole owners of the collection.
155. The tactics of the Nazi-Prussian state and
of Goering to get possession of the Welfenschatz under
“favorable conditions” thus proved successful, accomplished by means of terror and threat, relying on the
great imbalance of power of the contracting parties
and by pursuing a scheme of grave manipulative negotiation and a cover-up.
156. In mid-July, as the “deal” was being concluded, there were riots on Berlin’s Kurfürstendamm.
157. On July 18, 1935, the Welfenschatz, supervised by director Dr. Schmidt, was carefully packed in
Amsterdam for delivery to the Schlossmuseum in Berlin.
158. On July 19, 1935, Dresdner Bank made the
requisite payments pursuant to this document.
159. The agreed upon terms and conditions of
the contract of June 14, 1935 were to the unique benefit of the buyer, the Nazi state. Moreover, the Consortium was obligated to pay a commission of 100,000 RM
to Alfons Heilbronner out of their pockets (which enabled Heilbronner to pay back his debts he had with
Dresdner Bank to some extent). After the deduction of
that commission, the remaining purchase price of 4.15
million RM was split: 778,125 RM were paid to a “Sperrmark account,” a blocked account with Dresdner
Bank. To be offset against the credited money, the art
dealers had to accept art objects from the Berlin

98
Museums instead of having access to freely dispose of
that money. The received works of art eventually were
sold in order to repay the Consortium’s foreign loans.
According to Hackenbroch, the selection of the pieces
from the museums to be delivered to them, and contrary to prior mutual agreement, was not made by the
art dealers, but ultimately by museums’ officials. They
were thus forced to accept other items in lieu of payment—not by choice—but at their risk of selling them
at appropriate prices (which was of course impossible
because of their persecution as Jews).
160. The balance, the amount of 3,371,875 RM,
was credited to three different bank accounts of
Hackenbroch in Germany.
161. The Consortium used that money to repay
the investors, the money lenders from 1929 in full, the
receipt of which is confirmed by German tax records.
This only diminished further the diluted value for
their property that the Consortium realized in this coercive transaction. Thus, the Consortium disposed of
the Welfenschatz at a significant loss relative to its
market value, when they had no longer had any alternative in Germany to earn a living.
162. By this time, Jews were denied not only to
transfer cash abroad legally, but any other receivables
of more than 50,000 RM. One of the massive obstacles
to emigration was the so-called flight tax on all emigrating nationals who had assets of more than 200,000
RM. While originally intended to discourage emigration in the Great Depression, it was used by the Nazi

99
regime as a means simply to steal what Jews had left
as they fled for their lives.
163. Hackenbroch died on August 9, 1937, officially because of cardiac insufficiency.
164. Cleveland Museum of Art director William
M. Milliken (“Milliken”) traveled to Germany before
the war on a regular basis and had been well acquainted with the art dealers. In his autobiography, he
discussed the Consortium and the Welfenschatz.
165. Milliken left no doubt that the very possession of the Welfenschatz by the Consortium, and in
particular the decision to sell portions of the collection
in America, subjected the Consortium to specific antiSemitic vitriol.
166. Milliken also relates rumors he had heard
about Hackenbroch being “dragged to his death
through the streets of Frankfurt by a Nazi mob.”
167. In either event, Hackenbroch’s widow was
evicted from their house—on what had then been renamed, in the bitterest of ironies, “Hermann Goering
Ufer”—two months later so that the Hitler Youth could
use it. The last remnants of his gallery inventory came
to auction in December, and on December 30, 1937 the
firm was deleted from the commercial register and
simply ceased to be.
168. Clementine Hackenbroch, the widow of
Zacharias, emigrated in the summer of 1938 with her
daughter Irene to England. After 52,808 RM for flight
tax was extorted from her, and their accounts blocked

100
at Deutsche Securities, and Exchange Bank, she had
no other property.
169. Lucie Ruth Hackenbroch (Philipp’s mother)
came under surveillance of the Gestapo and was herself stripped of her citizenship in humiliating fashion:
published under the swastika of the German Reichs
Gazette and Prussian Gazette. Almost as an afterthought, it is noted that all those on the list who have
been expelled have also had their property seized. One
can well imagine what would have happened to the
Hackenbroch and other families if the dealers had decided, given Goering’s role, to send all the remaining
items to USA to sell there?
170. Julius Falk Goldschmidt and the other
members of that firm tried to continue the company in
Berlin, Frankfurt and Amsterdam. He emigrated to
London in summer of 1936. His cousin Arthur Goldschmidt was later arrested in Paris, imprisoned in several camps, and emigrated in 1941 to Cuba, and then
in 1946 to the United States.
171. Saemy Rosenberg and Isaak Rosenbaum
had emigrated by 1935 from Germany. In Amsterdam,
the two founded the company Rosenbaum NV, which
was “Aryanized” by a German “manager” after the occupation of the Netherlands by Hitler’s army in 1940.
Saemy Rosenberg’s brother, Siegfried Rosenberg, ran
operations in Frankfurt as best he could until 1937,
when the company was liquidated and closed. After a
further reduction in the Rossmarkt where it had traditionally stood, it moved to a warehouse. On July 11,

101
1938, this firm too—based in Frankfurt since the mid19th century—was deleted from the commercial register.
172. Saemy Rosenberg had to pay 47,815 RM in
Reich Flight Tax. Isaak Rosenbaum was expelled from
Germany and paid 60,000 RM, plus 591.67 RM in interest, to the tax office Frankfurt-Ost.
173. In an indication of what would have befallen Saemy Rosenberg had he and the Consortium
failed to capitulate, the coda to his Gestapo file was
written on May 2, 1941. In this confidential file memo,
Rosenberg, his wife, and his daughter Gabriele—
Leiber’s mother—are officially stripped of their citizenship and their property officially seized outright. See
Exhibit 4. To add insult to injury, Rosenberg is identified on the latter part of the form with “Israel” included
in his name, an appellation that the Nazi government
compelled all Jewish men to add to their names. Id.
174. Isaak Rosenbaum died on October 28, 1936
in Amsterdam.
175. Overall, the firm of I. Rosenberg and/or its
owners taxed in the amount of at least 219,497.57 RM,
for the sole and exclusive reason that they were Jews.
176. In August 1939 Saemy Rosenberg fled with
his wife and child from Amsterdam, the Netherlands,
via Mexico to the United States.

102
The Aftermath
177. In the introduction to the new guide for the
Welfenschatz by Otto Kümmel, housed at the Berlin
Schlossmuseum in 1936, the matter is put bluntly:
“The Welfenschatz was recovered for Germany in the
summer of 1935 by the Prussian state government.”
The guide thanks Popitz, Rust, and Goering for their
particular efforts in “rescuing” the Welfenschatz. The
Consortium goes unmentioned.
178. Propaganda films were commissioned to
celebrate the acquisition.
179. On October 31, 1935, the Baltimore Sun reported that the Welfenschatz was to be given as a “surprise gift” for Hitler (emphasis added):
The bulk of the so-called Guelph Treasure,
which was purchased by the Prussian
Government for $2,500,000, will be presented to Adolf Hitler as a “surprise gift,” it
was disclosed here tonight.
The treasure includes an important collection
of church vessels and sacred relics, richly
studded with precious stones. Long owned by
the Dukes of Brunswick, the treasure was
purchased by a consortium of art dealers and
sold to the Prussian government. Gen. Hermann Wilhelm Goering, Premier of Prussia,
will preside at the ceremony at which the gift
to Hitler will be made.
180. A true and accurate copy of this article is
attached hereto as Exhibit 7. At the exchange rate of

103
the day, the reported purchase price of $2,500,000, apparently being revealed to journalists at that time by
Nazi propaganda, would have been worth approximately 6-7 million RM—far more than what the Consortium actually was paid (before being further extorted
for those proceeds).
181. During the Second World War, the Welfenschatz was housed in the Berlin museums, and later
shipped out of the city to be saved from destruction and
robbery as the war turned against Germany. After the
war, it was seized by U.S. troops, then handed over in
trust to the State of Hesse.
182. The end of the war brought important
changes for Prussian institutions like the Berlin museums. Prussia had been long blamed for Germany’s
militarism in connection with two world wars.
183. After the war, the Allies had seen enough.
By joint act in 1945, the Freistaat Preussen was officially dissolved.
184. The SPK was created for the purpose, inter
alia, of succeeding to all of Prussia’s rights in cultural
property—including Prussia’s wrongfully acquired
possession of the Welfenschatz.
185. It is noteworthy that even the previous
owner of the Welfenschatz up to 1929, the Duke of
Brunswick-Lüneburg, later on, in the 1960s, claimed
that the SPK, because of the tainted sale of 1935, was
not to be legally entitled to the collection, but the art
dealers were.

104
The Sale of the Welfenschatz Under Duress in
1935 was a Taking of Property in Violation of International Law
186. Since World War II, a presumption of international law has been that any sale of property by a
Jew in Nazi Germany after January 30, 1933, or in any
country occupied by Nazi Germany carries a presumption of duress and thus entitled to restitution.
187. This is for the basic reason, as demonstrated by the foregoing, that no Jewish citizen or resident of Germany could possibly have entered into an
arms’-length transaction with the Nazi state itself.
188. In addition, the Consortium faced specific
threats of violence and, on information and belief, surveillance and intimidation by the Gestapo.
189. Altogether, the economic and physical threats
faced by the members of the Consortium made the 1935
sale a transaction under duress, and thus void. Viewed
conversely, the 1935 transaction would be valid only if
Jews in 1935, in Germany, under economic and physical peril, were free to make an arms’-length bargain
with the Nazi state itself. Only to state the premise is
to reveal its absurdity, and the invalidity of the 1935
transaction.
190. According to international principles of law,
German law—German Civil Code (“BGB”) included—
the tainted and voidable acquisition of the Welfenschatz by the Nazi Prussian State in 1935 did not convey good title to Germany and SPK.

105
191. A bona fide acquisition of unlawfully expropriated or otherwise lost cultural goods according to
§ 935 BGB is prohibited within the Common law legal
system—according to the nemo dat quod non habet
principle as well as with the codified German Civil
Law, according to § 935 BGB.
192. If the res in question has been stolen or lost,
then bona fide acquisition according to § 932 BGB et
seq. is not available (§ 935 BGB). The idea behind this
limitation is that the owner has not parted with his
direct possession deliberately, so that a third person
shall not have the benefit of the appearance of entitlement through possession under such circumstances.
193. Any sale by the victims of the Nazi regime
after January 30, 1933 that were under duress are
void, with effect ex tunc within the meaning of § 138
BGB. This is because, inter alia, the transaction would
not have been conducted absent the coercive rule of
National Socialism. Any acquisition of such cultural
objects cannot be considered a bona fide purchase in
accordance with § 935 BGB.
194. Such objects whose sale is to be regarded as
void under § 138 BGB, fall under the category of § 935
para. 1 BGB and apply as “lost” under German law.
195. As a result, any claimant, whose claim meets
the aforementioned requirements, generally speaking,
has a claim for restitution, according to § 985 BGB.

106
The Sham Process by the Limbach Commission,
and Germany’s Refusal to Honor its International Commitments to Victims of Nazi Looting
Constitutes a Second Taking in Violation of International Law
196. In 1998, the United States Department of
State organized and hosted the Washington Conference on Holocaust Era-Assets (the “Washington Conference”).
197. The Washington Conference resulted in
what have become known as the Washington Conference Principles on Nazi-Confiscated Art. Germany was
a key participant, along with Austria, France, the
United States, and dozens of other nations. The Washington Principles state:
In developing a consensus on non-binding
principles to assist in resolving issues relating
to Nazi-confiscated art, the Conference recognizes that among participating nations there
are differing legal systems and that countries
act within the context of their own laws.
1) Art that had been confiscated by the Nazis and not subsequently restituted should be
identified.
2) Relevant records and archives should be
open and accessible to researchers, in accordance with the guidelines of the International
Council on Archives.
3) Resources and personnel should be made
available to facilitate the identification of all

107
art that had been confiscated by the Nazis and
not subsequently restituted.
4) In establishing that a work of art had
been confiscated by the Nazis and not subsequently restituted, consideration should be
given to unavoidable gaps or ambiguities in
the provenance in light of the passage of time
and the circumstances of the Holocaust era.
5) Every effort should be made to publicize
art that is found to have been confiscated by
the Nazis and not subsequently restituted in
order to locate its pre-War owners or their
heirs.
6) Efforts should be made to establish a central registry of such information.
7) Pre-War owners and their heirs should be
encouraged to come forward and make known
their claims to art that was confiscated by the
Nazis and not subsequently restituted.
8) If the pre-War owners of art that is found
to have been confiscated by the Nazis and not
subsequently restituted, or their heirs, can be
identified, steps should be taken expeditiously
to achieve a just and fair solution, recognizing
this may vary according to the facts and circumstances surrounding a specific case.
9) If the pre-War owners of art that is found
to have been confiscated by the Nazis, or their
heirs, can not be identified, steps should be
taken expeditiously to achieve a just and fair
solution.

108
10) Commissions or other bodies established
to identify art that was confiscated by the Nazis and to assist in addressing ownership issues should have a balanced membership.
11) Nations are encouraged to develop national processes to implement these principles, particularly as they relate to alternative
dispute resolution mechanisms for resolving
ownership issues.
198. The restitution encouraged by the Washington Principles is, and has been for more than 15 years,
the foreign policy of the United States. The United
States Supreme Court, as well as the Courts of Appeal
of the United States, have recognized that proceedings
in furtherance of that goal such as this one are entirely
consistent with that policy.
199. In addition, Germany is a signatory to the
Washington Principles. On December 9, 1999, the Federal Republic itself, the 16 Länder, and the association
of local authorities issued a declaration of adherence
to the Washington Principles, entitled the “Erklärung
der Bundesregierung, der Länder und der kommunalen
Spitzenverbände zur Auffindung und zur Rückgabe
NS-verfolgungsbedingt entzogenen Kulturgutes, insbesondere aus jüdischem Besitz” vom 9. Dezember 1999
(the “Collective Declaration”).
200. The Collective Declaration commits to the
restitution of Nazi-looted artworks, notwithstanding
any other wartime claims compensation or restitution
by Germany or the Allies and, consistent with postwar

109
Allied Military Government law, without distinguishing according to whether or not Nazi-looted assets had
been robbed, stolen, confiscated, or had been sold under duress or by pseudo-legal transaction.
201. In 2009, the Czech Republic hosted a followup to the Washington Conference (the “Prague Conference”). Representatives of some 49 countries, most of
which were affected by Nazi crimes during World War
II, and nearly two dozen NGOs were invited to attend.
The Conference focused on immovable (real) property,
Nazi-looted art, Holocaust education and remembrance, archival access, and the recovery of Judaica. In
addition, there was a session on the social welfare
needs of survivors of Nazi persecution, an issue of
great importance to the United States.
202. The Prague Conference resulted in the Terezin Declaration, which states, with respect to Nazistolen art:
Recognizing that art and cultural property of
victims of the Holocaust (Shoah) and other
victims of Nazi persecution was confiscated,
sequestered and spoliated, by the Nazis, the
Fascists and their collaborators through various means including theft, coercion and confiscation, and on grounds of relinquishment as
well as forced sales and sales under duress,
during the Holocaust era between 1933-45
and as an immediate consequence, and
Recalling the Washington Conference Principles on Nazi-Confiscated Art as endorsed at
the Washington Conference of 1998, which

110
enumerated a set of voluntary commitments
for governments that were based upon the
moral principle that art and cultural property
confiscated by the Nazis from Holocaust
(Shoah) victims should be returned to them or
their heirs, in a manner consistent with national laws and regulations as well as international obligations, in order to achieve just
and fair solutions,
1) We reaffirm our support of the Washington Conference Principles on Nazi-Confiscated
Art and we encourage all parties including
public and private institutions and individuals to apply them as well,
2) In particular, recognizing that restitution
cannot be accomplished without knowledge of
potentially looted art and cultural property,
we stress the importance for all stakeholders
to continue and support intensified systematic provenance research, with due regard to
legislation, in both public and private archives, and where relevant to make the results of this research, including ongoing
updates, available via the internet, with due
regard to privacy rules and regulations.
Where it has not already been done, we also
recommend the establishment of mechanisms
to assist claimants and others in their efforts,
3) Keeping in mind the Washington Conference Principles on Nazi-Confiscated Art, and
considering the experience acquired since the
Washington Conference, we urge all stakeholders to ensure that their legal systems or

111
alternative processes, while taking into account the different legal traditions, facilitate
just and fair solutions with regard to Naziconfiscated and looted art, and to make
certain that claims to recover such art are resolved expeditiously and based on the facts
and merits of the claims and all the relevant
documents submitted by all parties. Governments should consider all relevant issues
when applying various legal provisions that
may impede the restitution of art and cultural
property, in order to achieve just and fair solutions, as well as alternative dispute resolution, where appropriate under law.
203. Pursuant to the Washington Principles, the
Terezin Declaration, United States law, German law,
and international law, the 1935 sale of the Welfenschatz was not an arms’-length transaction and must
be considered a transfer of property under duress, a
transfer that could not have passed, and that did not
pass legitimate title to the SPK.
204. Pursuant to the Washington Principles, the
Terezin Declaration, United States law, German law,
and international law, Germany has committed to address victims of art looting in a fair and equitable manner.
205. Germany itself has acknowledged these
principles—but only when it suits. In 2003, Germany
created the “German Advisory Commission for the
Return of Cultural Property Seized as a Result of
Nazi Persecution, Especially Jewish Property,” (Die

112
Beratende Kommission für die Rückgabe NS-verfolgungsbedingt entzogener Kulturgüter, insbesondere
aus jüdischem Besitz) better known as the “Limbach
Commission” for its presiding member, former German
Supreme Constitutional Court judge Jutta Limbach
(“Limbach” or the “Advisory Commission”). The Advisory Commission is a non-binding mediation that issues recommendations to German state museums, but
its decisions have no preclusive effect.
206. In one of its first decisions, Limbach considered a claim for restitution from the collection of Julius
and Clara Freund, German Jews who were persecuted
as such. After Julius died in his British exile in 1941,
Clara sold their collection in desperation in Switzerland. Both the owner and the artwork were outside of
Nazi Germany (United Kingdom and Switzerland), a
far more secure place than Amsterdam in 1935, and
they were paid a near-market price. Yet the larger picture was clear, and the Limbach Commission recommended restitution for a collection that was clearly
sold under duress.
207. Austria also has a commission for the restitution of Nazi-looted art, and is bound by the same
principles. By way of example, Austria restituted 177
botanical drawings and prints to the heirs of Dr. Ernst
Moritz Kronfeld in 2014. Even though the commission
could not determine with certainty how the prints had
passed from Kronfeld to Baldur von Schirach, another
high-level Nazi and Gauleiter of Vienna, the point was
that in such a case it does not really matter:

113
These questions can be left open, because the
sale by either Dr. Kronfeld or his widow would
have been sales by persons in a persecuted
group, and would also be void as an appropriation. . . .
208. Germany has a unique historical responsibility to victims of the Holocaust, which it has gone to
great lengths to accept in other contexts.
209. The attitude towards looted artworks in
German museums remains, regrettably, an exception
to Germany’s otherwise laudable approach to confronting history.
210. Despite the creation of the Advisory Commission, despite the Collective Declaration and other
measures ostensibly pursuant to the Washington Principles, Germany today still has no coherent policy towards victims of Nazi-looted art.
211. The World Jewish Congress and other victims’ representatives, groups and nongovernmental
organizations (“NGOs”), share this view and have repeatedly expressed their concern about it.
212. At best, the Advisory Commission serves as
a non-binding mediation process. German museums
are not obliged to accept its recommendations, and the
Advisory Commission itself is not actually independent. It is not an arbitration, and it does not adjudicate
rights in property.
213. At worst, Germany portrays the Advisory
Commission as a solution to this inadequacy, to give

114
cover to the idea that Germany is in compliance with
the Washington Principles.
214. The international scandal of the Cornelius
Gurlitt (“Gurlitt”) affair beginning in 2013 has given
the lie to this notion. Gurlitt’s father Hildebrand was
an art dealer authorized in the Nazi state to buy and
sell so called “degenerate art,” which was considered
contraband in the hands of anyone else.
215. In 2013 it was revealed that Germany had
seized approximately 1,280 works of art from Cornelius Gurlitt as part of a tax investigation on suspicion that it was looted.
216. Since that time (the revelation itself by a
newspaper was nearly two years after the artwork was
found and held in secret), Germany has failed to adopt
any new policies or laws. The State of Bavaria reached
a private agreement with Cornelius Gurlitt shortly before he died in May, 2014, an agreement whose terms
have still never been revealed.
217. That agreement appointed a Task Force to
examine the Gurlitt collection, but Germany has not
even followed the public recommendations of that Task
Force. Instead, it has continued to resist restitution
even of artworks that the Task Force recommended be
restituted. On information and belief, the Task Force
has made only five recommendations public, and Germany has restituted only two of those five works to
their rightful owners. On information and belief, the
Task Force ceased to exist on December 31, 2015.

115
218. A November, 2014 agreement with the named
heir of Gurlitt, the Kunstmuseum Bern in Switzerland,
has provided the public with some information, but the
process remains opaque notwithstanding the selfcongratulatory publicity that surrounded it.
219. Worse, the chairwoman of the Advisory
Commission herself took the occasion to argue that
German museums are the victims in the whole affair.
This episode is telling on the perspective of German
authorities to looted art: Jewish victims can wait, but
German museums should be made whole.
220. In the absence of meaningful recourse, but
in an interest to reach agreement on the Welfenschatz,
the plaintiffs submitted their claim (on behalf of themselves and as empowered by, inter alia, the assignments attached hereto as Exhibit 8) to the Advisory
Commission and presented conclusive evidence of the
foregoing aspects of early Nazi terror and duress.
221. Despite these internationally accepted principles and precedents (among many others), the Advisory Commission failed to recommend the restitution
of the Welfenschatz.
222. In what was, on information and belief,
politically-motivated decision—ironically a desire to “save
the Welfenschatz” that mirrors the one that animated
its plunder 70 years ago—the Advisory Commission
turned a blind eye to the desperate circumstances of
the Consortium, and to the active manipulation and
interference by the highest levels of the Prussian-Nazi
state.

116
223. Most importantly, the Advisory Commission
accepted the persecution of the Consortium as fact, but
ignored the governing presumption of law—that as
Jews, any sale was under duress. The SPK and its attorneys concede this presumption. The SPK presented
no evidence to the contrary to rebut the internationallyrecognized presumption of duress. By definition, the
Advisory Commission should have recommended restitution without any further deliberation.
224. Instead, the Advisory Commission endeavored to re-write history with no mandate to do so. The
Advisory Commission acknowledged that the art dealers were persecutees, and as such, were subject to a
hostile market environment that pervaded the Reich
at that time. More particularly, the Advisory Commission heard from five experts who established the context surrounding the sale at issue by showing (i) the
actual market value of the collection in 1935; 11.6 Million RM; (ii) the law applicable to the sale; (iii) the historical background which supports the claim that the
sale in issue was coercive and made under duress—
and certainly cannot be characterized as one governed
by free will and free choice in an open market; and
(iv) the art dealers were the sole owners of the collection.
225. Neither the qualifications nor credibility of
these experts were challenged. As such, the SPK did
not carry its burden of showing why these experts
should not be accepted nor rebuts their conclusions.

117
226. The experts in the Welfenschatz case have
devoted their academic careers to studying and understanding this period and have gained an insight that
is unchallenged.
227. Nonetheless, the Advisory Commission did
not incorporate the uncontested findings of these experts into the recommendation, issued on March 20,
2014. This challenges the important role and assistance they contributed to the process, a role that
should be encouraged. Ignoring the experts entirely in
an otherwise detailed opinion undermines the credibility of the report by the Advisory Commission. It also
leaves future claimants to wonder how claims are to be
supported so that the Advisory Commission can reach
reasoned and non-arbitrary results.
228. It also is telling that, having had ample
time to gather its own evidence to rebut this expert
testimony, the SPK before the Advisory Commission
neither challenged these experts nor offered their own
expert testimony. Put another way, the SPK could not
produce anyone who could testify to the fairness of this
transaction. Indeed, to the contrary, the SPK accepted
the qualifications and testimony of the plaintiffs’ experts.
229. Moreover, the defendants are likely the custodians of additional relevant documents, but failed to
produce them in the course of the Advisory Commission’s work. These documents likely include further
correspondence among Nazi functionaries, Gestapo

118
files, and photographic evidence. These have been concealed from the plaintiffs.
230. Under these circumstances, this testimony
must be given some weight which must form part of its
decision if that decision is to be seen as reasoned and
consistent with established principles of law, e.g., § 286
Abs. 1 ZPO (German Civil Code of Procedure).
231. The recommendation against restitution of
the Welfenschatz was also inconsistent with other
prior decisions of the Advisory Commission.
232. As referenced above, in the Freund case the
Advisory Commission held that victims of Nazi persecution, financially strained, who had long since fled
Nazi Germany with their art collection and sold it in
Switzerland, should nevertheless recover their paintings, even though both the paintings and the people
were abroad and a fair price was paid.
233. By contrast, in the Welfenschatz case, the
victims of Nazi persecution were still in Germany at
the time of the coerced sale. They were Jews living under dire conditions under the swastika. They were
forced to experience the destruction of their livelihoods
through sanctions by the Nazi state, which was engineering a retaking of the Welfenschatz. The expert
opinions overwhelmingly support this conclusion.
234. The recommendation by the Advisory Commission lacks any explanation as to why the Panel—
consistent with their previous assumptions and approved standards of review—excludes and denies a fair

119
and just resolution in the Welfenschatz case, in accordance with their own established standards.
235. The SPK and Germany refuse to provide
justice to the plaintiffs, based on what must be seen as
questionable findings by the Advisory Commission, obtained in a questionable, non-binding proceeding, using questionable standards.
236. On information and belief, the answer is in
fact very simple: the German government simply does
not wish to relinquish the Welfenschatz, no matter how
ill-gotten it is.
237. In so doing, Germany has turned its back on
its historic responsibility. This is particularly disappointing given Germany’s decades-long and admirable
confrontation with its wartime past. Sadly, Nazi-looted
art in German state institutions remains a blind spot
and justice is not served.
238. By contrast, at the Länder level in Germany
the compensable persecution of these very members of
the Consortium has been recognized and been grounds
for restitution. In 2015, the Staatsgalerie Stuttgart
agreed to return Bildnis Pfalzgraf Johann III (Portrait
of Elector-Palatine Johann III), ca. 1526, by Hans
Wertinger to the heirs of Saemy Rosenberg and Rosenbaum.
239. Rosenbaum and Saemy Rosenberg sold the
Wertinger in 1936, but the proceeds were paid into a
Nazi-blocked account—just as part of the proceeds for
the Welfenschatz were. In assessing the claim to the

120
Wertinger, Baden-Württemberg (which administer the
Staatsgalerie Stuttgart) state secretary Jürgen Walter
said, “We stand by our historic responsibility to identify and return cultural goods expropriated from those
persecuted by the Nazi regime.” Baden Württemberg
had little trouble acknowledging the Wertinger “sale”
for what it is: a coerced transaction of looted art. That
fact—and that fact alone—mandated restitution, just
as it does with the Welfenschatz.
240. By contrast, the Advisory Commission continues to demonstrate it does not understand the core
issues of Nazi repression in the 1930s, or worse, outright denies them. In March, 2015, the Advisory Commission again recommended against restitution to the
heirs of a Jew persecuted in the 1930s. George Eduard
Behrens, a Hamburg banker, owned Pariser Wochentag
(Paris Weekday) by Adolph von Menzel, and sold the
painting—also in 1935.
241. Yet despite being subject to the codification
of the Nazi racial philosophy, the Advisory Commission
continued to advance its Potemkin Village version of
life in Nazi Germany:
It is, however, undisputed in the historical record that Jewish private banks in the early
years of the Third Reich were not directly affected.
242. This statement is categorically false and a
violation of Germany’s historic responsibility to victims of the Holocaust after 1933.

121
243. For present purposes, this is the deliberative body on whose decision Germany bases its retention of the Welfenschatz.
244. In its most recent decision as of the filing of
this First Amended Complaint, the Advisory Commission has continued this trend.
245. The Advisory Commission was presented
with a claim by the heirs of Berlin Jewish publisher
Ludwig Traube for Still Life with Fruit Basket: Pumpkin, Melons, and Cherries on an Oak Tree by Abraham
Mignon. The painting was auctioned by Traube’s
widow in Berlin in 1935. The heirs pointed to the “Aryanization” of the publishing company in 1933 as evidence that the sale was the result of financial peril
occasioned by persecution.
246. In its November 30, 2015 recommendation,
Advisory Commission conceded the point of persecution, but still did not recommend restitution. Rather, it
invented a fraction of the value and recommended that
the museum in possession pay the heirs that sum.
247. Taken as a whole, this trend confirms that
the Advisory Commission is not, and cannot be held up
as, a “fair and just solution” that Germany agreed to
provide under the Washington Principles and the Collective Declaration beyond a rote recitation of the
phrase when it is doing just the opposite.
248. Lastly, the SPK itself recently conceded this
inadequacy. On information and belief, in a speech to
the newly-opened Deutsches Zentrum Kulturgutverluste

122
(German Center for Cultural Property Losses) operated by the German state, SPK President Dr. Parzinger
proposed material changes to the Advisory Commission. According to a report by the Commission for
Looted Art in Europe, Dr. Parzinger proposed the following:
1. That the Commission should also act if it
is called upon by only one of the two parties to
a dispute. Currently it only acts if both sides
agree.
2. That the administration of the Commission should be carried out by an independent
secretariat and not the DZK. This must probably be seen in the context that the DZK’s
task is to advise e.g. museums when they are
confronted with claims, but at a later state
may have to act for the Commission which
should be neutral. Also the heir of the collector Hans Sachs recently questioned the neutrality of the Commission in a law suit at the
Magdeburg Administrative Court. He said
that the Koordinierungsstelle, a for[e]runner
of the DZK, had originally advised the Deutsches
Historisches Museum, assisting it on how to
handle the restitution claim, while it later, in
2008, acted as the secretariat of the Commission which decided on the claim.
3. That there should be transparency, primarily in connection with the research of museums, as many currently do not publish their
findings if they come to the conclusion that a
work was not lost due to Nazi persecution. This may also relate to the Limbach

123
Commission which is currently denying the
Sachs heir access to the files of the 2008 procedure, and which is the cause for the current
court case in Magdeburg.
4. That the Commission should have procedural rules like any arbitration body.
5. That a representative of a Jewish organisation be on the Commission.
249.

According to the same report, Dr. Parzinger:

[A]lso stressed, like the German Cultural
Minister Monika Grütters the day before, that
there should be no doubt that the persecution
of Jews in Germany started in 1933. This was
apparently a reaction to criticism by Holocaust historians concerning a remark in a
brief to a US Court related to the Guelph
Treasure and to the publication [ ] of an English translation of the Commission’s Recommendation in the case of Behrens v. Düsseldorf in
which the Advisory Commission had held that
Jewish bankers had not been persecuted and
had unimpaired access to the courts till mid
1935.
Parzinger also [emphasized] that German cultural institutions confronted with claims
must show (in cases of allegedly forced sales)
that the price paid to a persecuted person was
fair and that the persecuted person actually
received the money at his/her free disposal,
the implication being, contrary to the Behrens
decision made by the Commission, that the work
of art be considered looted if both conditions

124
are not met. In its recommendation the Commission also deviated from the policies set out
in the ‘Handreichung’, first issued in Germany in 2001.
*

*

*

CAUSES OF ACTION
Count I—Declaratory Relief
250. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-230 as
though fully set forth herein.
251. An actual case or controversy has arisen between and among the Plaintiffs, the SPK, and Germany, as to the ownership of the Welfenschatz.
252. The Defendants have wrongfully detained
the Welfenschatz and have refused to provide restitution to the Plaintiffs.
253. Plaintiffs are entitled to a declaratory judgment decreeing that they are the owners of the Welfenschatz and directing the Defendants to return the
Welfenschatz to the Plaintiffs.
254. Plaintiffs are further entitled to a declaratory judgment decreeing that their right, title, and
ownership in the Welfenschatz is superior to any held
by either the SPK, Germany, or both.

125
Count II—Replevin
255. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-235 as
though fully set forth herein.
256. The defendants have deprived the plaintiffs
of their rightful property, the Welfenschatz.
257. The plaintiffs are entitled to the replevin of
the Welfenschatz in the possession of the SPK.
Count III—Conversion
258. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-238 as
though fully set forth herein.
259. The Welfenschatz is the rightful property of
the plaintiffs, as heirs and/or successors in interest of
the Consortium.
260. The SPK and Germany exercise unlawful
control and dominion over the plaintiffs’ property: the
Welfenschatz.
261. Despite lawful demand for the return of the
Welfenschatz, defendants SPK and Germany have refused to return the plaintiffs’ property.
262. Plaintiffs have been damaged by the defendants’ conversion in an amount to be determined at
trial, but in any event not less than the value of the
Welfenschatz, which by conservative estimates exceeds $250,000,000.

126
Count IV—Unjust Enrichment
263. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-243 as
though fully set forth herein.
264. The SPK has wrongfully possessed the
Welfenschatz for decades.
265. The SPK has used the Welfenschatz in commerce in the United States and/or outside the United
States having an effect within the United States
within the meaning of 28 U.S.C. § 1605(a)(2) and clarified in OBB Personenverkehr v. Sachs as a significant
attraction and source of revenue.
266. The SPK’s use of the Welfenschatz in this
manner has unjustly enriched the SPK and Germany.
267. The SPK should disgorge to the plaintiffs
the amounts by which it has been unjustly enriched, in
an amount to be determined at trial.
Count V—Fraud in the Inducement
268. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-248 as
though fully set forth herein.
269. The negotiations leading to the “sale” of the
Welfenschatz were a sham orchestrated by the Prussian government and high-ranking Nazis through the
Dresdner Bank.

127
270. The representations that led to the execution of the 1935 contract, including but not limited to
the existence of other interested buyers and the true
identity of the party in interest—the Nazi state—were
knowingly false when made.
271. The Consortium reasonably relied on those
false statements to their detriment.
272. As a result of the fraud perpetrated by the
Prussian government and the Dresdner Bank, the
Consortium was damaged.
273. As a remedy for the fraud in the inducement, the plaintiffs, as successors in interest to the
Consortium, are entitled to rescission of the 1935 contract and to the return of the Welfenschatz in its entirety from the defendants, the successors in interest
to Prussia and the German Reich.
Count VI—Breach of Fiduciary Duty
274. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-254 as
though fully set forth herein.
275. As a result of the inequitable and genocidal
conduct of the defendants’ predecessors-in-interest,
the Consortium was deprived of its property.
276. When Nazi Germany was defeated, the defendants succeeded to the interests of Prussia and
Nazi Germany.

128
277. By virtue of the political reorganization of
Germany, Germany’s international committments, the
Washington Principles, the Terezin Declaration, and/or
the Collective Declaration, a trust—express, implied,
or constructive—arose for the benefit of the Consortium and its heirs and/or successors in interest: the
plaintiffs.
278. As trustees of that trust, the defendants
owe the plaintiffs a duty of absolute good faith and
against self-dealing,
279. The defendants have breached that fiduciary duty by refusing to restitute the Welfenschatz to
the plaintiffs and by otherwise enriching themselves
at the plaintiffs’ expense through the use of trust property.
280. The plaintiffs have been damaged by the defendants’ breach of fiduciary duty in an amount to be
determined at trial, but in any event not less than the
value of the Welfenschatz, which by conservative estimates exceeds $250,000,000.
Count VII—Breach of the Covenant
of Good Faith and Fair Dealing
281. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-261 as
though fully set forth herein.
282. The 1935 agreement constituted an enforceable contract.

129
283. Every contract has an implied term of good
faith and fair dealing.
284. Throughout the negotiations leading to the
“sale,” the state of Prussia—of which the SPK is the
direct successor—and the German Reich—of which
Germany is the successor—were engaged in coercive
efforts to eliminate competition and any possibility of
an arms’-length transaction.
285. These actions, combined with the pretense
of a straw man through the Dresdner Bank, violate the
covenant of good faith and fair dealing.
286. As a result of this violation of the good faith
and fair dealing by the defendants’ predecessors-ininterest, the Consortium was damaged. By extension,
the plaintiffs, as the Consortium’s successors in interest, have been damaged in an amount to be determined
at trial, but in any event not less than the value of
the Welfenschatz, which by conservative estimates exceeds $250,000,000.
Count VIII—Civil Conspiracy
287. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-267 as
though fully set forth herein.
288. Prussia and Germany conspired to deprive
the Consortium of the benefits and protections of the
Welfenschatz in and before 1935.

130
289. Since 1935, the SPK and Germany have, at
various times, conspired to deprive the plaintiffs of the
benefits and protections of the Welfenschatz.
290. This conspiracy was conducted for an illegal
purpose—including but not limited to the concealment
of the real facts surrounding the acquisition of the
Welfenschatz and through illegal means—the indisputable horrors of Nazi Germany.
291. The defendants, as the legal successors to
the original conspirators, have continued that conspiracy to this day.
292. By virtue of this conspiracy, the plaintiffs
have been damaged in an amount to be determined at
trial, but in any event not less than the value of the
Welfenschatz, which by conservative estimates exceeds $250,000,000.
Count IX—Bailment
293. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-273 as
though fully set forth herein.
294. For decades after the war, the true facts of
the conspiracy behind the plot to acquire the Welfenschatz for Hitler were unknowable.
295. Since the revelation of long secret documents, the plaintiffs have been engaged in negotiations with the SPK concerning the restitution of the
Welfenschatz.

131
296. As a result of those negotiations, an implied
bailment arose pending resolution of the dispute over
title to the Welfenschatz.
297. After negotiations failed, the plaintiffs demanded the return of the Welfenschatz in 2014 and the
SPK refused.
298. As a result of the defendants’ breach of
this implied bailment, the plaintiffs have been damaged in an amount to be determined at trial, but in
any event not less than the value of the Welfenschatz, which by conservative estimates exceeds
$250,000,000.
Count X—Tortious Interference
299. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-279 as
though fully set forth herein.
300. The Consortium had prospective contracts
for the sale of the Welfenschatz with private buyers in
Berlin and Hannover, among others.
301. The State of Prussia and Germany know of
those prospective contracts.
302. The State of Prussia and Germany interfered with those prospective relationships for wrongful
motives—anti-Semitism—and through wrongful means
—the violent and dangerous treatment of Jews in Nazi
Germany.

132
303. The current defendants are the successors
in interest to the State of Prussia and Nazi Germany
with regard to the foregoing.
304. As a result of the foregoing tortious interference, the plaintiffs have been damaged in an amount
to be determined at trial, but in any event not less than
the value of the Welfenschatz, which by conservative
estimates exceeds $250,000,000.
PRAYERS FOR RELIEF
WHEREFORE, the plaintiffs respectfully request
that the Court:
A) Enter judgment on all counts in favor of
the plaintiffs; and
B) Order the defendants to return the objects known as the Welfenschatz to the plaintiffs forthwith; and/or
C) Order the defendants to pay the plaintiffs
a sum of $250,000,000 or such higher amount
as the Court deems just; and
D) Order the defendants to pay the plaintiffs
their reasonable attorneys’ fees; and

133
E) Enter such other and further relief as is
just and proper under the circumstances.
January 14, 2016

SULLIVAN & WORCESTER LLP
/s/ Nicholas M. O’Donnell
Nicholas M. O’Donnell
(DC Bar No. 1011832)
One Post Office Square
Boston, Massachusetts 02109
Telephone: (617) 338-2800
Facsimile: (617) 338-2880
Email: nodonnell@sandw.com
Attorneys of record for plaintiffs
Alan Philipp, Gerald G. Stiebel,
and Jed R. Leiber

134
EXHIBIT 1

135

136

137

138

139

140

141
[illegible]
Copy
The Upper Administration of the
House of Brunswick-Luneburg
(hereinafter referred to as “seller”),
on one side,
and
the antiquities dealers:
)
) of Frankfurt am
) Main,
)

(1) J. & S. Goldschmidt,
(2) Z. M. Hackenbroch,
(3) J. Rosenbaum

(hereinafter referred to as the “buyers”),
on the other side,
have concluded the following
Agreement:
§ 1.
The buyers will acquire from the seller the socalled Guelph Treasure, consisting of 62 items, as is
described in the work by W. A. Neumann, Reliquienschatz des Hauses Braunschweig-Lüneburg
[Reliquary Treasures of the House of Brunswick-Lüneburg], Wien Verlag Holder 1891, and as is currently
located in the bank in Aarun (Switzerland) with the
condition that by December 31, 1929, a binding declaration from the responsible departments has been
submitted for the items from the Guelph Treasure that
are brought to Germany, providing that they are not
subject to an export ban, as they are located in the

142
possession of the seller or the buyers. – However, the
buyers are entitled to waive this condition by December 31, 1929.
The buyers are aware that the Federal State of
Austria is entitled to a right of first refusal to the treasure, which must be exercised within 14 days of the official communication about the sale being submitted to
the Federal Ministry for Education.
The seller is not liable for any defects.
§ 2.
The purchase price is comprised of the following:
a)

a fixed sum of RM 7.5 million (in words: seven million, five hundred thousand Reichsmark), that is
to be paid in the following manner:
RM 3,000,000 upon the collection being handed
over; RM 2,250,000 six months after handover;
RM 1,125,000 nine months after handover;
RM 1,125,000 twelve months after handover.
Unless it is paid in cash upon handover, the purchase price is subject to 8% interest. The interest
that is incurred must be paid together with the respective installment payment.

b)

a profit-sharing arrangement in the following
manner:
In the case of a profit of RM 1.5 million that the
buyers generate in excess of the acquisition price
of RM 7.5 million when reselling the items, the

143
profit share of the seller will amount to 33 1/3%.
For any profit that exceeds this, the profit share of
the seller will amount to 25%. In no case may the
seller’s profit share plus the 8% interest that is
payable on the purchase price exceed 40% of the
total profit that the buyers generate when reselling the collection.
This profit includes any profit that the buyers generate by reselling the collection, in particular, e.g., also
those profits that come in from reselling the items with
a profit-sharing arrangement. In this case, the profits
are considered to be the purchase price plus anything
that is received by the buyers from this profit-sharing
arrangement.
When determining the profit, interest on the capital that has been invested by the buyers will not be
included.
If the purchasers involve other persons in the
transaction as a whole, the profit for the seller must be
calculated as if these persons were involved as buyers
right from the start.
So that the seller is able to determine its share of
the profits, the buyers will inform the XXXXXX seller
on a quarterly basis about the resale transactions that
they have concluded in order to process the business.
The payment of profit shares will begin as soon as the
buyers are in possession of the purchase price of 7.5
million RM and will made according to receipt.
With consideration of the profit-sharing arrangement that was granted to the seller, it is expressly

144
agreed that the buyers are not entitled to fully or partially retain the purchased items themselves, and that
they are obligated to attempt to resell the items in any
way.
§ 3.
The seller is already attempting to make a sale to
official German Reich or state departments and state
administrations. If this sale leads to a total sale by December 31, 1929, the seller is entitled to withdraw from
this Agreement. In this case, the seller must pay the
buyers a penalty of at least one million RM. If the sales
revenues exceed RM 12.5 million, this penalty will be
increased by 20% of the additional revenue that is generated in excess of RM 12.5 million up to a maximum
amount of RM 1.5 million. This penalty must be paid
after the seller has received half of the purchase price
from the new buyer, but by December 31, 1930 at the
latest.
The seller is also entitled to this right of withdrawal against payment of the above-stated penalty if
other already activities that have already been initiated and that aim to sell the treasure completely are
successful.
§ 4.
If a revolution breaks out in Germany, England,
France or Italy or in the United States before December 31, 1929, or if one of these countries becomes

145
involved in a war, the buyers are entitled to withdraw
from the Agreement.
§ 5.
If neither of the contractual parties exercises the
right to withdraw that is provided for in this Agreement, the handover of the collection must take place
by January 15, 1930. The risk passes to the buyers
upon handover. At the same time as the handover, the
buyers together with the accounting part of the [illegible] will hand over a bank guarantee to the seller in
the amount of RM 4.5 million. The buyers are entitled
to contribute different partial guarantees for this. The
buyers will inform the seller who will provide this bank
guarantee by December 15, 1929. The seller has the
right to reject bank guarantees that do not offer him
enough security.
§ 6.
In order to be able to prepare a sale, the seller will,
as soon as possible after signing this Agreement, provide the buyers with the Guelph Treasure catalogue
material that is listed below:
1.

Inventory of the reliquary treasure of 1482. Certified copy of the manuscript that is held in the state
archive at Wolfenbüttel

2.

Deckers P.: 26 lithograph color images of the reliquary treasure, in 1863. 3 copies.

146
3.

Neumann W.A.: Reliquienschatz des Hauses
Braunschweig-Lüneburg [Reliquary Treasure of
the House of Brunswick-Lüneburg], Vienna: A.
Holder 1891. 50 copies.

In addition and for the same purposes, the seller
will loan the buyers the following works from the Royal
Ernst August Memorial Library in Gmunden providing that a certificate of receipt is issued:
1.

Molarus, Gerhard, Lipsanographie sive Thesaurus
reliquirum electoral is Brunsvico-Luneburgicus.
[illegible] 1783.

2.

Origines Guelphicae, published by Ch. L. Scheid,
volume 2. 3. Hannover 1751. 1753.

3.

Beissel, St.: Der Reliquienschatz des Hauses
Braunschweig-Lüneburg [The Reliquary Treasure
of the House of Brunswick-Lüneburg] (voices from
Karia-Lusch 1891, sheet 5).

4.

Adamy, R.: Der Reliquienschatz des Hauses
Braunschweig-Lüneburg and seine Beziehungen
zum Darmstädter Museum [The Reliquary Treasure of the House of Brunswick-Lüneburg and its
relationships to the Museum of Darmstadt] 1892.

5.

Klopp, O.: Der Reliquienschatz des Hauses Braunschweig-Lüneburg [The Reliquary Treasure of the
House of Brunswick-Luneburg]. Manuscript 21 S.
If one of the two contractual parties withdraws from the Agreement, all of the material will
be returned to the seller.

147
§ 7.
If disputes arise between the contractual parties in relation to this Agreement, they should be resolved by an
arbitration court. Each contractual party will appoint
an arbitration judge to this arbitration court. The arbitration judges will appoint a chairman. If the arbitration judges are not able to reach an agreement about
the identity of the chairman, the President of the Reich
Court in Leipzig should be asked to appoint a chairman. In general, the regulations of the German Code
of Civil Procedure are applicable to this arbitration
court.
[illegible]
The Upper
Administration
signed: J. & S. Goldschmidt,
of the House of
Brunswick-Luneburg signed: Z. M. Hackenbroch,
Dr. [illegible]
signed [illegible]

signed: J. Rosenbaum

[LOGO] TRANSPERFECT
AFFIDAVIT OF ACCURACY
I, Courtney O’Connell, hereby certify that the following is, to the best of my knowledge and belief, a true
and accurate translation of the enclosed document
Agreement between the Upper Administration of the
House of Brunswick-Luneburg and the antiquities

148
dealers: (1) J, & S. Goldschmidt, (2) Z. M. Hackenbroch,
(3) J. Rosenbaum” from German into English.
/s/ Courtney O’Connell
TransPerfect Translations, Inc.
700 6th Street NW
Washington, DC 20001
Sworn to before me this
5th day of December 2014
/s/ Lauren Luberger
Signature, Notary Public
LAUREN LUBERGER
NOTARY PUBLIC
District of Columbia
My Commission Expires Aug. 31, 2018
/s/
Stamp, Notary Public
Washington, D.C.
700 6TH STREET, NW, 5TH FLOOR,
WASHINGTON, DC 20001 | T +1.202.347.6861 |
WWW.TRANSPERFECTLEGAL.COM
OFFICES IN 85 CITIES WORLDWIDE

149
EXHIBIT 2

150

151

152
13107
13170
14565/3.3

[stamp:]
NOV. 14, 1933

THE
LORD MAYOR

32
FRANKFURT A. M.,
November 9. 1933

Subject: Guelph Treasure
===

ANNEX 93

[initial] L. 11.

[illegible]
[illegible] 1/12.

Esteemed Reich Chancellor!
Upon coming to power, National Socialism in
Frankfurt a. M. also found extraordinarily unclear
relationships in the area of art. Since then, the coarsest
grievances have been resolved and in the course of
reconstructing the artistic life of the old imperial city,
I have come to the question of how one of the greatest
artistic and cultural properties of the German people,
the Guelph Treasure, which was last exhibited in
Frankfurt a.M. in 1930 and then transported to
America, can be won back for the German people. As is
generally known, in 1930, the old Brunswick Cathedral treasure (Guelph Treasure), which was in the
possession of the Duke of Brunswick, was brought to
America in order to be put up for sale there. Since the
former Duke of Brunswick was resident in Gmunden
am Traunsee [Austria], there was no opportunity for
the Reich to prevent the export. Rather, we will have
to make do with one of the last exhibitions of the
treasure in Germany against assurances of the export
permit. The exhibition, which made the deepest
impressions on a broad group of people, took place in
Frankfurt a.M. in the Staderschen Kunstinstitut.

153
Unfortunately, at the time, neither the city of
Frankfurt a.M. nor any other German artistic city had
the funds to save the Guelph Treasure for Germany by
purchasing it. The Reich and state likewise failed, although they would have been able to raise the approx.
6 million Reichsmarks that were required. Since then,
some key pieces from the Guelph Treasure have been
sold in America to the museum in Cleveland. However,
according to reliable information, the largest section of
the Guelph Treasure has not yet been sold and is in the
safekeeping of banking companies.
The Gospels of Henry the Lion must be regarded
as a key piece of the Guelph Treasure that is located in
Gmunden. This work of German book illumination is
the greatest of all time and is not included (in the
inventory) in the Guelph Treasure and has also
therefore not been moved to America; however, it
belongs integrally and, indeed, as a key piece.
The securing of the Gospel of Henry the Lion
would be the most important act in a systematic
cultivation of historical artifacts for Germany and
would attract even more attention because the work is
hardly known in wide sections of the population and
has never been shown to the public.
Under your leadership, the new Germany has
broken with the materialism of the past. It considers
the honor of the German people as its most valuable
asset. In order to reclaim this honor on an artistic level,
I believe the recovery and the ultimate acquisition of
any irreplaceable treasures from German’s middle

154
ages, such as they are organically combined in the
Guelph Treasure, would be a decisive step. According
to expert judgment, the purchase is possible at around
1/3 of its earlier value. It therefore relates to an
amount that will be proportionally easy to raise. I
therefore request that you, as Führer of the German
people, create the legal and financial preconditions for
the return of the Guelph Treasure.
Mr.
Reich Chancellor Adolf Hitler
Berlin
[illegible]
[signature]
[illegible]
Held in the Federal archive – This record may not be
shared, it may only be reproduced with written
approval from the Federal archive.

[LOGO] TRANSPERFECT
AFFIDAVIT OF ACCURACY
I, Courtney O’Connell, hereby certify that the
following is, to the best of my knowledge and belief, a
true and accurate translation “the enclosed letter to
Mr. Reich Chancellor Adolf Hitler dated November 9,
1933” from German into English.
/s/ Courtney O’Connell
TransPerfect Translations, Inc.
700 6th Street NW
Washington, DC 20001

155
Sworn to before me this
5th day of December 2014
/s/ Lauren Luberger
Signature, Notary Public
LAUREN LUBERGER
NOTARY PUBLIC
District of Columbia
My Commission Expires Aug. 31, 2018
/s/
Stamp, Notary Public
Washington, D.C.
700 6TH STREET, NW, 5TH FLOOR,
WASHINGTON, DC 20001 | T +1.202.347.6861 |
WWW.TRANSPERFECTLEGAL.COM
OFFICES IN 85 CITIES WORLDWIDE

156
EXHIBIT 3

157

158

159
I HA Rp 151.HN No. 1234 56
Copy
Berlin, July 14, 1934

K 21189/34

As letter from the Minister of State:
To
Dr. Körner (Minister of State)
Berlin, State Ministry
Dear Mr. Körner!
In response to your letter of June 26 of this year in
relation to the acquisition of the Guelph Treasure, I
would like to briefly give you the opinion of my department in relation to your draft of a corresponding letter
to the Reich Chancellor.
To the primary question of whether the Reich or
Prussian State will acquire the Guelph Treasure, I
note that in the opinion of the Prussian Minister of Finance, an acquisition by the Prussian State would be
within the range of possibilities, providing that the
President of the Reichsbank (in parallel the negotiations that were recently held between him and myself
in relation to the question of purchasing the art collections that are situated at Dresdner Bank, about which
I have notified the Prime Minister through official
channels) declares himself to be in agreement that the
payment would not take place in cash, but by issuing
Prussian treasury bonds. Reichsbank President
Schacht held out the prospect of the same kind of financing for the acquisition of the Guelph Treasure by
the Prussian State. This means that Prussia does not

160
need to raise any funds now, but solely takes on a less
onerous indebtedness. In this way, Prussia would be
put in a position where it was able to subsequently
bring the historically, artistically and national-politically valuable Guelph Treasure to the Reich in addition to many other valuable cultural treasures.
However, a decision about the financing will first be
made when an agreement is reached in relation to the
question of the Guelph Treasure between Mr. Popitz
and Mr. Schacht in the course of the concluding negotiations over the acquisition of the private collections.
I would like to take this opportunity to refer you
to the fact that (as far as I am informed) the sum of
RM 7 million that you specified as the current claim
from the dealer consortium no longer corresponds to
the actual situation. The negotiations that have previously been held by different entities have revealed that
the owners of the Guelph Treasure would be prepared
to sell this for a much lower sum of money, i.e., around
4 to 5 million RM.
In relation to the specified negotiations themselves, I agree with you in the fact that it would now
be appropriate to prohibit these, insofar as they are not
necessarily in the interests of the state.
However, I do not consider it to be appropriate to
send a notification to the consortium, which would
state that, from the perspective of the authorities, negotiations will neither be held nor permitted to be held,
since it naturally has not escaped the notice of
naturally

161
the trade in art that higher offices have an interest in
the Guelph Treasure.
Currently, a Mr. Stern from Dresdner Bank is negotiating without mandate, as well as a Mr. Pilster
with mandate who is known to us as a long-term friend
of our museums and has been recommended by the
General Director, and who, besides this, as a wealthy
private collector, appears to be regarded as a serious
candidate by his counterparts in the negotiations. Mr.
Stern is negotiating on the basis of four [million], Mr.
Pilster on the basis of three million. If Stern is removed
from the situation at the right time, this would not, in
my opinion, fail to make an impression on the trading
consortium and would put Pilster in a position to acquire the treasure for a relatively lower price.
I have obviously had Pilster’s negotiations directed to the Prime Minister as submitted.
! Hermann
Göring
I believe it to be inappropriate to let either the city
of Hannover or Mr. Popitz appear as a negotiation partner.
It therefore appears appropriate to me to refrain
from approaching the Reich Chancellor until a meeting
between the Prussian Finance Minister and the
Reichsbank President has taken place in relation to
the question of the acquisition by Prussia.
With a German greeting and Heil Hitler!

162
Yours,
The Minister of Science etc.
J. V.
signed Dr. Stuckart

[LOGO]
TRANS PERFECT
AFFIDAVIT OF ACCURACY
I, Courtney O’Connell, hereby certify that the following
is, to the best of my knowledge and belief, a true and
accurate translation of “the enclosed letter to Dr.
Körner (Minister of State), Berlin, State Ministry
dated July 14, 1934” from German into English.
/s/ Courtney O’Connell
TransPerfect Translations, Inc.
700 6th Street NW
Washington, DC 20001
Sworn to before me this
5th day of December 2014
/s/ Lauren Luberger
Signature, Notary Public
LAUREN LUBERGER
NOTARY PUBLIC
District of Columbia
My Commission Expires Aug. 31, 2018

163
/s/
Stamp, Notary Public
Washington, D.C.
700 6TH STREET, NW, 5TH FLOOR,
WASHINGTON, DC 20001 | T +1.202.347.6861 |
WWW.TRANSPERFECTLEGAL.COM
OFFICES IN 85 CITIES WORLDWIDE

164
EXHIBIT 4

165

166

167

168
Secret State Police
Frankfurt a.M., May 2
State Police Office
[handwritten:] I 1941
Frankfurt a. M.
II B 4 b 2722/41/23. —
[stamp:] Strictly confidential!
To
the Manager
of the Foreign Exchange
Board — S –
[stamp:] May 7, 1941
[initials]
in Frankfurt am Main.
Goethestrasse 9
Subject:

Expatriation of [typed:] Saemy
Rosenberg
. . . . . . . . . . . . . born on 07/27/92
in Berlin . . . . . . . . . . . . . . . . . . . . . .
and his wife . . . . . . . . . . . . . . . . . .
nee . . . . . . . born on . . . . . . . . . . . .
last domestic place of residence:
Frankfurt/M Friedrich – . . .Street/
Square No. 61 . .

Reference:

Without.
-------------

The intention is to recommend the expatriation of
the above-named person and his/her family members
and to seize the assets in favor of the Reich. I request
information about the asset values that are located domestically. At the same time, please inform me of the
authorized official or representative in Germany.

169
[stamp:]
Secret State
Police
State Police Office
Frankfurt (Main)

On behalf of:
signed: Tauber.
Witnessed:
[signature]
Office clerk.

[samp:] The Chief Finance
President: Kassel
[handwritten:] [illegible]
(Foreign Exchange Board S
05/17/1941 3
Frankfurt a.M.)
[handwritten:]
17 2119/41-30

Summary

05/21/41 [initial]

1) write to : copy of page 1
original back to the [ ] Zurich.
There is nothing available in my
offices and processes about the
below-named person.
[initials] 2) Note in A List, column 4 :
05/17/41
[initials] 3) put aside.
[initials]
2

[initials]

170
Duplicate.
December 9, 1941 [handwritten:] 4
Frankfurt a.M.,
Secret State Police
State Police Office
Frankfurt a. M.
XXXXXX- 1 C 7 – 2722/41 II B 3
[stamp:] Dec. 13, 1941
[stamp:] Strictly confidential!
To
the Manager
of the Foreign Exchange Board – S –
in Frankfurt am Main.
Subject: Expatriation of the Jew Saemy Samson Israel
Rosenberg, born 07/27/92 in Berlin, last domestic place of residence: Frankfurt/Main,
Friedrichstr. 61 and extension of the expatriation to his wife Lieselotte Sara, née Marx,
born on 12/12/02 in Frankfurt/Main, and the
child: Gabriele Beate Sara, born on 03/29/27
in Frankfurt/Main.
05/02/41 – II B 4 b Reference: No instructions from
On the basis of § 1 of the Ordinance of 02/28/33 for
the Protection of the Public and the State, I herewith
seize the entire asset values of the persons who are
named in the subject. Please do not allow applications for transfers or the issuing of clearance certificates to make payments without my approval.

171
(Excluded from this are payments for taxes and all
public duties.) If you are aware of other assets, please
[illegible]
Please inform me of the asset values of the abovenamed persons according to today’s status as well as
the authorized representative or official.
If you are aware of the goods to be removed by the
named persons, please send a list of items along with
the name of the shipping firm with whom the goods
to be removed are stored. No approval for removal
transport may be issued.
[stamp:]
Secret State
Police
State Police Office
Frankfurt (Main)

On behalf of:
signed: Dr. Höner
[signature]

[stamp:] The Chief Finance [stamp:] Dec. 19, 1941
President: Kassel
(Foreign Exchange Board S
Frankfurt a.M.)
[handwritten:] 7 2119/41-30.
Summary
1) on the first copy from [illegible] write:
“original sent back
2x

01/02/42

to the [ ]

with reference to my letter 7 2119/41-30 of 05/21/1941,
I provide the information also from this date that we
here are not aware of the asset values of the Jewish

172
married couple Saemy Samson and Lieselotte Rosenberg (née [illegible]), their child Gabriele Beate Rosenberg.”.
2) write on carbon copy:

01/02/42

“original
to the [illegible]
- Tax Investigation Office.
for information purposes.”
[initials] 3) Open new K file for
Lieselotte S. Rosenberg,
[illegible], Friedrichstr. 61,

née

Hase,

[initials] 4) K comment: Expatriation on K file to 3.
[initials] 5) put aside.
[initials]
[initials]

[LOGO]
TRANSPERFECT
AFFIDAVIT OF ACCURACY
I, Courtney O’Connell, hereby certify that the following
is, to the best of my knowledge and belief, a true and
accurate translation of a May 7, 1941 memorandum

173
from the Secret State Police to the Manager of the
Foreign Exchange Board from German into English.
/s/ Courtney O’Connell
Courtney O’Connell
TransPerfect Translations, Inc.
700 6th Street NW
Washington, DC 20001
Sworn to before me this
16th day of February 2015
/s/ Lauren Luberger
Signature Notary Public
LAUREN LUBERGER
NOTARY PUBLIC
District of Columbia
My Commission Expires
Aug. 31, 2018

Stamp, Notary Public
Washington, D.C.
[SEAL]

174
EXHIBIT 5

175

176

177

178

179

180

181

182
Inventory No. 2
-20541-2001
Dresdner Bank Historical Archive
Prussian Stamp Tax
No. 152
Valid for 28,345.50 RM stamp
in words: twenty-eight thousand,
three hundred and forty-five RM, 50 pence
Berlin
(place)
the [illegible] nineteen hundred and thirty-five
(date – day, month, year – in words)
The Tax Office: [Illegible]
(complete official title)
[SEAL]

TAX OFFICE EXCHANGE
FOR STAMP DUTY No. 9
[Signature]

[signature]

(signature)
TAX OFFICE EXCHANGE
FOR STAMP DUTY No. 9
5Ia1 (261)
Expected [illegible] on 06/14/35 [illegible]
[Illegible] 1) Mr, I & S. Goldschmidt, Frankfurt/M
2) Mr. Z. M. Hackenbroch, Frankfurt/M
3) Mr. I. Rosenbaum and Mr. S. Rosenberg,

183
Amsterdam in Dresdner Bank, [illegible]
Berlin, [illegible] 9, 1935
Tax office [illegible]
[signature]
TAX OFFICE EXCHANGE
FOR STAMP DUTY No. 9
[illegible]
Berlin, August 9, 1935
Tax Office Exchange [illegible]
[signature]
The following purchase agreement is made between
1.) the company I. and S. Goldschmidt, Frankfurt/M.,
2.) the company Z. M. Hackenbroch, Frankfurt/
M.,
3.) Mr. I. Rosenbaum and Mr. S. Rosenberg, Amsterdam,
as former owner of the company I. Rosenbaum, Frankfurt/M., hereinafter referred to as the
“Consortium”,
on one hand,
and
Dresdner Bank, Berlin, hereinafter referred to as
the “Bank”,
on the other
hand
In 1929, Z. M. Hackenbroch and I. Rosenbaum purchased cultural treasures from the House of BrunswickLüneberg, including the so-called Guelf Treasure; they
involved German and foreign business colleagues to

184
participate in the transaction. The company I. Rosenbaum o.H.G. has since been liquidated; it’s assets now
belong to the two business associates I. Rosenbaum
and S. Rosenbaum.
Having stated this in advance, the Consortium is
selling to the Bank the cultural items from the Guelph
Treasure that are listed in the catalogue that has been
compiled by Dr. v. Falke and Dr. Robert Schmidt for the
total price of RM 4,250,000.00 (Four million, two hundred and fifty thousand Reichsmark).
The items that are being sold must be delivered to
the Bank as the Guelph Treasure is described in the
catalogue that was compiled by Dr. v. Falke and Dr.
Robert Schmidt and in the condition that it is described in the catalogue.
The acceptance of the items will take place in Amsterdam by an expert who is commissioned by the
Bank. Dr. Schmidt, Berlin is being considered for this
role.
The Consortium is responsible for all costs that
arise from the deliver of the items, including the
transport and insurance costs, for transporting the
items from Amsterdam to Berlin. The Consortium is
obligated to [illegible] the sold items until their delivery in a Berlin state museum for the usual [illegible].
The handover of the cultural items must take
place within six weeks of this agreement coming into
effect.

185
The purchase price must be provided by the Bank
immediately after acceptance of the purchased items,
however, no earlier than four weeks after this agreement becomes effective.
The provision of the purchase price must take
place as follows:
RM 100,000.00 must be paid as broker fee to a resident
in Germany. The remaining purchase price of RM
4,150,000.00 must be issued in the amount of RM
3,371,875.00 to the company Z. M. Hackenbroch,
Frankfurt/M., in Frankfurt/M.; and the amount of RM
778,125.00 must be provided in the form of a credit to
a Sperrmark[1] account that has been opened at the
Bank. These arrangements will enable the Bank’s purchase price debt to be paid off to the Consortium.
Since the amount that is credited to the Sperrmark account at the bank is for the settlement of the
claims of foreign participants in the Guelph Treasure
Consortium, but a transfer of the amount is currently
not possible in consideration of the situation with German exchange rates, the following is agreed:
The Bank is obligated to issue a written approval
of the exchange rate position of the [illegible] for Mr. S.
Rosenberg, which will permit Mr. S. Rosenberg to make
purchases of cultural items privately or in auctions
within Germany up to the above-stated Sperrmark
1

[Special category of currency during National Socialist period for conversion of emigrants’ asset values under special conditions (often punitive exchange rates). Sperrmark, lit. “blocked
mark”.]

186
credit of RM 778,125.00 that is held by the Bank and
to also export the purchased items.
Mr. S. Rosenberg is obligated to attempt to make
purchases against the above-stated Sperrmark credit
within two weeks of this agreement coming into effect
in Germany on the private art market, insofar as this
is compatible with the interests of the foreign participants. In doing so, these purchases may not relate to
items that are specified in the list of the nation’s valuable cultural items.
If the Sperrmark credit is not used up through
making these purchases, and to enable the foreign participants to settle their claims in cultural assets, the
Bank is obligated to immediately issue a declaration of
consent to the Prussian State whereby the state will
be prepared to sell its own items from the cultural collections in the Berlin museums to Mr. S. Rosenberg as
trustee of the foreign participants in accordance with
the following conditions:
a) Together with Mr. S. Rosenberg, the representatives of the Prussian State will create a list of cultural
items that will be provided for sale by the Berlin state
museums and which items should be [illegible].
b) The pricing of the individual [illegible] items
should be determined through negotiation between the
representatives of the Prussian State and Mr. S. Rosenberg. If no agreement can be reached in relation to
determining the pricing, an expert who has is acceptable for both parties should set a binding price. This expert will be Dr. v. Falke. The expert should base the

187
price that he sets on the price that would currently be
paid for comparable cultural items on the international art market.
c) The total purchase price that is determined in
this way and to be paid for the transfer of state cultural
items may not exceed the amount that remains from
the original Sperrmark credit of RM 778,125.00 after
deducting any funds that were used for purchases on
the private market.
d) The list must be created within fourteen days
of this agreement coming into effect.
Dresdner Bank has the power of disposition over
the identified cultural items. It agrees that cultural
items from these portfolios will be transferred to Mr. S.
Rosenberg under the same conditions that are provided for the transfer of cultural items from Berlin
state museums in this agreement, and, indeed, with
the stipulation that the [illegible] of the cultural items
that are to be transferred will be [illegible] by the General Director of the state museums Dr. Kiimmel, and
Dr. Schmidt jointly with Mr. S. Rosenberg.
If [illegible] the representatives of the Prussian
State [illegible] and Dr. Schmidt are unable to reach an
agreement about the cultural items that are to be
transferred by the Prussian State/Dresdner Bank
within a period of four weeks from the agreement coming into effect, the Consortium has the right to declare
its withdrawal from this agreement. This must be declared in the form of a registered letter to the Bank and
issued within a subsequent notice period of fours days.

188
The start date of the notice periods will be June
17, 1935.
The effectiveness of this agreement is dependent
upon this agreement being approved in writing by the
foreign exchange department.
Berlin, June 14, 1935
[signature]

DRESDNER BANK
[signature]

[signature]
[signature]
[illegible text]
[illegible text]
Berlin, June 14, 1935
[signature]

DRESDNER BANK
[signature]

[signature]
[signature]

[LOGO]
TRANSPERFECT
AFFIDAVIT OF ACCURACY
I, Courtney O’Connell, hereby certify that the following
is, to the best of my knowledge and belief, a true and

189
accurate translation of “the enclosed document entitled ‘purchase agreement’ dated June 14, 1935” from
German into English.
/s/ Courtney O’Connell
TransPerfect Translations, Inc.
700 6th Street NW
Washington, DC 20001
Sworn to before me this
5th day of December 2014
/s/ Lauren Luberger
Signature, Notary Public
LAUREN LUBERGER
NOTARY PUBLIC
District of Columbia
My Commission Expires Aug. 31, 2018
/s/
Stamp, Notary Public
Washington, D.C.
700 6TH STREET, NW, 5TH FLOOR,
WASHINGTON, DC 20001 | T +1.202.347.6861 |
WWW.TRANSPERFECTLEGAL.COM
OFFICES IN 85 CITIES WORLDWIDE

190
EXHIBIT 6

191
[illegible] for [illegible] reasons, the legal effectiveness
is not excluded.
[signature:] Saemy Rosenberg
Inventory No.
-20541-2001
Dresdner Bank Historical Archive
[illegible]
Hotel Furstenhof
Berlin W.
at Potsdamer Platz
15
6
To

June 14,1935
Dresdner Bank,
Berlin

herewith, as representative of the Guelph Treasure Consortium, I declare my agreement with the purchase [illegible] in accordance with the Agreement that has been
made today.
I received verbal assent to the [illegible] right of disposition of the Consortium. I will ensure that the agreement is signed in accordance with form.
However, the agreement is already legally effective on
the basis of this assent, as soon as you have also signed
this.

192
[LOGO]
TRANSPERFECT
AFFIDAVIT OF ACCURACY
I, Courtney O’Connell, hereby certify that the following
is, to the best of my knowledge and belief, a true and
accurate translation of “the enclosed letter from Seamy
Rosenberg” dated June 14, 1935” from German into
English.
/s/ Courtney O’Connell
TransPerfect Translations, Inc.
700 6th Street NW
Washington, DC 20001
Sworn to before me this
5th day of December 2014
/s/ Lauren Luberger
Signature, Notary Public
LAUREN LUBERGER
NOTARY PUBLIC
District of Columbia
My Commission Expires Aug. 31, 2018
/s/
Stamp, Notary Public
Washington, D.C.
700 6TH STREET, NW, 5TH FLOOR,
WASHINGTON, DC 20001 | T +1.202.347.6861 |
WWW.TRANSPERFECTLEGAL.COM
OFFICES IN 85 CITIES WORLDWIDE

193
EXHIBIT 7

194
EXHIBIT 8
Abtretung von Rechten
Ich, Herman C. Goldsmith, wohnhaft in New York, NY
10075, 40 East 78th Street, USA, Sohn und Miterbe
von Julius Falk Goldschmidt (b. 1882-11-27, d, 196411-18), übertrage hierdurch im Wege der unwiderrufflichen Abtretung- meine Rechte, gleich welcher Art
und aus welchem Rechtsgrund, in Bezug auf,,Restitutions- und andere Ansprüche wegen des Verkaufs des
sogenannten “Welfenschatz” zu gleichen Teilen auf die
Erben der früheren Frankfurter Kunst-händler Isaac
Rosenbaum, Saemy Rosenberg und Zacharias Max
Hackenbroch,
Die Abtretungsempfänger nehmen die Abtretung an.
__________________________________________________
(the subsequent text is a translation of the foregoing)
Cession of Rights
I, Herman C. Goldsmith, residing in New York, NY
10075, 40 East 78th Street, USA, the son and co-heir
of Julius Falk Goldschmidt (b. 1882-11-27, d. 196411183, hereby Irevocably convey my rights, regardless
of which legal nature and of which reason these may
be, with regard to ‘claims for restitution and other matters concerning the sale of the so-called “Weifenschatz”
in the successorship of Julius Falk Goldschmidt to
the heirs of the former Frankfurt art dealers Isaac
Rosenbaum, Saemy Rosenberg und Zacharias Max
Hackenbroch.

195
The cession of rights is accepted by the assignees.
/s/ New York,
February 12, 2008
Place, Date

/s/ Herman Goldschmidt
Signature

Abtretung von Rechten
Ich, James Goldschmidt, wohnhaft in New York, NY10021, 188 East 76th Street, USA, Enkelsohn and
Miterbe von Julius Falk Goldschmidt (b, 1882-11-27,
d, 1964-11-18), übertrage hierdurch im Wege der unwiderruflichen Abtretung meine Rechte, gleich
welcher Art and aus welchem Rechtsgrund, in Bezug
auf ,,Restitutions- und andere Ansprüche wegen des
Verkaufs des sogenannten “Welfenschatz” zu gleichen
Teilen auf die Erben der früheren Frankfurter
Kunst-händler Isaac Rosenbaum, Saemy Rosenberg
und Zacharias Max Hackenbroch.
Die Abtretungsempfänger nehmen die Abtretung an.
__________________________________________________
(the subsequent text is a translation of the foregoing)
Cession of Rights
I, James Goldschmidt, residing in New York, NY
10021, 188 East 76th Street, USA, the grandson and
co-heir of Julius Falk Goldschmidt (b. 1882-11-27, d.
1964-11-18), hereby irevocably convey my rights, regardless of which legal nature and of which reason
these may be, with regard to ‘claims for restitution
and other matters concerning the sale of the so-called

196
“Welfenschatz” in the successorship of Julius Falk
Goldschmidt to the heirs of the former Frankfurt art
dealers Isaac Rosenbaum, Saemy Rosenberg und Zacharias Max Hackenbroch.
The cession of rights is accepted by the assignees.
/s/ New York, March 1, 2008
Place, Date

/s/ J Goldschmidt
Signature

197
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)
)
)
Plaintiffs,
)
) Civ. Action No.:
v.
) 1:15-cv-00266-CKK
FEDERAL REPUBLIC OF
)
GERMANY, a foreign state, and
)
STIFTUNG PREUSSISCHER
) March 03, 2016
KULTURBESITZ,
)
Defendants
)
Alan PHILIPP, Gerald G.
STIEBEL and Jed R. LEIBER

DECLARATION OF MR. MARTIN SEYFARTH
IN SUPPORT OF DEFENDANTS’ MOTION
TO DISMISS THE COMPLAINT
Martin Seyfarth declares under penalty of perjury:
1. I am a German citizen and German-qualified
attorney (Rechtsanwalt), and have been practicing as
an attorney in Germany since February 2, 1999. I am
admitted to the Bar of Berlin, the capital city of Germany, and am presently the Partner-in-Charge of the
Berlin office of the international law firm Wilmer Cutler Pickering Hale and Dorr LLP (WilmerHale).
2. I serve as German counsel for defendant
Stiftung PreuBischer Kulturbesitz (the “SPK”, Prussian Cultural Heritage Foundation) and represented it
in the proceeding before the German Advisory Commission on the Return of Cultural Property Seized as

198
a Result of Nazi Persecution, Especially Jewish Property (the “Advisory Commission”) regarding the plaintiffs’ request for restitution of the “Guelph Treasure”
(Welfenschatz). As a result of my representation of the
SPK, I am familiar with the factual and legal arguments made by the plaintiffs in the proceeding before
the Advisory Commission.
3. As counsel to the SPK, I reviewed the documentary evidence regarding the State of Prussia’s acquisition of the Welfenschatz in 1935. Based on this
documentary evidence and related historical circumstances, the SPK reached the considered judgment
that the Welfenschatz was purchased in an arms’length transaction for a fair market price, without coercion or duress.
4. After reviewing and evaluating the evidence,
the parties’ written submissions, and the oral arguments presented at the hearing, the Advisory Commission reached the same conclusion as the SPK and,
accordingly, recommended against the return of the
Welfenschatz to the requesters. It concluded that there
was no evidence of duress or coercion due to Nazi persecution and that the price paid for the Welfenschatz
was negotiated in an arms’-length transaction and reasonable in the context of the international market for
art during the Great Depression. A true and accurate
copy of the Advisory Commission’s opinion and recommendation in German, and an unofficial English translation are attached as Exhibit A.

199
5. I have reviewed the plaintiffs’ amended complaint filed in this U.S. litigation. The allegations in the
amended complaint are very similar to the factual and
legal arguments these same plaintiffs together with
others made before the Advisory Commission. Based
upon the amended complaint, it appears likely that the
plaintiffs will rely on essentially the same evidence
that they relied on before the Advisory Commission. I
am personally familiar with this evidence, which we
carefully reviewed and analyzed in reaching our conclusion that the transaction was fair and valid, and not
the product of duress or coercion. I submit this declaration to provide the Court with information about the
nature of the evidence in this case, in order to provide
information relevant to the Court’s consideration of
the defendants’ motion to dismiss, and in particular
the forum non conveniens issue.
6. The plaintiffs’ claims are centered on events
occurring between 1929 and 1935, see Am. Compl. Paragraphs 32–153 (alleging various events in this period), so the parties have not been able to find any
living person with personal knowledge of the facts relevant to the sale of the Welfenschatz in 1935. Indeed,
no fact witnesses offered testimony at the hearing of
the Advisory Commission. I do not know of any living
fact witness who could testify as to the 1935 sale, with
the exception of document custodians located in Germany.
7. As a result of the lack of any witnesses with
personal knowledge of the facts, the factual evidence
in this case is limited to documentary evidence. This

200
documentary evidence consists primarily of letters,
contracts, and records regarding (1) the purchase of
the Welfenschatz in 1929 by a consortium of art dealer
firms located in Germany (the “Consortium”); (2) the
Consortium’s efforts to sell the Welfenschatz between
1929 and 1935; and (3) the Consortium’s negotiations
with Dresdner Bank in 1934–35, culminating in the
sale of the Welfenschatz in July 1935. See Am. Compl.
Paragraphs 32–153.
8. The relevant documents on these topics come
from several sources. Based on my experience investigating this case and representing the SPK in the proceeding before the Advisory Commission, I will briefly
describe a few important sources of documents that the
parties in this case have relied upon.
9. One important source of documents is the archive of the Dresdner Bank. This archive contains the
Bank’s records from 1934–35, including extensive correspondence regarding its role in the negotiations to
acquire the Welfenschatz from the Consortium on behalf of the Prussian State. See Am. Compl. Paragraphs
2, 86, 88-91,132-60 (alleging that the Dresdner Bank
operated as intermediary in the purchase of the
Welfenschatz by the Prussian State). In the course of
investigating the plaintiffs’ request before the Advisory Commission, lawyers and provenance researchers
representing the SPK reviewed voluminous documents
from the Dresdner Bank archive, and relied on many
of those documents in preparing and presenting the
case. Documents from this archive are relevant not
only to the defendants’ case but also to the plaintiffs’

201
case: Exhibit 5 of the amended complaint is a letter
from this archive, and the plaintiffs appear to refer to
the opening of the Dresdner Bank’s archive in Paragraph 295 of the amended complaint.
10. Today, the Dresdner Bank archive is part of
the historical archive of Commerzbank AG since Commerzbank took over Dresdner Bank in January 2009.
The archive can be visited by appointment at the offices of Commerzbank AG in Frankfurt, Germany. The
archival collection from the period of 1934–35 has not
been digitized. Visitors are permitted to make copies of
documents for a fee. Understandably, the overwhelming majority of documents in the archive are in German. This is true of all the documents in the archives
relevant to this case: To my knowledge, all of the relevant correspondence and records are in German and
would need to be translated and certified for litigation
in the United States.
11. Out of the 198 annexes to SPK’s submission
to the Advisory Committee in Gemany only approximately 30 of the annexes were in English. Most of the
documents relevant to the case are in German and
come from the Historisches Archiv Dresdner Bank in
Frankfurt, Kunstsammlungen Bottcherstrasse in Bremen, Staatsbibliothek zu Berlin, Zentralarchiv der
Staatlichen Museen zu Berlin, Bundesarchiv Koblenz,
Geheimes Staatsarchiv PreuBischer Kulturbesitz Berlin, Herzog Anton Ullirch-Museum in Braunschweig,
Hessisches Hauptstaatsarchiv. Niedersachsisches
Landesarchiv – Haupstaatsarchiv Hannover. All these
documents are in German, unavailable in digital

202
format, and would need to be translated and certified
for use in the US litigation.
12. The preceding paragraphs are not exhaustive, but provide examples of the types and sources of
documents that both parties would use in litigating
this case. Were this Court to deny the defendants’ motion to dismiss and proceed to the merits of the case,
the defendants would likely seek to offer many of these
German-language documents from German archives
into evidence. Because all or nearly all of these documents are in German, hundreds of pages (often poor
copies that are hand written in old-fashioned German)
would need to be translated into English for use in this
case. From my experience, both in general as a lawyer
practicing in Germany and in this specific case, legal
translations from German to English are billed by the
line, and can be quite expensive. For the defendants to
translate into English the documents they would need
to use to present their case at trial, and for those translations to be proof read by experts who are familiar
with the case, would itself cost many thousands of dollars.
13. The defendants cannot rely on the accuracy
of any translations offered by the plaintiffs. Indeed,
based on my personal review of the plaintiffs’ English
translations to date, it appears there are several significant inaccuracies, some quite substantive. For example Paragraph 90 of the amended complaint reads:
“Stern reported that he expected a firm offer from the
Consortium, and that the price of 3.5 million RM being
pursued would be a ‘very low’ price constituting 15% of

203
the Welfenschatz’s value.” This is a translation of Annex 106 of a SPK letter dating November 30, 2010 to
the claimants before the advisory commission was approached by the parties. What the original source says
is: “Das Konsortium habe geglaubt, 6-7 Mill. erhalten
zu konnen, warend ich einen Preis von 3 1/2 Mil. Mark
genannt hatte. Herr Koetschau sagte, dass er nicht
genau wisse, was aus dem Welfenschatz bereits
verkauft sei; dass aber, wenn die Vermutung sich
bestatige, dass nur ca. 15% vom Gesamtwerte weg
seien, der von mir genannte Preis als sehr giinstig
angesehen werden konne.” In my view this should be
translated: “I explained that the consortium had believed it could obtain six to seven million, while I had
named a price of 3 1/2 million marks. Mr. Koetschau
said that he was not exactly sure which pieces of the
Guelph Treasure had already been sold off, but that
the price I had mentioned could be seen as a bargain,
provided it could be confirmed that only about 15% of
the Treasure’s total value had been disposed of.” Given
these sorts of discrepancies, the defendants would
need to obtain their own translations of any documents
the plaintiffs seek to introduce into evidence. This will
place an additional significant financial burden on the
defendants.
14. Finally, I expect that the plaintiffs’ and the
defendants’ translators may not come to the same conclusion regarding the appropriate English translation
of many German-language documents. The parties
therefore may need to hire experts to opine on the correct translation. Given my experience in other cases,

204
I would expect such experts to charge significant
hourly rates for their work. I cannot calculate the total
cost of hiring such experts without knowing how often
or how complicated such translation disputes may be,
but in the light of the example above I expect that such
disputes will be frequent. Translation experts are thus
likely to substantially increase the costs of introducing
translations of German-language documents in U.S.
proceedings.
I declare under penalty of perjury under the laws
of the United States of America that the foregoing is
true and correct.
Executed: March 3, 2016
Berlin, Germany
/s/ [Illegible]
Martin Seyfarth
(Rechtsanwalt)

205
Freie Universität [LOGO] Berlin
Fachbereich Rechtswissenschaft
Lehrstuhl für Bürgerliches
Recht, Handels- und
Gesellschaftsrecht,
Internationales Privatrecht
Univ.-Prof. Dr.
Christian Armbrüster
Richter am Kammergericht a.D.
Van’t-Hoff-Str. 8
14195 Berlin, Germany
Phone +49 30 838-52167
Fax +49 30 838-452181
E-Mail c.armbruester©fu-berlin.de
Internet www.fu-berlin.de/jura
4 March 2016
Expert Opinion of
Prof. Dr. Christian ARMBRÜSTER
I.

Qualifications and assignment

1. I am a tenured professor of private law, company
law, insurance law and private international law at the
Free University of Berlin (Freie Universität Berlin),
one of the leading research universities in Germany. In
addition to my academic tenure, in 2007 I was appointed a judge at Kammergericht, which is the Court
of Appeals in Berlin. As a judge of the Second Chamber
of the Court of Appeals, I dealt mainly with cases involving company law. I held this position until I was
elected Vice Dean of my Faculty in 2013. Since April
2015, I have been Dean of that Faculty. I have served
as a legal expert for the German Government and for

206
the German Federal Parliament (Deutscher Bundestag) in connection with various legislative projects.
2. I have been retained by counsel for the Defendants
in connection with a case pending in the U.S. District
Court for the District of Columbia, Philipp v. Fed. Rep.
of Germany, No. 15-cv-00266. I understand that the
Plaintiffs have claimed the restitution of a collection of
medieval relics known as the “Welfenschatz”.
3. I have been asked to answer the following questions with regard to this claim:
(a) Given the allegations of the First Amended Complaint, what sort of legal entity was the Consortium?
(b)

Would it be regarded as a German entity?

(c) Would it be regarded under German law as the
owner of the Welfenschatz from 1929 to 1935?
(d) Do the Plaintiffs’ current claims (to get back the
Welfenschatz and / or to receive monetary damages)
belong to the Consortium?
(e) If so, what steps must the Plaintiffs take under
German law to establish their right to bring those
claims?
4. I understand that in my answers, with regard to
the facts of the case, I may only use the statements
which are laid down in the First Amended Complaint
and its attachments. That is, I understand that even if
certain allegations are false, I must for the purpose of
U.S. litigation at this stage of the case presume that
the allegations are true. Of course, if the allegations

207
were inaccurate, my answers to these questions might
be different. My compensation does not depend in any
way on the outcome of this or any other matter.
II.

Characterization of the Consortium

5. The first question concerns the legal characterization of the Consortium. As will be established further
below (N. 20-24), German law applies to the entity.
Therefore the following analysis is based on German
law. The tern “Consortium” (Konsortium) is used in the
1935 purchase agreement (Exhibit 5). The text of this
agreement features three entities as sellers. Two of
those entities are companies, whereas the third entity
consists of two individuals, who were acting as former
owners of a third company. In the 1935 agreement all
three entities are jointly referred to as the “Consortium” (Konsortium). Later in the same contract, the
term “Consortium” is continuously used to describe the
seller. The first question therefore refers to the entity
that sold the Welfenschatz in 1935. An accurate characterization of the Consortium’s legal status requires
an analysis of the evolution of the Consortium, which
starts with negotiating the acquisition of the Welfenschatz in 1929.
6. There is no information offered in the First
Amended Complaint about when exactly the project of
purchasing and reselling the Welfenschatz was initiated, nor is there any written agreement presented
with regard to the establishment of the entity consisting of the buyers. The agreement of 1929 (Exhibit 1)
was concluded, on the side of the buyers, by three

208
individuals, who were expressly identified as “antiquities dealers”. According to German law, if a group of
subjects act jointly as party to a contract this group
could be characterized in various ways. It is commonly
acknowledged that where the it group originally was
set up by mutual agreement there will usually be a
company. This is not only the current view from today’s
perspective but it was already unanimously expressed
in contemporary sources. For instance the highly renowned large commentary on the German Civil Code,
states in its 9th commentary edited by Staudinger,
which then was – and remains to this day – a highly
renowned large commentary on the German Civil
Code, states that in its 9th edition, which was published in 1929, that what distinguishes a company
from a “community” (Gemeinschaft) based on statutory
provisions, such as a co-ownership with fractional
amounts (Gemeinschaft nach Bruchteilen; Sect 741 ff.
BGB) or a “community of heirs” (Erbengemeinschaft;
Sect. 2032 ff. BGB) is that a company is founded on a
contractual rather than on a statutory basis.1 The reason for this is that when the parties have entered into
a contractual relationship, this agreement will usually
contain a common purpose that goes beyond the mere
co-ownership of an object that is or shall be in their
possession. Once such a common purpose can be established, which is in fact the case here (see N. 8), the entity is to be characterized as a company, as will be
demonstrated first of all (N. 7).

1

Staudinger/Geiler, BGB, 9th ed. 1929, Vor § 707 N. II 4.

209
7. In German law a company is defined, in a very
broad sense, as a group of persons that pursue a common purpose. In fact this definition, which is laid down
in Sect. 705 of the German Civil Code (Buergerliches
Gesetzbuch – BGB), quite accurately describes the essence not only of a partnership but of a company in a
broader sense:
Section 705 – Contents of partnership agreement
By a partnership agreement, the partners
mutually put themselves under a duty to promote the achievement of a common purpose in
the manner stipulated by the contract, in particular, without limitation, to make the agreed
contributions.2
This statutory provision, as well as the other provisions of the BGB that are of interest here, first entered
into force on 1 January 1900, and it remains applicable
today.
8. The three individuals who negotiated the 1929
agreement did so jointly for the common purpose of reselling the Welfenschatz. This common intention can
clearly be derived from the relevant circumstances.
First of all, all of the three individuals were expressly
acting in their capacity as antiquities dealers on behalf
of their respective businesses (see below N. 15). This
2

Official translation authorized by the German Ministry
of Justice and for Consumer Protection, 1 http://www.gesetze-iminternet.de/englisch_bgb/englisch_bgb.html#p3162 (last checked
4 March 1, 2016).

210
indicates that they had no intention to keep the
Welfenschatz permanently in their possession, such as
collectors might intend to do. Furthermore, the common aim of reselling the Welfenschatz is clearly stated
in the agreement of 1929 itself, where at the end of § 2
the text states as follows:
With consideration of the profit-sharing arrangement that was granted to the seller, it is
expressly agreed that the buyers are not entitled to fully or partially retain the purchased
items themselves, and that they are obligated
to attempt to resell the items in any way.3
This clearly demonstrates that the three buyers who
concluded the 1929 contract acted jointly with the common purpose of a resale. It can therefore be ruled out
that the buyers were a mere co-ownership with fractional amounts, as this would be incompatible with the
fact that all, three partners agreed on pursuing a common purpose. It is the very aim of the statutory provisions which govern a company (see above N. 7) to offer
a group of two or more persons who join forces to
achieve a certain purpose a set of rules that not only
cover issues like management and representation but
questions with regard to the pursuit of the common
purpose as well, e.g., the dissolution of the company in
case the purpose has been achieved or cannot be
achieved anymore (see below N. 31). In contrast the
provisions on co-ownership with fractional amounts
(Sect. 741 ff. BGB) just provide for administration and
3

English translation taken from Exhibit 1 of the First
Amended Complaint.

211
division, which reflects the fact that beyond jointly
holding the object for a certain period of time, there is
no common purpose, such as the resale of the object, to
be pursued. Therefore the entity which purchased the
Welfenschatz in 1929 has to be characterized as a company.
9. It remains to be examined which kind of company
the entity was. Basically German law, as most legal
systems, recognizes a distinction between corporations
and unincorporated firms. A corporation comes into
existence when it is registered with the Municipal
Court (Amtsgericht). Nothing in the First Amended
Complaint indicates that the Consortium was registered, nor does any information contained in the First
Amended Complaint point to an intention to become a
corporation.
10. With regard to unincorporated firms, there is a
further distinction between commercial companies
and partnerships. The line between both types of entities is fluent. Generally speaking, if the entity is aimed
at performing larger and permanent commercial activities, then it is to be characterized as a General Partnership (Offene Handelsgesellschaft – OHG), which is
regulated in Sect. 105 ff. of the German Commercial
Code (Handelsgesetzbuch – HGB). While the law requires an OHG to become registered with the Municipal Court, this is not a requirement for its existence.
An OHG is legally obliged to mention its legal form in
its letterhead. In contrast, a partnership organized under the German Civil Code (Gesellschaft buergerlichen

212
Rechts – GbR) is not subject to any such legal requirements.
11. It therefore needs to be clarified, with regard to
the legal characterization of the buyers, whether the
entity is to be characterized as a General Partnership
in the sense of the Commercial Code (OHG), or rather
as a partnership in the sense of the Civil Code (GbR),
or as yet another kind of entity. The agreement by
which the entity was formed, which does not require a
specific form, is not represented in the First Amended
Complaint, neither is there any information rendered
about its contents. Furthermore there is no hint whatsoever in the First Amended Complaint that the entity
was registered with the Municipal Court, nor did it operate under the name of an OHG. However, as mentioned above (N. 10), registration and communication
of the legal status are not necessary requirements in
order for a partnership to be characterized as OHG but
just legal duties. The characterization rather depends
on the size and permanence of business activities. In
particular, an OHG requires a mercantile trade business that is intended to be performed on a permanent
basis. In contrast, when there is only a limited economic purpose, the business is to be characterized as
an “occasion partnership” (Gelegenheitsgesellschaft;
single purpose partnership); which is a GbR. Thus, a
partnership whose aim is to bring several subjects together in order to perform just one business project
which may consist in a single transaction or in a limited number of transactions – lacks permanence and
therefore, being a Gelegenheitsgesellschaft, constitutes

213
a GbR.4 This is true independently from the volume of
the transaction or the time that is required for its performance. For instance, a joint venture between several large building companies who join forces in order
to construct a motorway section is usually to be characterized as a GbR.
12. The purpose of jointly buying and reselling a particular object or set of objects is mentioned in contemporary literature as a classic case of an “occasion
partnership” (Gelegenheitsgesellschaft) and therefore
as a GbR.5 This view is entirely confirmed by case law.
For instance, in a decision by the then highest-ranking
German Civil Court, the Reichsgericht (RG),6 the joint
acquisition of a piece of land with the intention of reselling it on joint account was classified as a GbR.7
Another example for an “occasion partnership” that
was consistently characterized as a GbR by the
Reichsgericht is a consortium of several banks for the
issue of bonds.8 This ease law has been adopted by the
Federal Court (Bundesgerichtshof – BGH), as the successor of the Reichsgericht. For instance, in 2011 the
Bundesgerichtshof expressly characterized an agreement between two individuals to jointly erect and sell
4

This is still the legal situation today; MünchKomm/
Schäfer, BGB, 6th ed. 2013, Vor § 705 N. 87.
5
Staudinger/Geller (n. 1), § 726 N. II.
6
RG SeuffA 83, 174 (judgment of 18 Jan. 1929).
7
This corresponds with the view taken in contemporary academic literature; see e.g. Soergel, BGB, 5th ed. 1931, § 726 N. 2.
8
RGZ 56, 206, 209 (judgment of 11 Dec. 1903); RGZ 56, 297,
299 (judgment of 9 Jan. 1904).

214
homes as a GbR, as their cooperation was limited to
this building project.9
13. The assessment that the Consortium is to be
characterized as a GbR is further confirmed by an
analysis of the 1935 purchase agreement, in which the
then sellers are called the “Consortium” (“Konsortium”)
in short. In fact, in the 1929 edition of the commentary
edited by Staudinger, this term is equated with the
term “Gelegenheitsgesellschaft”,10 which, as shown
above in N. 11 f., is a typical and classical kind of a
GbR. Furthermore the most widespread one-volume
commentary on the BGB, edited by Palandt, and a key
source of reference to this day, when it was first published in 1939, expressly used the very term consortium (“Konsortien”, which is the plural form) in order
to describe an “occasion partnership”, as a single purpose partnership, formerly called “Gelegenheitsgesellschaft”, as an example for this kind of GbR.11
Therefore the short name under which the sellers in
the 1935 agreement chose to perform this legal transaction, and which in addition Saemy Rosenberg used
in his letter to Dresdner Bank dated 14 June 1935 (Exhibit 6), corresponds precisely with a term used in contemporary legal sources to describe an important (and
9

BGH NJW 2011, 1730 N. 10 (judgment of 22 Feb. 2011). In
that case the land had been bought by one of the partners, which
makes no difference with regard to the characterization as a GbR.
10
Staudinger/Geiler (n. 1), Vor § 705 N. I 2 b dd; Anhang zum
14. Titel, B I.
11
Palandt/Friesecke, BGB, 2nd ed. 1939, § 705 N. 9 b bb.
Those two terms remain as closely associated nowadays; MünchKomm/Schäfer (n. 4), Vor § 705 N. 51.

215
undisputed) kind of GbR. As all the individuals who
acted on behalf of the Consortium were professional
merchants in a sophisticated market it seems correct
to assume that they made use of contemporary legal
terms such as “Konsortium” very consciously.12 Furthermore the aforementioned letter dated 14 June
1935 confirms that Saemy Rosenberg, who performed
the final negotiations leading to the agreement (First
Amended Complaint, N. 149 ff.), acted not on behalf of
single owners but of members of a Consortium. In
fact, the letter states that “I have orally received the
assent of the other authorized members of the Consortium. . . .”13 (Exhibit 6; emphasis added). This is the
typical way in which one of several partners, who, in
the absence of a divergent agreement, according to
Sect. 714, 709 (1) BGB are jointly authorized to represent the GbR, would behave when concluding a contract on behalf of the GbR. An indication to the
contrary may be found in the First Amended Complaint (N. 151), when it says that S. Rosenberg stated
“that the contract should be regarded as legally valid,
even without the other owners having signed at this
point.” However this paraphrase of the letter’s wording
is inaccurate, and so is the English translation of the
letter contained in the First Amended Complaint (Exhibit 6).

12

It may be noted that the term “trading consortium” (Handlerkonsortium) was used in the ministerial fetter dated 14 Italy
1934 (Exhibit 3) as well.
13
Die Zusage der anderen verfügungsberechtigten Consorten
habe ich mündlich erhalten. ( . . . ).”

216
14. It remains to be determined which subjects were
partners of that GbR. First of all, the First Amended
Complaint provides no indication that any individual
or any firm apart from the individuals and firms that
are expressly named in the 1929 and the 1935 agreements might have been a partner of the Consortium.
On the contrary the First Amended Complaint states
that no such further parties belonged to the Consortium (N. 1), and that on information and belief there
were just loans offered by third parties (N. 32, 152,
154). Based on these allegations, the Consortium may
have consisted either of the individuals who were taking part in those transactions, or of their firms. The
three individuals who feature as buyers in the 1929
agreement expressly acted in their function as antiquities dealers. Under German law, if an individual
managing a business signs a contract but the contract
does not state whether the signatory is acting individually or on behalf of the business, then determining
whether he or she has acted on behalf of the business
or him- or herself depends on the circumstances. In the
1929 contract there was express mention made of the
profession of all individuals as antiquities dealers. Furthermore the object of the contract, which concerns the
purchase of a collection of works of art, clearly points
to the professional sphere of an antiquities dealer. It is
therefore fair to assume that all of the three individuals were acting on behalf of their respective antiquities
dealer businesses.
15. In the 1929 agreement itself no reference is made
to the legal characterization of those three businesses.

217
However it may be derived from some other passages
of the First Amended Complaint that Julius Falk Goldschmidt pursued his business in the firm J. & S. Goldschmidt (First Amended Complaint, N 129), that
Zacharias Max Hackenbroch did so as sole owner of the
firm Z M. Hackenbroch (First Amended Complaint, N.
17), and that Isaac Rosenbaum acted as co-owner of
the firm I. Rosenbaum, which he owned along with
Saemy Rosenberg (First Amended Complaint, N. 18,
128), and which was an OHG (see the 1935 purchase
agreement, para. 1).
16. The First Amended Complaint (N. 1) states that
the three art dealer firms which formed the Consortium were based in Frankfurt. This corresponds to the
1929 agreement according to which the three firms are
located “zu Frankfurt am Main”, and to the 1935 purchase agreement. It therefore seems correct to assume
that all the three firms were German entities.
17. The assessment that the Consortium consists of
those three German entities rather than of any individuals is further confirmed by a statement in the first
paragraph of the 1935 purchase agreement. In that
passage it is the three firms individually run by the
three individuals, and not those individuals themselves, who are characterized as having bought the
Welfenschatz back in 1929. Even though this statement, being part of a more recent agreement, cannot,
be given binding authority with regard to the identity
of the parties to an earlier contract, it clearly shows
how the members of the Consortium understood the

218
matter, and this corresponds entirely to the legal assessment mentioned above.
18. Nothing in the First Amended Complaint suggests that there was any deliberate change with regard
to the legal status of the Consortium between the dates
of the 1929 and 1935 agreements. The only obvious
change, which is reflected in the latter agreement, does
not concern the characterization of the Consortium but
the identity of one of its members, i.e., the firm I. Rosenbaum. According to the agreement, that firm had
been liquidated, and its assets were afterwards held by
the two former partners I. Rosenbaum and S. Rosenberg. The First Amended Complaint does not offer any
more information about the way in which the assets of
that liquidated firm, including its share in the Consortium, had been transferred to those two individuals
Under statutory law, liquidation of an OHG requires a
distribution of all the remaining assets. After liquidation, the question whether the former partners of the
firm become individual members of the Consortium
would usually depend on the Consortium agreement,
which is not made available in the First Amended
Complaint. It is possible that I. Rosenbaum’s share in
the Consortium went to one former partner of the firm
only, but that the former partners did not want to disclose this. However there is no need for any speculation
here, as in any case it is obvious that in the 1935 agreement I. Rosenbaum and S. Rosenberg jointly represented their interest in the assets of the legal successor
of the firm I. Rosenbaum This is clearly shown by the
fact that both these individuals were listed jointly as

219
entity “No. 3” (“3.)”) of the Consortium, along with the
two firms which were still operating at that time, and
which both were listed as entities “No. 1” (“1.)”) and
“No. 2” (“2.).”) of the Consortium respectively. It is
therefore beyond doubt that the two firms that continued to exist fully acknowledged that I. Rosenbaum and
S. Rosenberg were both representing the former firm I.
Rosenbaum OHG’s share in the Consortium.
19. Conclusion: The Consortium would be regarded as a GbR.
III. Law applicable to the Consortium
20. The question whether the Consortium would be
regarded as a German entity depends on the conflict of
law rules regarding partnerships. German law does
not contain any statutory provisions establishing the
choice of law rules with regard to partnerships. However there exists ample case law on the matter. There
are basically two approaches with regard to the factors
that determine the company law rules that apply to a
certain company, which are the foundation theory and
the so-called seat theory. While the first of these theories considers the place where the company was originally founded as the relevant fact that determines the
applicable law, the seat theory holds that the company’s seat is decisive. The main practical difference
between those two theories is that while the place of
foundation is permanent, the administrative seat
might be shifted from one jurisdiction to another in the
course of time, so that under the seat theory more than

220
just one set of company law rules may apply during the
existence of a company.
21. German courts have traditionally followed the
seat theory.14 This is as true for the era between 1929
and 1935 as it is today. As early as in 1911, the
Reichsgericht held that the seat of a religious community can only be the place where the administration is
effectively performed.15 Soon afterwards this position
was confirmed with regard to trading companies,16 and
in 1927 in a case concerning a company which had its
main administrative seat in Wilmington, Delaware,
where the company law of Delaware was therefore considered applicable.17 While those cases concerned companies other than a GbR, in 1938 the Reichsgericht
underlined that it was a general principle of the law
that the requirements of legal capacity of a company
or association in the widest sense are determined by
the law of the country where the administrative seat
is located.18 This view has been upheld in German case
law to this day, even though there have been some concessions made with regard to European Court of Justice jurisdiction concerning companies from other EU
member states, which is not of any relevance here.

14

For a comprehensive account, see MünchKomm/Kindler,
BGB, 6th ed. 2015, IntGesR N. 358, 420.
15
RGZ 77, 19, 22 (judgment of 29 June 1911).
16
RGZ 83, 367, 369 f. (judgment of 16 Dec. 1913); see also
RGZ 92, 73, 76 (judgment of 19 Jan. 1918).
17
RGZ 117, 215, 217 (judgment of 3 June 1927).
18
RGZ 159, 33, 46 (judgment of 29 Oct. 1938).

221
22. There is no information offered in the First
Amended Complaint as to where the Consortium had
its administrative seat. However because all of the
three member firms were located in Frankfurt/Main/
Germany at the time of the 1929 agreement it seems
correct to assume that it is in Frankfurt/Main and thus
in Germany that the main administrative decisions
were taken. The First Amended Complaint states that
by 1936 the firm J. & S. Goldschmidt had de facto been
closed (N. 129), while the firm Z. M. Hackenbroch continued to exist until 1937 (N. 130), and the firm I. Rosenbaum had been liquidated by 1935 (purchase
agreement of 1935, para. 1). This means that when the
purchase agreement of 1935 was concluded, two of the
three firms were still located in Frankfurt/Main, as is
expressly confirmed in this very agreement, and thus
in Germany. In addition the final negotiations that resulted in the purchase agreement of 1935 were performed by Saemy Rosenberg in Berlin / Germany (First
Amended Complaint, N. 149-150). One might add that
the largest part of the purchase price was to be paid in
German currency, while only with regard to the settlement of the claims of foreign participants a special provision was included, which reflects the impossibility of
a transfer in German currency to foreign countries
(Purchase agreement of 1935, p. 2-3). The fact that similar provisions were not made with regard to the two
members of the Consortium that continued to do business in Germany demonstrates that they were still active in the country at that time. This clearly indicates
that the main administrative decisions of at least those
two firms continued to be taken in Germany.

222
23. There would have to be a permanent shift of the
administration of the Consortium to one single foreign
country in order to assume a change of seat and therefore a change of the applicable law. One might think of
the Netherlands as such a country, because this is
where Isaac Rosenberg and Saemy Rosenberg had emigrated by 1935 (First Amended Complaint, N. 128,
171), and where the Welfenschatz was physically
stored at least in 1933 (First Amended Complaint, N.
77-78) and in 1935 (Purchase agreement of 1935, p. 2).
However the emigration of the owners of a firm that
constitutes just one out of Three partners of a GbR
does not indicate a shift of the main administrative
seat of the entire GbR. Such a shift, which would result
in the partnership losing the foundation of its existence as an active (i.e., business-making, “werbend”)
German GbR and therefore require its liquidation,19
would rather demand strong and unambiguous evidence that the main administrative decisions were
henceforth taken in another country. The fact that
Saemy Rosenberg personally conducted negotiations
with the buyer in Berlin in 1935 demonstrates that at
least as far as the Welfenschatz transaction is concerned, which was the sole business purpose of the
Consortium, even he, being a representative of the only
one of the three firms whose owners had by then left
Germany, continued to make decisions on behalf of the
Consortium in Germany. As far as the physical location
19

BGH NZG 2009, 1106 n. 5 (ruling of 25 May 2009);
MünchKomm/Kindler (n. 14), IntGesR N. 826; J. Koch, ZHR 173
(2009), 101, 113.

223
of the objects that were to be resold is concerned, this
location as such does not permit the drawing of any
conclusions with regard to the place where the administrative decisions were taken. As the Federal Court
has decided, the determination of the administrative
seat is independent of where the assets of the company
are located.20 For these reasons it seems appropriate
to assume that until 1935 the main administrative decisions were still taken in Germany.
24. Conclusion: The Consortium would be regarded as a German entity.
IV. Ownership of the Welfenschatz by the Consortium from 1929 to 1935
25. The Consortium bought the Welfenschatz in
1929. There is no form requirement for such a sales
contract with regard to movables. It seems correct to
assume that in the course of the conclusion of the
sales contract in 1929 the necessary agreement on the
transfer of ownership as well as a change of possession took place. This corresponds to the information
contained in the First Amended Complaint (N. 34) that
the Welfenschatz was in the possession of the Consortium between 5 October 1929 and 14 June 1935.

20

BGH IPRspr 1986 Nr. 19 (jugdment of 21 March 1986);
consenting: OLG Hamm NJW-RR 1995, 469, 471 (ruling of 18
Aug. 1994); MünchHdbGesR/Thölke, vol. 6, 4th ed. 2013, § 1 n. 75;
Spindler/Stilz/H.-F.Müller, AktG, 3rd ed. 2015, IntGesR N. 4.

224
26. It remains to be clarified whether the Consortium, being a GbR, had the requisite legal capacity to
become owner of the Welfenschatz. A GbR is neither an
individual nor a corporation. Therefore there has been
a long-lasting academic debate about to what extent a
GbR has legal capacity. As far as the courts are concerned, this problem was solved in 2001, when the Federal Court decided that a GbR has the capacity to
create rights and obligations for itself when taking
part in legal transactions with third parties as a GbR
(“external company”; Außengesellschaft).21 Consistent
with the view that the courts, as a rule, do not create
new law but simply identify what has always been the
law,22 the decision was not considered as bringing a
change in the law but just a clarification.23 This means
that a German court that had to assess today whether
in the period from 1929 until 1935 the Consortium was
legally capable of owning the Welfenschatz would very
probably conclude that it was. This is because the Consortium, by participating publicly and repeatedly in legal transactions, clearly is to be characterized as an
“external company” (Außengesellschaft) in the sense of
the aforementioned Federal Court decision. Therefore,

21

BGHZ 146, 341 = NJW 2001, 1056 ff. (judgment of 29 Jan.

2001).
22

Zöllner, in: Gernhuber (ed.), Tradition und Fortschritt im
Recht, 1977, p. 131, 148 ff., 156; Larenz/Canaris, Methodenlehre
der Rechtswissenschaft, 3rd ed. 1995, p. 134 f.
23
MünchHdbGesR/Gummert, vol. 1, 4th ed. 2014, § 17 n. 5;
Meschkowski, Zur Rechtsfähigkeit der BGB-Gesellschaft, 2006, p.
260.

225
from today’s perspective, the Consortium would be considered as owner of the Welfenschatz.
27. If, in contrast, the question of ownership was to
be answered in a purely historical perspective, the contemporary case law would govern the question. The
Reichsgericht, in a judgment of 1903, was very clear on
the matter: It assumed that it was not the GbR but the
individual partners in their aggregation as members of
the GbR to whom the rights and duties of the partnership were assigned.24 As a consequence, it is not the
GbR as such that is to be considered the owner of any
object which it holds in order to pursue the common
purpose but it is the partners as joint owners
(Gesamthänder). However even this view does by no
means assume that the individual partners are free to
dispose of their individual shares in a property at their
discretion. On the contrary, Sect. 719 (1) BGB rules out
the possibility of such a disposal. This separation from
the individual assets and from the will of each partner
sharply distinguishes the GbR from a mere co-ownership with fractional amounts (Sect. 741 ff. BGB), as described above in N. 6 and 8.25 In yet another
contemporary source, which is the 1928 edition of the
commentary edited by the Reichsgericht judges, the
characteristics of the assets of a GbR are described as
24

RGZ 56, 206, 209 (judgment of 11 Dec. 1903; die mehreren
Gesellschafter sind vereinigt die Träger des Eigentumsrechts”).
This view is shared by a majority of contemporary academic literature; see e.g. Planck, BGB, 4th ed. 1928, § 719 N. 1;
Staudinger/Geiler (n. 1), Vor § 705 N. IV 1.
25
Staudinger/Geiler (n. 1), Vor § 705 N.-IV.

226
follows: The common assets are for each single partner
“as if it were alien fortune”.26
28. By 1930-31 about half of the collection that constituted the original Welfenschatz, acquired by the
Consortium in 1929, had been sold (First Amended
Complaint N. 41), and thus the title of ownership had
been transferred to the respective purchasers. The remaining part, to which the current claims refer, was
due to be transferred from Amsterdam to Berlin, according to the purchase agreement of 1935 (p. 2). The
First Amended Complaint offers no reason to doubt
that this obligation was duly performed, with the result that in 1935 the ownership of this part of the
Welfenschatz had changed as well.
29. Conclusion: From today’s perspective the
Welfenschatz was owned by the Consortium as,
being a GbR, it had legal capacity. In the period
from 1929 until 1935 the courts would have considered the partners to be joint co-owners of the
Welfenschatz but to be banned by statutory partnership rules from disposing individually of
their share in the property.
V.

Possession of the current claims by the
Consortium

30. If one assumes that the Consortium lost the ownership of the Welfenschatz under circumstances that
26

Reichsgerichtsräte-Kommentar/Sayn, BGB, 6th ed. 1928,
§ 719 N. 1.

227
lead to claims for restitution and/or monetary damages
then any such claims were originally held by the Consortium, if one assumes the legal capacity of a GbR, or
by all the partners jointly, if one takes the historical
perspective (see above N. 27). This is clear for the plaintiffs’ claims for restitution of the Welfenschatz itself as
those claims are based on former or even continuing
rightful ownership, and restitution is aimed at reversing an unlawful deprivation of ownership or at least of
possession. In fact the same is true with regard to the
claims for monetary damages, as such claims, which
are aimed at compensating the permanent loss of ownership, are to be considered as substitutes (Surrogate)
of the original ownership title. As they are based on the
unlawful and irreversible deprivation of ownership,
they belong to the same entity that was formerly the
owner of the Welfenschatz.
31. There is no hint in the First Amended Complaint
as to what happened with the Consortium after the
completion of the sale in 1935, It therefore seems correct to assume that the activities of the Consortium
were limited to buying and reselling the Welfenschatz.
This means that the Consortium had achieved its purpose by 1935. If a GbR entirely achieves the common
purpose then it comes to an end in its capacity as a
proper partnership that is promoting the achievement
of a common purpose. This rule is explicitly stated in
Sect. 726 BGB:
Section 726 – Dissolution due to achievement
or impossibility of its object

228
The partnership comes to an end when the
agreed object is achieved or its achievement
has become impossible.27
In fact the wording of this statutory provision is not
entirely precise insofar as it states that the GbR
“comes to an end”. It is rather dissolved but continues to exist, while its purpose is altered from its
original object into liquidation. Contemporary literature mentions that an “occasion partnership” (Gelegenheitsgesellschaft), such as the Consortium, usually is
dissolved when the business transaction(s) that were
the purpose of the GbR are completed.28 The assets of
the GbR have to be liquidated, the debts paid and the
remaining sum divided amongst the partners. During
this period the GbR continues to exist, but it does so
in a modified way, as a “liquidation company” (Liquidattonsgesellschaft). The German Civil Code provides
a number of rules that are aimed at assuring that each
partner has control of the liquidation procedure (Sect.
730 ff. BGB). It is only when this stage of liquidation is
completed that the GbR itself has entirely ceased to
exist (Vollbeendigung).29 It seems correct to assume
that after the sale of the Welfenschatz in 1935, the liquidation or distribution of the in kind part of the sales
price and the distribution of the sales price, there were
27

Official translation authorized by the German Ministry
of Justice and for Consumer Protection, http://www.gesetze-iminternet.de/englisch_bgb/englisch_bgb.html#P3162 (last checked
4 March 416).
28
Staudinger/Geiler (n. 1), Anhang zum 14. Titel, B I 7.
29
RGZ 46, 39, 40 (judgment of 20 March 1900); Staudinger/
Geiler (n. 1), § 735 N. III.

229
no assets left for distribution. This means that the
Consortium had but for the claims now submitted by
the Plaintiffs, which were initially not raised – legally
come to an end.
32. However, if a GbR has come to an end after liquidation, and later on it becomes clear that there are still
assets remaining, then the GbR continues to exist, as
it has only seemingly come to an end, as will be demonstrated further below (N. 34ff ). This effect as such does
not require any formal steps to be taken.
33. Conclusion: The current claims belong to
the Consortium, which continues to exist until
those claims, being newly-discovered assets of
the Consortium, are fully and properly liquidated.
VI. The Plaintiffs’ standing to assert claims
belonging to the Consortium
34. Under German law, when it is established that for
whatever reason certain assets appear that had not
been taken into account at the time of liquidation, the
GbR continues to exist. This means that, while the
GbR continues to be dissolved, its existence has, in
spite of the liquidation proceedings having been assumed to be fully completed by all partners, not yet
come to an end. That was the law as early as in 1906,
when the Reichsgericht had to decide on the matter,30
30

RG JW 1906, 477 N. 41 (478; judgment of 21 May 1906);
Staudinger/Geiler (n. 1), § 735 N. III; see further RG JW 1905, 430
N. 8 (judgment of 3 May 1905).

230
and it has ever since continued to be an undisputed
rule of law.31
35. With regard to the assets that remain to be liquidated, the leading contemporary Staudinger commentary points out that these assets continue to be
common property (Gesamteigentum) of all the partners, none of whom may claim to hold an individual
share of the assets.32 The fact that the assets are still
submitted to the specific ties created by their attachment to the GbR has far-reaching effects. For instance
the debtor of a claim which belongs to the GbR and
which has only been identified belatedly is banned
from setting off against that claim a counterclaim
which he has against a partner.33
36. In order to liquidate the remaining (newly discovered) assets there is obviously a need for a controlled
and orderly procedure. As the partners would usually
have already performed a liquidation immediately after dissolution, the later procedure with regard to additional assets is called a supplementary liquidation
(Nachtragsliquidation). This is crucial with regard to
the claims which have been submitted in the First
Amended Complaint, as the pursuit of any such claims
would necessarily be an integral part of such a supplementary liquidation. This means that the Plaintiffs,
31

Staudinger/Geiler (n. 1), § 735 N. III; for the situation after
1945 see e.g. BGH NJW 1979, 1987 judgment of 21 June 1979;
concerning an OHG); K. Schmidt, Gesellschaftsrecht, 4th ed.,
2002, § 11 V 6, p. 317 f.; MünchKomm/Schäfer (n. 4), § 730 N. 39.
32
Staudinger/Geiler (n. 1), § 735 N. III.
33
Staudinger/Geiler (n. 1), § 735 N. III.

231
when submitting their claims, would have to respect
the statutory rules of German law regarding the supplementary liquidation. With regard to the liquidation
of an OHG, there are special provisions in Sect. 146
HGB. As a rule, the liquidation is to be performed by
all the partners as liquidators unless this authority is
transferred by resolution of the partners or by the
partnership agreement to individual partners or to
other parties (Sect 146 (1) 1 HGB). In case that a deceased partner has several heirs, it is widely assumed
that Sect. 146 (1) 2 HGB is to be applied by way of analogy to a GbR, meaning that the heirs of a deceased
partner have to appoint a joint representative for the
liquidation procedure.34 This joint representative could
then pursue claims on behalf of the GbR, which, according to Sect. 150 (1) HGB, has to be done together
with all the other liquidators unless otherwise determined. Therefore, under German law all the heirs of
each of the Consortium members – that is, the heirs of
all the individuals who ran each of the three firms (see
above N. 17) plus the heirs of any further member of
the Consortium – have to make such an appointment,
which is aimed at facilitating the liquidation procedure. The appointed joint representative would then
stand for all the heirs of one Consortium member, i.e.,
the heirs of each of the liquidated antiquities dealer
business. Other voices in academic literature assume
an even higher threshold of participation, i.e., that

34

MünchKomm/Schäfer (n. 4), § 730 N. 41; Wiedemann, Gesellschaftsrecht, vol. 2, 2004, p. 557.

232
each heir has to act individually.35 There is no case law
on the matter, so that both ways are options for the
Plaintiffs. Either way, there is always a need for all
the heirs of all the former partners of the Consortium
to get involved, be it by participating in the appointment of a joint representative or by acting individually
during the liquidation procedure.
37. There is a formal procedure laid down in Sect. 146
(2) HGB, which provides for an appointment of liquidators by the Municipal Court on application by a
party when there is a good cause. Again there is a dispute on whether this provision is applicable, by way of
analogy, to a GbR. The Federal Court has accepted this
in a case where the GbR involved a huge number of
investors as partners (“kapitalistische GbR”).36 However there is not yet any case law with regard to
smaller GbRs, and in doctrine the matter is discussed
controversially: While some academics assume that
Sect. 146 (2) HGB applies to that kind of GbR (“personalistische GbR”), which is at stake here,37 others argue
that this is not the case.38 This latter position refers to
a judgment of the Federal Court39 which principally
rules out the necessity to appoint an emergency managing director for a GbR. However as the matter has
not yet been decided by the courts, it is an option for
35

Soergel/Hadding/Kießling, BGB, 13th ed., 2011, § 730 n.
15; Erman/H.P.Westermann, BGB, 14th ed., 14, § 730 n. 7.
36
BGH NJW 2011, 3087 n. 19 (judgment of 5 July 2011).
37
Wiedemann (n. 34), p. 557.
38
Bergmann, LMK 2015, 366551.
39
BGB NJW 2014, 3779 (ruling of 23 Sept. 2014).

233
the Plaintiffs to apply for the appointment of liquidators by the Municipal Court. Nothing in the First
Amended Complaint suggests that the Plaintiffs (or
another party) have sought or obtained such an appointment.
38. In any case, as the GbR continues to exist, basically the same set of rules applies which governed the
preceding regular liquidation. This procedure is determined by statutory law (Sect. 730 ff. BGB; see above
N. 31): The aim of the applicable statutory rules is to
assure that there is transparency and control of the
liquidation, and that all former partners or their successors are treated justly and equally. Even during
the regular liquidation, which, as mentioned before,
usually takes place shortly after the GbR has been dissolved, all partners are entitled to jointly manage the
GbR’s affairs even if the partnership agreement grants
this right to individual partners (Sect. 730 (2) 2 BGB).
The Federal Court has shown no readiness to allow for
exceptions from that principle, but rather underlines
that during liquidation the partners’ interest in inspection and control becomes predominant.40
39. This means that the Plaintiffs, even if they are
heirs to some of the members of the Consortium, under
the applicable rules of German law, cannot submit individual claims with regard to the Welfenschatz. As
heirs to a partner in a GbR, they are rather bound to
the statutory provisions of Sect. 146 HGB and of Sect.
730 ff. BGB, which require a regular and ordered
40

2011).

BGB NJW 2011, 3087 n. 10 ff., 17 (judgment of 5 July

234
liquidation that ensures a just and equal treatment of
all persons who may have a claim in the assets of the
dissolved GbR. Therefore they would have to establish
that they have been authorized to submit the claims
by all the heirs of all the three firms that acted on behalf of the Consortium and, in addition, of all the heirs
of any further member of the Consortium. While this
kind of authorization is not subject to any formal requirement, it rests with the Plaintiffs to submit evidence if the required authorization by all the heirs is
contested by the Defendants.
40. The Plaintiffs appear to contend that they have
standing to assert claims belonging to the Consortium
because they are heirs to or “authorized agents in fact”
(First Amended Complaint, N. 20) for the heirs to the
former members of the Consortium. To have standing
under German law, the plaintiffs would need to prove
these allegations by showing either that all of the heirs
of the three art dealer firms are participating in this
suit or that they have authorized the plaintiffs to act
as joint representatives for all of the art dealer firms’
heirs (see above N. 36). In addition, the plaintiffs would
need to prove their allegation that these three art
dealer firms were the only members of the Consortium,
which appears to raise a substantial question of fact,
as the First Amended Complaint repeatedly mentions
several “money lenders” (First Amended Complaint,
N. 32, 152, 154), who, under German law, might well
qualify as non-managing partners of the GbR. Furthermore the 1935 agreement (Exhibit 5) expressly refers
to “foreign parties to the Guelph Treasure Consortium”

235
(ausländische Beteiligte an dem Welfenschatz-Konsortium). If the plaintiffs could not prove that they have
standing under Sect. 146 (1) 2 HGB, either because
they do not represent all the heirs of the art dealer
firms or because there were other members of the Consortium, then they would not have standing to pursue
these claims It is important to note that under German
law, the plaintiffs would have the burden of proof on all
of these standing issues. Moreover, because standing is
a threshold issue, the plaintiffs would have to prove
that they have Sect. 146 (1) 2 HGB standing as soon as
a defendant questioned their authority to represent
the GbR, before the parties contested the merits of the
allegations.
41. Conclusion: The Plaintiffs are banned from
acting individually with regard to the Welfenschatz claims. Instead they have to prove that
they have standing under Sect 146 (1) 2 HGB, to
apply for an appointment of liquidators by the
Municipal Court, according to Sect. 146 (2) HGB,
or to follow the statutory rules on the liquidation
of a GbR, which are laid down in Sect. 730 ff. BGB
and which require all heirs to all the Consortium
partners, including those partners that did not
act publicly on behalf of the Consortium, to appear as plaintiffs in this lawsuit. If the Plaintiffs
cannot satisfy one of these provisions, they do
not have authority, under German law to pursue
any claims that belong to the Consortium.
/s/ Armbrüster
Prof. Dr. Christian ARMBRÜSTER

236
Urkundenrolle Nr. B A7/2016
es Notars Wolfang Betz,
Bayerischer Platz 1, 10779 Berlin
Die umseitige, vor mir vollzogene Unterschrift
es Herrn Prof. Dr. Christian Armbrüster,
geboren am 15.05.1964,
wohnhaft Kufsteiner Straße 12, 10825 Berlin,
usgewiesen durch Personalausweis,
eglaubige ich.
Der Notar befragte den Erschienenen, ob der Notar
oder einer der mit ihm in berutlicher [illegible]
mmenarbeit verbundenen Personen in der Angelegenheit, die Gegenstand der vorstehenden Beglau [illegible] ist, außerhalb seines Notaramtes tätig war oder
ist. Der Erschienene verneinte die rage.
Berlin, den 07.03.2016
/s/ Betz
Betz
Notar
Kostenberechnung gem. § 19 GNotKG
Gesehäftswert: 170.000,00 € (§ 121 GNotKG)
Nr. 25100 KV (Unterschriftsbeglaubigung,
70,00 €
Höchstgebühr)
Nr. 32014 KV (19% Mehrwertsteuer)
13,30 €
83,30 €
/s/ Betz
Betz
Notar

237
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)
)
Gerald G. STIEBEL, and
)
Jed R. LEIBER,
)
Plaintiffs,
)
)
v.
) Case No. 15-cvFEDERAL REPUBLIC OF
) 00266 (CKK)
GERMANY, a foreign state,
)
)
and
)
STIFTUNG PREUSSISCHER )
KULTURBESITZ,
)
)
Defendants.
Alan PHILIPP,

DECLARATION OF MR. MARKUS H. STÖTZEL
IN SUPPORT OF PLAINTIFFS’ OPPOSITION
TO DEFENDANTS’ MOTION TO
DISMISS THE COMPLAINT
Markus H. Stötzel declares under penalty of perjury:
1. I am a German citizen and German-qualified attorney (Rechtsanwalt), and have been practicing as an
attorney in Germany since February 27, 1997. I am
duly admitted to practice law in the Federal Republic
of Germany, admitted to the Bar of Marburg (District
Court) and of Frankfurt am Main (Higher Regional
Court).

238
In 1986/87 I studied Political and Economic Sciences
and Literature at the University of Siegen, Germany,
then graduated from Marburg University Law School
in 1993 (1st Jur. State Exam, “Erstes Juristisches
Staatsexamen”) and passed my 2nd State Exam in
1996 (“Zweites Staatsexamen”, Marburg), with a focus
on Public law.
I worked as Corporate/Legal Counsel (SyndicusAnwalt) and Chairman Supervisory Board (Aufsichtsratsvorsitzender) of a Real Estate Company in the
Frankfurt am Main Area, Germany from 1997 to 2000.
I have been practicing law in the international arena
for more than 15 years, representing Jewish victims’
families and claimants from various countries on Holocaust-related issues and claims, with a focus on “Nazi
looted art”. Since then I have been involved in numerous cases that are commonly referred to as “crossborder negotiation”; by that I mean legal disputes,
mostly alternative dispute resolution, with parties
from various countries and a factual background
spreading over a number of countries/continents
and/or proceedings pending before authorities in multiple jurisdictions.
2. I serve as German counsel for the plaintiffs Alan
Philipp (“Philipp”), Gerald G. Stiebel (“Stiebel”), and
Jed R. Leiber (“Leiber,” together with Philipp and
Stiebel, the “Plaintiffs”) and represented them in the
proceeding before the German “Advisory Commission
on the Return of Cultural Property Seized as a Result
of Nazi Persecution, Especially Jewish Property” (the

239
“Advisory Commission”) regarding the plaintiffs’ request for restitution of the “Guelph Treasure” (Welfenschatz). I am familiar with the factual and legal
arguments made by the plaintiffs and defendants in
the proceeding before the Advisory Commission.
3. I therefore have direct personal knowledge of the
fact that documents that evidence the conspiracy
among high-ranking Nazis were not available or accessible until quite recently.
4. By my letter of June 29, 2012, sent by order and on
behalf of the Plaintiffs, the claim for the return of the
Welfenschatz collection was submitted for review to
the Advisory Commission, followed by Defendants’ approval, by letter of Prof. Dr. Hermann Parzinger, President Stiftung Preußischer Kulturbesitz (the “SPK”,
Prussian Cultural Heritage Foundation) of September
14, 2012.
5. During the procedure before the Advisory Commission, Plaintiffs presented expert evidence to the Panel
and to Defendants: five written expert opinions, issued
by Professor Dr. Andreas Nachama, Museum Topography of Terror, Berlin; Professor Dr. Wolf Gruner, University of Southern California, Los Angeles; Professor
Dr. Stephan Meder, Gottfried Wilhelm Leibniz University, Hanover; Sotheby’s of New York and by Dr. Helen
Junz, Adjudicator for the Claims Resolution Tribunal
(CRT), Holocaust Victim Assets Litigation, Federal
Court, Eastern District, New York.
6. The Advisory Commission, among others, heard
from these five experts who established the context

240
surrounding the sale at issue that (i) the actual market
value of the collection in 1935 was close to 11,678,490
RM (“Reichsmark”), (ii) the historical background
which supports the claim that the sale in issue was coercive and made under duress, and certainly cannot be
characterized as one governed by free will and free
choice in an open market, and (iii) the art dealers were
the sole owners of the collection.
7. By letter dated December 12, 2013, Sotheby’s of
New York provided a letter to me, accompanying Sotheby’s detailed evaluation of the Welfenschatz collection, by which Sotheby’s valued the fair market value
of the collection for mid-1935, when the collection was
sold to Nazi-Prussia for RM 4.25 million, at 11,678,490
RM. Sotheby’s expert opinion was made available to
the Advisory Commission and Defendants legal counsel on December 13, 2013. A copy of this report is attached hereto as Exhibit 1.
8. Neither the qualifications nor credibility of these
experts, among these Sotheby’s, had been challenged
during the procedure before the Advisory Commission.
As such, the Defendants, SPK in particular, did not
carry their burden of showing why these experts
should not be accepted nor rebutted their conclusions.
9. The use of distinguished experts is particularly
important in cases like this because not only under
the law, but also under the Washington Principles of
1998 and its German equivalent, the “Gemeinsame
Erklärung” of December 1999 – the German Federal
Governments’, the German Lander (Federal States)

241
and the German National Associations of Local Authorities’ self-commitment declaration of December 1999,
called the “Joint Declaration on the tracing and return
of Nazi-confiscated art, especially Jewish property.”
(“Joint Declaration”, see http://www.lostart.de/Webs/EN/
Datenbank/Grundlagen/GemeinsameErklaerung.html,
last visited May 10, 2016) – there is a need to determine the facts regarding events that took place over 80
years ago. Documents need to be interpreted by “state
of the art” scholarship of the surrounding historical circumstances. This is only achievable through qualified
experts, a practice that also is well-accepted under
both U.S. and German law.
10. Nonetheless, the Advisory Commission did not incorporate the uncontested findings of these experts
into the recommendation of March 20, 2014. This challenges the role and assistance they contributed to the
process and demonstrates that the Advisory Commission failed to meet even the minimal requirements of
international adopted principles of law. Ignoring the
experts, from an otherwise detailed opinion, such as
this one, leaves room for doubt as to the veracity and
finality of the Advisory Commission’s recommendations. It also leaves future claimants to wonder how
claims are to be supported so that the Panel can reach
reasoned and non-arbitrary results.
11. In the Motion, Defendants stated that “both
sides presented extensive evidence and argument to
the Commission.” (Motion at p. 8, 36, 56) Actually,
the Plaintiffs did not only present five expert opinions
to the Commission, but discovered more documents

242
during the procedure after June 29, 2012, that evidence the conspiracy among high-ranking Nazis, in
trying to get hold of the Welfenschatz collection:
12. Evidence shows that the Berlin Nazi-regime, towards the international press, stated the purchase
price at 45% above what they paid the persecuted Jewish victims. The Nazis reported the price at $ 2,500,000
which is equivalent to RM 6.2 million. This was reported in the “Baltimore Sun” in October 1935, an article, discovered and made available to the Plaintiffs
only in December 2013. If the price of 1935 had been
fair, why would the Nazi government have gone to the
trouble of inflating it? FAC at 179-180
13. Reichsmarschall Hermann Goering, notorious for
his insatiable appetite for looting art, was the Prime
Minister of Prussia at the time. The experts left no
doubt as to his role based on documents from the Prussian Ministries. As soon as he had manipulated the
deal, he himself gifted it to Hitler according to the “Baltimore Sun” newspaper, in October 1935. Thus, the evidence supports the expert finding that Goering acted
and treated the collection as if it was his property to
dispose of, including gifting, as he saw fit.
14. In this context, the Defendants repeatedly allege
that they, on the one hand, “are committed to the Washington Principles and the Terezin Declaration” (Motion
at p. 42, 68) and that SPK “was – and is – committed
to adjudications on the merits of claims to Nazi-looted
art” (Motion at p. 67), but, on the other hand, they declare that they will invoke the limitation defense

243
before that court (Motion at p. 68), in the attempt to
prevent the case to be decided upon the merits and to
deny Plaintiffs’ day in court. These statements by the
Defendants are not only highly contradictory, but a
sham and the Defendants hereby make a joke of the
international community’s ongoing serious efforts to
provide late justice to the victims of Nazi persecution
when it comes to redress the historic wrongs of the
Nazi era.
It is almost absurd that Germany, the country of the
perpetrators, claims to have and to take a leading role
in researching and resolving Nazi looted art matters
“on the merits of claims”, but, at the same time, is trying to hide behind the limitation defense.
15. Even worse, in almost the same breath the Defendants seriously maintain that if Plaintiffs had
“brought their claim to a German court, or if they did
so after this suit is dismissed, the defendants would
not invoke the time-bar.” (Motion at p. 54, 68) – a highly
questionable and, at the same time, revealing statement by Defendants:
16. That – the waiver of the plea of statute of limitations and of the laches defense – is consistent with the
German Joint Declaration and, as pointed out correctly
by the Defendants, the Joint Declaration reaffirmed
Germany’s commitment to the Washington Principles
and promised that Germany would redouble its efforts
to ensure that “art that ha[s] been identified as Naziconfiscated property and can be attributed to specific
claimants [is] returned, upon individual examination,

244
to the legitimate former owners or their heirs.” (Motion
at p. 35)
17. With that in mind, the Defendants, SPK and Germany, can not and will not object that this declaration,
as repeatedly argued by governmental, states’ and local officials in public since 1999, has a binding effect on
the public institutions which includes the waiver of
limitation defenses. That means none other than Germany and SPK pleading limitation is not consistent
with both the Washington Principles declaration,
signed by Germany, and the German “Joint Declaration” of 1999, no matter the place and forum of jurisdiction.
In other words: Defendants are barred from pleading
limitation before that court, because this is a serious
breach of international and national commitment on
the return of Holocaust era assets, of the German
“Joint Declaration” in particular. Furthermore, if the
Defendants invoke the limitations defense before that
court, this would not only be an act of pure arbitrariness and ignorance of international and of German
and U.S. principles of law, but contradicts their selfportrayal as allegedly being “committed to adjudications on the merits of claims to Nazi-looted art” (Motion at p. 67). In summary, Defendants, by using their
line of argumentation regarding the matter of statute
of limitations as presented by the Motion, are wrong
and loose all credibility.

245
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
Marburg, May 10, 2016
/s/ Markus H. Stötzel
...................................
Markus H. Stötzel, Rechtsanwalt

246
Freie Universität [SEAL] Berlin
Fachbereich Rechtswissenschaft
Lehrstuhl fur Bürgerliches
Recht, Handels- und
Gesellschaftsrecht,
Internationales Privatrecht
Univ.-Prof. Dr.
Christian A r m b r ü s t e r
Richter am Kammergericht a.D.
Van’t-Hoff-Str. 8
14195 Berlin, Germany
Phone
+49 30 838-52167
Fax
+49 30 838-452181
E-Mail
c.armbruester@fu-berlin.de
Internet www.fu-berlin.de/jura
6 June 2016
Supplemental Expert Opinion of
Prof. Dr. Christian ARMBRÜSTER
I.

Assignment
1. I have been retained by counsel for the Defendants in connection with a case pending in
the U.S. District Court for the District of Columbia, Philipp v. Fed. Rep. of Germany, No. 15-cv00266. In this function I rendered an Expert
Opinion dated 26 October 2015, an amended
version of which is dated 4 March 2016 (referred
to hereafter as ”Armbrüster Opinion”).
2. I have been asked to comment on the views
expressed with regard to my own Expert Opinion in Chapters B and C of the Expert Opinion
rendered by Prof. Dr. Stephan Meder dated 22

247
April 2016 (referred to hereafter as “Meder
Opinion”).
II.

Summary of Sections B and C of the
Meder Opinion
3. Sections B and C of the Meder Opinion contain four principal assertions: (1)
The Consortium is to be characterized as a mere
“tendering consortium” (Gelegenheitsgesellschaft) without legal capacity. (2) The Consortium was not the owner of the Welfenschatz. (3)
The Consortium ended upon concluding the execution of the sale in 1935. (4) The Plaintiffs
have standing as they are associated by virtue
of inheritance.

III.

Summarized analysis of Sections B and C
of the Meder Opinion
4 None of the four principal assertions of the
Meder Opinion mentioned in N. 3 cast doubt on
the findings in the Armbrüster Opinion: (1) The
qualification of the Consortium as a “tendering
consortium” or, in the terminology of the Armbrüster Opinion, “occasion partnership” (Gelegenheitsgesellschaft), is in line with the
Armbrüster Opinion (see below N. 5). The question whether the Consortium has legal capacity
depends on the retroactive effect of the Bundesgerichtshof judgment of 2001; however, this
matter is not decisive for the questions at stake
here (see N. 8). (2) Even if the Consortium was
not the owner of the Welfenschatz, then the

248
members of the Consortium did not have individual (fractional) ownership, but they all
owned the Welfenschatz jointly in co-ownership
(see N. 9 f.). (3) The Consortium ended in 1935
but continued to exist for liquidation purposes
when additional assets came to the surface,
which creates a need for a supplementary liquidation (see N. 11 ff.). (4) The Plaintiffs cannot
have inherited individual fractional shares in
the Welfenschatz, as such shares did and do not
exist. Instead, there is a need for a proper liquidation that involves all the successors of the
Consortium members.
IV.

Nature and legal capacity of the Consortium
5. The Meder Opinion (p. 4-14) lengthily explores why the Consortium is to be considered
as an “occasion partnership” (Gelegenheitsgesellschaft) under German law.1 This
1

When the Meder Opinion (p. 13 s.) denies the relevance of
the discussion on the applicable law offered in the Armbrüster
Opinion (N. 20-24), it offers no statement at all about which conflict of law rules should then govern the law applicable on the
Consortium. This is even more striking if one considers that the
Meder Opinion (p. 4 ss.) does not hesitate to apply the German
civil code (BGB) to the case. However, as both Opinions come to
the conclusion that German law is applicable throughout, this
topic need not be further explored.
Furthermore, the Meder Opinion (p. 13) argues that the citation of literature and legal precedent concerning capital corporation law in the Armbrüster Opinion was “rather inconsequential”.
The Meder Opinion obviously has overlooked what is laid down in
N. 21 of the Armbrüster Opinion, where it is expressly stated that
the Reichsgericht, being the highest civil court in the relevant

249
qualification is in line with the Armbrüster
Opinion (N. 11-13). However, the Meder Opinion
(p. 7) misleadingly claims that this kind of partnership is “frequently formed as internal corporations that are characterized by not
participating in legal and business affairs and
by waiving the formation of corporation assets”.
This is true only for so-called everyday “occasion
partnerships”, such as car pools or betting pools,
but not for other kinds of “occasion partnerships”, such as a joint venture between several
building companies, as mentioned in the Armbrüster Opinion (N. 11) The quotation offered in
the Meder Opinion (p. 7) as evidence of this assessment do not support his point. Thus, e.g. the
statement by the author K. Schmidt expressly
differentiates between everyday “occasion partnerships” and other kinds of “occasion partnerships”, and he limits his statement, which is
cited in the Meder Opinion without any differentiation, exclusively to the former. The additional reference to Schäfer is inaccurate as well,
as that source does not deal at all with the question at issue.2
period, emphasized that the so-called seat theory reflects a general and universal principle.
2
The Meder Opinion (p. 8) further mentions that German
commercial law is not applicable to the Consortium. This is true,
and it was pointed out in the Armbrüster Opinion (N. 10 ss.).
When the Meder Opinion (p. 8) continues to state that in contrast
to the Armbrüster Opinion (N. 14, 15) "it may therefore be open
to interpretation whether the consortium members acted . . . as
owners of the corporation J. Rosenbaum, personally, or on behalf
of the art dealership", the Meder Opinion has clearly not recognized the relevance of that matter. It is self-evident that when

250
6. The Meder Opinion (p. 9 s.) assumes that
the Consortium can “in total only be viewed as
an internal corporation, but not as an external
corporation”. The distinction between both
kinds of partnerships is relevant for the question of legal capacity (Armbrüster Opinion, n.
26). In addition the Meder Opinion (p. 7) claims
that internal partnerships are characterized by
“waiving the formation of corporation assets”,
which is not correct.3 Meder’s assumption that
the Consortium was an internal partnership is
definitely inaccurate as well. As was pointed out
in the Armbrüster Opinion (n. 8), the three individuals who negotiated the 1929 agreement did
so jointly as members of the Consortium. It is
important to mention that the Meder Opinion
(p. 11) itself in a later passage reads as follows:
“The Consortium members instead acted as
shareholders of the Consortium”. This is the decisive fact that distinguishes an external partnership from an internal partnership.4 It is
therefore highly contradictory for the Meder
Opinion to acknowledge that the members acted
on behalf of the Consortium and at the same
time to deny the existence of an external partnership.

dealings of a Consortium are to be assessed, as is the case here,
the identity of the members of this Consortium needs to be clarified. This is not only true with regard to the legal transactions but
also with regard to succession, and to the Plaintiffs' standing to
assert claims belonging to the Consortium.
3
MünchKomm/Schäfer, BGB, 6th ed. 2013, § 705 N. 280.
4
MünchKomm/Schäfer (n. 3), § 705 N. 279.

251
7. The Meder Opinion (p. 10 s.) suggests that
the reference to the shareholders as “Consortium” cannot be considered as a reference to the
partnership. This assumption is inaccurate. As
was demonstrated in the Armbrüster Opinion
(N. 8, 13) both the 1929 and the 1935 agreements were concluded on behalf of the Consortium. Contrary to what the Meder Opinion (p.
11) assumes, this case is not at all comparable
to a case where several individuals who sell an
object are summarily referred to as “Sellers”. In
the latter case, the short name for all the individuals is just the plural of the word “seller”, and
this does not point to any different identity of
the contracting party, which still consists of several individuals. In contrast, the Consortium is,
as even the Meder Opinion (p. 8 ss.) concedes, a
company (the Meder Opinion inaccurately
speaks of a “corporation” but obviously means a
partnership). The Meder Opinion (p. 11) further
assumes that a partnership needs a “special
name” in order to conduct transactions as an external partnership. This is not accurate, and the
Meder Opinion fails to offer any evidence. The
viewpoint taken in the Meder Opinion raises the
question of how the members of the Consortium
could have behaved differently in order to act on
behalf of the Consortium. The answer is that
there is no such different way; they did exactly
what was needed in order to make clear that
they wanted to act on behalf of the Consortium.5
5

The Meder Opinion (p. 11) states that the empowerment of
one member of the Consortium by the others does not mean that
a special corporate officer is appointed as a representative. This

252
8. With regard to the question of legal capacity
of the Consortium, the Meder Opinion (p. 15-21)
expresses the view that this question has to
be answered in a purely historical perspective.
This is a view that may indeed be taken, even
though there are clearly stronger reasons for
the opposite position,6 as demonstrated in the
is true, and it is, contrary to what the Meder Opinion (p. 11) assumes, not at all put into doubt in the Armbrüster Opinion (N.
13), but it is irrelevant here. Especially for an “occasion partnership” it is quite common that with regard to the small number of
legal transactions that are to be performed, depending on the specific negotiating situation, an empowerment of one member with
regard to a certain legal transaction takes place. Thus the standard commentary by Staudinger correctly states as follows: “As a
matter of course, express powers of proxy are not affected by
the interpretation rule of Sect. 714. The rule of Sect. 714 only applies supplementarily. If there are express powers of proxy
these apply.” (Staudinger/Geiler, BGB, 9th ed. 1929, § 714 N. 4
(„Durch die Auslegungsregel des § 714 werden selbstverständlich
ausdrückliche Vollmachtserteilungen nicht berührt. Die Vorschrift
des § 714 greift nur ergänzend ein. Liegen ausdrückliche
Bevollmächtigungen vor, so gelten diese.”)). In fact, under German
law there is no need at all for the members of a partnership to
generally modify the terms of representation, which are laid down
in statutory law (Sect. 709 (1), 714 BGB), in the articles of association. They can rather agree to authorize one partner to act on
behalf of the partnership in a specific transaction without any
prejudice for further transactions, as would be the case when they
agreed on a general deviation from the nonbinding statutory provisions mentioned above (MünchKomm/Schäfer (n. 3), § 705 N.
22.
6
With regard to that position, the Meder Opinion (p. 21) also
argues that the Armbrüster Opinion fails to mention the limited
scope of application of the 2001 Bundesgerichtshof judgment on
legal capacity of a partnership. In fact there is only one limitation
of this judgment that matters in the Welfenschatz case, namely
its inapplicability to a mere “internal company”. This restriction
is mentioned in the Armbrüster Opinion (N. 26), where its

253
Armbrüster Opinion (N. 26). However when the
Meder Opinion (p. 16) states that the Armbrüster Opinion omitted the historical-perspective evaluation, this is obviously inaccurate. The
Armbrüster Opinion (N. 27) dedicates an entire
passage to exactly that question, where it is
demonstrated that no individual member of the
Consortium was able to dispose of a fractional
property share, as no such shares but a joint
ownership of all the Consortium members existed. It is striking that the Meder Opinion does
not at all explore this topic, which is decisive for
the qualification of the Consortium as well.
V.

Ownership of the Welfenschatz
9. The Meder Opinion (p. 12) states that
Saemy Rosenberg and Isaak Rosenbaum “were
the solely authorized shareholders and therefore the sole owners” of the Welfenschatz. From
this assumption the Meder Opinion (p. 12 s.)
draws the conclusion that no contract was concluded on behalf of the partnership. This statement is inaccurate in several ways. First of all,
as pointed out in the Armbrüster Opinion (N.
40), it cannot be ruled out that there were further members of the Consortium. In that case,
those other individuals would have to be considered as owners as well, notwithstanding the fact
that they were not “authorized” to act on behalf

irrelevance for the case is also demonstrated. The Meder Opinion
(p. 21) does not demonstrate that any further limitations of the
judgment may play a role here, which is not surprising as this is
not the case.

254
of the Consortium. Second, the statement reveals a fundamental misunderstanding of German partnership law. As explored extensively in
the Armbrüster Opinion (N. 8, 25 ss.), if one
assumes that the partnership is governed by the
view – commonly shared in the relevant period
– that a partnership lacks legal capacity, then it
is self-evident that the members of the partnership are the “sole owners". However, the decisive
question for liquidation is whether they own the
assets jointly or individually, i.e., fractionally.
The Meder Opinion (p. 12) does not address that
question in this context. Later, the Meder Opinion (p. 14) very vaguely deals with “a separate
corporation and/or special fund", the formation
of which it denies, rather than addressing the
question why there should not be co-ownership,
as assumed in Sect. 719 (1) BGB (see also below,
N. 15). For all these reasons the Meder Opinion’s
conclusions are inaccurate.
10. The same gross mistake reappears in the
Meder Opinion (p. 28) when it assumes that
each member of the Consortium would have
“sole ownership” of the Welfenschatz “proportional to his contribution ratio”. Once again the
Meder Opinion ignores the relevant statutory
provision in Sect. 719 (1) BGB, which assumes
that all members are co-owners of the partnership’s assets. The Meder Opinion cites two
sources in order to support its diverging statement. The first of these sources is the
Staudinger commentary, where the Meder
Opinion very imprecisely refers to about five
pages where various types of atypical

255
partnerships7 are mentioned, and to a further
five pages which concern various types of consortiums8. Neither of these passages supports
the view for which they are cited. The second
source quoted in the Meder Opinion (p. 28) is a
Reichsgericht judgment from 19069. This case is
atypical in the decisive point, as there was a
written partnership agreement, in which the individual partners were to acquire ownership of
a number of bonds that corresponded to their
share in the partnership. Thus the partners
were able to avoid a transfer from the partnership to themselves, which would have incurred
stamp tax. There is no evidence at all that the
members of the Welfenschatz Consortium had
concluded a similar agreement. To the contrary,
it is fair to assume that their common interest
was in line with what, in Sect. 719 (1) BGB, the
legislature deems appropriate for a partnership,
which is co-ownership rather than fractional or
total individual ownership of the assets that are
acquired for the purposes of the partnership.
The fact that there was such co-ownership is
true for the period before liquidation (Armbrüster Opinion N. 27) as well as for the liquidation itself (Armbrüster Opinion N. 35). The
speculations made in the Meder Opinion (p. 27
f.) on which kind of property ownership might
have been negotiated are entirely futile. This is
because in the absence of any evidence for a specific agreement between the members of the
7
8
9

Staudinger/Geiler (n. 5), Anhang zum 14. Titel, A.
Staudinger/Geiler (n. 5), Anhang zum 14. Titel, B II 1,
RG BankArchiv vol. 5 p. 230 f.

256
Consortium on the matter of ownership, the
general rule of co-ownership, which is laid down
in Sect. 719 (1) BGB, and which the Meder Opinion (p. 27 f.) fails to mention in this context, applies.
VI.

Continuing existence of the Consortium
for liquidation purposes
11. While the Meder Opinion (p. 22 ss.) is in line
with the Armbrüster Opinion (N. 31) with regard
to the fact that the Consortium had legally come
to an end in 1935, the conclusion that afterwards
“corporation assets” can no longer exist is inaccurate. The Meder Opinion obviously ignores the
fact that once assets that were not included in the
liquidation procedure turn up later, the partnership continues to exist for the purpose of its entire liquidation. This is an undisputed fact (see
Armbrüster Declaration N. 32, 34 ss.). If the
Meder Opinion’s assertions were accurate, there
would never be such a procedure as a supplementary liquidation (Nachtragsliquidation). In reality the continuing existence of a partnership in
such cases has been acknowledged (see references in the Armbrüster Declaration N. 30). It remains unclear why the Meder Opinion does not
take notice of this fact.10 The references quoted in
10

The Meder Opinion (p. 30 f.) argues that the Bundesgerichtshof case cited in the Armbrüster Opinion (N. 34 footnote 31) was irrelevant as it concerned an OHG. As expressly
stated in the Armbrüster Opinion, this case indeed concerns an
OHG, and the Armbrüster Opinion (N. 36) demonstrates that the
same rules apply to a GbR. This is also confirmed in the leading
Staudinger commentary, which is cited in the Armbrüster

257
the Meder Opinion (P. 24), including the Bundesgerichtshof case from 1999, do not deal with
the situation of supplementary liquidation that is
at stake here, and are therefore useless.
12. The Meder Opinion (p. 28) assumes that a
follow-up liquidation is “neither required nor expected” in this context. The Meder Opinion fails
to properly address the comprehensive analysis
which was developed on this matter in the Armbrüster Opinion (N. 34-41). In particular, the
Meder Opinion (p. 30) is inaccurate in stating
that the 1905 Reichsgericht decision cited in the
Armbrüster Opinion (N. 34 footnote 30) is “not
relevant”. The Reichsgericht rather confirms the
general rule that a partnership continues to exist as long as necessary for its liquidation. In the
1905 case, an exception was made only because
of very special circumstances, which were that
(1) all partners but one had already agreed on
the distribution of the assets, (2) they claimed
their share only from the remaining partner,
and (3) there was no reason at all why the partnership should continue to exist for liquidation
purposes. In the Welfenschatz case the situation
is quite different: The litigation does not take
place amongst former members of the partnership, but it is aimed at liquidating assets that
would later have to be distributed amongst
them. This means that in contrast to the
Reichsgericht case, the liquidation procedure
with regard to the remaining (alleged) asset has
only just started and is by no means finished
Opinion (N. 34 footnote 31), and which the Meder Opinion fails to
take notice of.

258
yet. When the Meder Opinion (p. 30) argues that
the Reichsgericht case is different, this is exactly
the point why it is cited in the Armbrüster Opinion (N. 34 footnote 30) with the addition “see further”; that case, in which the Reichsgericht
made an exception, and did not consider a supplementary liquidation necessary, confirms the
general rule that is relevant here.
13. In addition, it is not clear whether the
plaintiffs have standing to assert claims belonging to the Consortium at all (see also N. 15). This
is demonstrated in the Armbrüster Opinion (N.
34-41) in detail. In such a situation, it is essential to follow the legal rules on a proper and
transparent liquidation in order to protect any
further members of the Consortium or their
heirs from suffering damage caused by an uncoordinated action brought forward by certain individuals.
VII.

Standing of the Plaintiffs to assert claims
belonging to the Consortium
14. Finally, the Meder Opinion (p. 32) mentions that the heirs were associated by virtue of
inheritance. However, the Reichsgericht case
cited as proof of this statement concerns an entirely different case. In that case, the defendants
had never inherited any shares in a partnership,
but simply a piece of land, which they then developed in order to achieve a higher sales price.
In contrast, the plaintiffs in the present case
claim that they are heirs to or “authorized
agents in fact” (First Amended Complaint, N.

259
20) for the heirs to the former members of the
Consortium. As demonstrated in the Armbrüster
Opinion (N. 40), under German law they would
need to prove these allegations. But even if
they could do so, this would change nothing with
regard to the need for a proper liquidation procedure, as provided in Sect. 146 (1) HGB, and as
demonstrated in the Armbrüster Opinion (N. 3441).
15. The Meder Opinion (p. 26) claims that
there is no evidence on the face of the complaint
that the Consortium had involved foreign and
domestic business associates and that those associates consequently had further rights such as
property rights. This is correct. However, as the
Armbrüster Opinion (N. 40) points out, it is
equally correct that the existence of further nonmanaging partners of the Consortium beyond
the art dealers’ firms can by no means be ruled
out, which the Meder Opinion (p. 26) obviously
tries to suggest.
VIII. Conclusions
16. The Meder Opinion suffers from a fundamental misperception, as it considers the Consortium as a mere group of individuals and thus
as an “internal partnership”. This is clearly incompatible with the fact that in all the relevant
transactions the Consortium appeared and
acted as a proper party to the respective agreements, which makes it an “external partnership”.

260
17. Therefore the Welfenschatz collection was
acquired by the Consortium as such, or, if one
prefers to apply the predominant view before
2001, at least by all the Consortium members in
co-ownership. It would clearly be against the interest of all the members and their common interest to assume fractional ownership by each
member individually, which Sect. 719 (1) BGB
therefore prevents.
18. As demonstrated, none of the statements
made and none of the references cited in the
Meder Opinion put the conclusions of the Armbrüster Opinion into doubt. The findings of that
latter Opinion therefore remain relevant for the
assessment of this case.
Berlin, 6 June 2016
/s/ Armbrüster
Prof. Dr. Christian Armbrüster
Urkundenrolle Nr. R25/2016
der Notarin Ingeborg Rakete-Dombek,
Bayerischer Platz I, 10779 Berlin
Die umseitige, vor mir vollzogene Unterschrift
des Herrn Prof. Dr. Christian Armbrüster,
geboren am 15.05.1964,
wohnhaft Kufsteiner Straße 12, 10825 Berlin,
der Notarin von Person bekannt,
beglaubige ich.
Notarin befragte den Erschienenen, ob die Notarin
oder eine der mit ihr in beruflicher Zusa [illegible]
arbeit verbundenen Personen in der Angelegenheit,

261
die Gegenstand der vorstehenden Beglaubigurig
außerhalb ihres Notaramtes tätig war oder ist. Der
Erschienene verneinte die Frage.
Berlin, den 06.06.2016
/s/ J. Rakete-Dombek
Rakete-Dombek
Notarin
Kostenberechnung gem. § 19 GNotKG
Geschäftswert: 170.000,00 € (§ 121 GNotKG)
Nr. 25100 KV Unterschriftsbeglaubigung
Höchstgebühr
70,00 €
Nr. 32014 KV (19% Mehrwertsteuer)
13,30 €
83,30 €
/s/ J. Rakete-Dombek
Rakete-Dombek
Notarin

